<html>
<title> - NOMINATION HEARINGS OF THE 111TH CONGRESS: PART 2</title>
<body><pre>[Senate Hearing 111-87, Part 2]
[From the U.S. Government Publishing Office]



                                                  S. Hrg. 111-87, Pt. 2
 
           NOMINATION HEARINGS OF THE 111TH CONGRESS: PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                      JULY 22 AND DECEMBER 9, 2009

                               __________

       Printed for the use of the Committee on Veterans' Affairs


        Available via the World Wide Web: http://www.fdsys.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
51-327                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                             July 22, 2009
 Nominations of Raymond M. Jefferson to be the Assistant Secretary for 
 Veterans' Employment and Training Service, U.S. Department of Labor; 
 and Joan M. Evans to be the Assistant Secretary for Congressional and 
        Legislative Affairs, U.S. Department of Veterans Affairs
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Murray, Hon. Patty, U.S. Senator from Washington.................     5
    Prepared statement, Jefferson................................     5
    Prepared statement, Evans....................................    52
Tester, Hon. Jon, U.S. Senator from Montana......................     7
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    47
Burris, Hon. Roland W., U.S. Senator from Illinois...............    49

                               WITNESSES

Jefferson, Raymond M., III, nominee to be the Assistant Secretary 
  for Veterans' Employment and Training Service, U.S. Department 
  of Labor.......................................................     8
    Prepared statement...........................................    10
    Response to prehearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    12
      Hon. Richard Burr..........................................    17
    Response to posthearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    23
      Hon. Jon Tester............................................    24
      Hon. Mark Begich...........................................    24
      Hon. Roger F. Wicker.......................................    26
    Questionnaire for Presidential nominees......................    27
    Letter from the Office of Government Ethics..................    40
    Letter from the nominee to the Office of Legal Counsel, U.S. 
      Department of Veterans Affairs.............................    41
Wyden, Hon. Ron, U.S. Senator from Oregon........................    53
    Prepared statement...........................................    55
Evans, Joan M., nominee to be the Assistant Secretary for 
  Congressional and Legislative Affairs, U.S. Department of 
  Veterans Affairs...............................................    55
    Prepared statement...........................................    57
    Response to prehearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    58
      Hon. Richard Burr..........................................    64
    Response to posthearing questions submitted by Hon. Mark 
      Begich.....................................................    67
    Questionnaire for Presidential nominees......................    68
    Letter from the Office of Government Ethics..................    74
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    75
                              ----------                              

                            December 9, 2009
Nomination of Robert A. Petzel, M.D., to be Under Secretary for Health; 
   and Raul Perea-Henze, M.D., M.P.H., to be Assistant Secretary for 
        Policy and Planning, U.S. Department of Veterans Affairs
                                SENATORS

Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........    83
Johanns, Hon. Mike, U.S. Senator from Nebraska...................    84
Begich, Hon. Mark, U.S. Senator from Alaska......................    85
Murray, Hon. Patty, U.S. Senator from Washington.................    86
Burris, Hon. Roland W., U.S. Senator from Illinois...............    87
    Prepared statement...........................................    87
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................    88
    Prepared statement...........................................    88
Tester, Hon. Jon, U.S. Senator from Montana......................    89

                               WITNESSES

Franken, Hon. Al, United States Senator from Minnesota...........    90
Petzel, Robert A., M.D., Nominee to be Under Secretary for 
  Health, Veterans Health Administration, U.S. Department of 
  Veterans Affairs...............................................    91
    Prepared statement...........................................    92
    Response to prehearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    94
      Hon. Richard Burr..........................................   107
    Response to posthearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   113
      Hon. Patty Murray..........................................   116
      Hon. Jon Tester............................................   119
      Hon. Mark Begich...........................................   120
      Hon. Roland W. Burris......................................   121
    Questionnaire for Presidential nominees......................   124
    Letter from the Office of Government Ethics..................   133
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   134
    Response to request arising 
      during the hearing by Hon. Mark Begich...................143, 144
Perea-Henze, Raul, M.D., Nominee to be Assistant Secretary for 
  Policy and Planning, U.S. Department of Veterans Affairs.......   147
    Prepared statement...........................................   149
    Response to prehearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   150
      Hon. Richard Burr..........................................   154
    Response to posthearing questions submitted by:
      Hon. Patty Murray..........................................   157
      Hon. Jon Tester............................................   158
      Hon. Mark Begich...........................................   159
      Hon. Roland W. Burris......................................   159
    Questionnaire for Presidential nominees......................   160
    Letter from the Office of Government Ethics..................   167
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   168
    Response to requests arising during the hearing by Hon. Mark 
      Begich.....................................................   174

                                APPENDIX

Sanders, Hon. Bernard, U.S. Senator from Vermont; prepared 
  statement......................................................   177


HEARING ON THE NOMINATIONS OF RAYMOND M. JEFFERSON TO BE THE ASSISTANT 
  SECRETARY FOR VETERANS' EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF 
      LABOR; AND JOAN M. EVANS TO BE THE ASSISTANT SECRETARY FOR 
  CONGRESSIONAL AND LEGISLATIVE AFFAIRS, U.S. DEPARTMENT OF VETERANS 
                                AFFAIRS

                              ----------                              


                        WEDNESDAY, JULY 22, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Tester, Burris, Burr, and 
Isakson.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. Aloha and welcome to everyone here this 
morning. The hearing of the Senate Committee on Veterans' 
Affairs will come to order.
    This morning's hearing is to consider the President's 
nomination of Raymond M. Jefferson to be Assistant Secretary of 
Labor for Veterans' Employment and Training. Following Mr. 
Jefferson's testimony and questions from the Committee, we will 
turn to Joan Evans's nomination to be VA's Assistant Secretary 
of Congressional and Legislative Affairs.
    I note that we have invited the Members of the Senate 
Committee on Health, Education, Labor, and Pensions to join 
with us this morning as the Committee considers Mr. Jefferson's 
nomination. We share many common interests and issues with that 
Committee, including this nomination. I am hopeful that our two 
Committees, then the full Senate, will move expeditiously to 
consider Mr. Jefferson's nomination.
    The position of Assistant Secretary for Veterans' 
Employment and Training is a demanding and difficult one. If 
confirmed, Mr. Jefferson will serve as the leading advocate for 
efforts to meet the employment needs of our Nation's veterans. 
He will need to bring visibility and enthusiasm to the job in 
order to fulfill his job responsibilities.
    From the enforcement of the Uniformed Services Employment 
and Reemployment Rights Act to the alarmingly high rate of 
unemployment among recently separated veterans, his 
responsibilities will be significant. The myriad needs of 
veterans who are service-connected disabled, homeless, or 
incarcerated will confront him, as will the concerns of women 
veterans and the spouses of active duty personnel. He will need 
to work in close cooperation with those representing segments 
of the labor market, as well as VA and DOD, to ensure that 
veterans obtain good jobs and are able to pursue meaningful 
careers. At all times, it will be important that his office 
focuses on the difference between a career and just a job.
    Following any opening remarks, other Members may care to 
make, I have the honor of formally introducing Mr. Jefferson to 
the Committee. I will share more details on Mr. Jefferson's 
exemplary work and military experience. I believe strongly that 
his combined service in the public sector, private sector, and 
military make him an outstanding candidate for this position.
    Mr. Jefferson, I look forward to your testimony today and 
your responses to questions from Committee Members and to any 
posthearing questions.
    Now I would like to call on my friend, the Ranking Member, 
Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Aloha----
    Chairman Akaka. Aloha.
    Senator Burr [continuing]. And welcome to our witnesses, 
our nominees, and their families. Congratulations on your 
nominations, and thank you for being with us today.
    Although the positions for which you have been nominated 
are in two different departments, both contribute to a very 
important goal: meeting the needs of those who have served and 
sacrificed on behalf of our Nation. I might say, Mr. Chairman, 
regarding your offer for Members of HELP to attend, I am the 
token representative of the HELP Committee----
    [Laughter.]
    Senator Burr [continuing]. So just pretend that I am 
wearing a dual hat today.
    The Department of Veterans Affairs, Assistant Secretary for 
Congressional and Legislative Affairs, can help to advance that 
goal by fostering open communications between the VA and 
Congress. In part, that means ensuring that the Congressional 
requests are answered without hassle or delays. But it also 
means being proactive and alerting Congress about emerging 
trends, needs, or problems that may impact veterans in our 
homestates and across the Nation. This free flow of information 
will assist us in understanding what is working well at the VA 
and where improvements are needed. More importantly, it will 
allow us to work together to ensure that VA's programs and 
services are effective and are actually helping to improve the 
lives of our country's veterans and the lives of their 
families.
    Ms. Evans, if confirmed, you will play a key role in 
advancing communications and collaboration between VA and 
Congress. Currently, I do have some concerns about whether VA 
is living up to President Obama's vision of, ``an unprecedented 
level of openness in government.'' So I look forward to hearing 
your thoughts on how communication could be improved.
    Now turning to you, Mr. Jefferson, I want to first thank 
you for your service and your personal sacrifice on behalf of 
the country. As the newest member of the Board of Visitors of 
West Point, I look forward to serving in that capacity as long 
as they will have me.
    Also, I appreciate your willingness to take on the 
challenge of serving as the Department of Labor's Assistant 
Secretary for Veterans' Employment and Training. That 
organization helps meet the needs of those who have served by 
administering employment and training programs for veterans, 
providing transition assistance to separating servicemembers, 
and helping enforce laws that protect the employment rights of 
veterans and military personnel.
    With veterans now experiencing unemployment rates of over 8 
percent, it is more important than ever that veterans are 
provided with whatever assistance they need to find quality, 
full-time employment. To that end, Mr. Jefferson, I would be 
interested in your views on what more can be done to make sure 
that veterans are being well served by the Department of 
Labor's employment and training programs.
    Also, our Nation currently has thousands of Guard and 
Reserve members deployed to Iraq and Afghanistan, including 
over 4,000 members of the North Carolina Army National Guard 
right now, several of whom were killed in action in the past 3 
weeks. Many of these citizen soldiers left behind valued 
civilian jobs when they answered the call from their country; 
and when they return, they deserve to be quickly and properly 
reinstated in their jobs as required by the Uniformed Service 
Employment and Reemployment Rights Act.
    Mr. Jefferson, if confirmed, you would be in charge of 
helping resolve servicemembers' concerns if USERRA violations 
do occur, and perhaps more importantly, in helping to prevent 
employers from violating this law in the first place. For all 
employers, particularly the Federal Government--and I will tell 
you that I was quite alarmed at the number of complaints that 
had been filed by returning servicemembers who worked at 
Federal Government agencies prior to deployment throughout this 
up-tempo deployment period--it is important that they 
understand this law and are doing everything they can to 
protect the employment rights of those who serve.
    Mr. Jefferson, I look forward to your ideas on how we make 
this a reality nationwide.
    Mr. Chairman, I appreciate you calling this hearing to 
discuss the qualifications of both these nominees. I remain 
committed to ensuring that we have a full complement of 
leaders, both at VA and Veterans' Employment Training Service, 
who will work every day to improve the lives of veterans and 
veterans' families. I welcome both of our nominees.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr.
    It is my deep honor and privilege to introduce Ray 
Jefferson to the Committee at this time. From his military 
experience to his pursuit of a career in public service, Mr. 
Jefferson has demonstrated a commitment to excellence and a 
spirit of selflessness that is rarely seen.
    I have known Ray since he served as a White House Fellow in 
the year 2000, and I have enjoyed working with him immensely. 
By choosing to call Hawaii his home, he makes Hawaiians proud.
    Ray graduated from the U.S. Military Academy at West Point 
in 1988 with a major in leadership. He served as an Army 
officer with the Infantry Rangers in Special Forces, holding 
leadership positions in the U.S. Presidential Honor Guard, 
Third Ranger Battalion, and First Special Forces Group. In 
1995, while attempting to protect his teammates from a 
prematurely detonating hand grenade, he lost all five fingers 
on his left hand.
    Following treatment and recuperation at Tripler Army 
Medical Center in Honolulu, Ray attended Harvard's Kennedy 
School of Government, where he earned an M.P.A. in strategic 
management. Subsequently, he attended Harvard Business School, 
where he earned an M.B.A. and was recognized with a Dean's 
Award for Exceptional Leadership and Service.
    After graduation, Ray was selected as a White House Fellow 
and worked as a Special Assistant to the U.S. Secretary of 
Commerce. He went on to serve as a Fulbright Fellow in 
Singapore. In 2003, the Governor of Hawaii appointed him to be 
the Deputy Director for the Department of Business Economic 
Development and Tourism. This position involved creating jobs, 
facilitating business development, diversifying the economy, 
and creating renewable energy initiatives.
    He was selected by then-Secretary of State Colin Powell as 
one of the two inaugural recipients of the Harrison A. Schmidt 
Fulbright Alumni Leadership Award for Dedication to Public 
Service.
    Mr. Jefferson has accumulated a wealth of experience in 
management and leadership. He brings with him an enthusiasm and 
zeal for the position to which he has been nominated that is 
really remarkable.
    I am proud to consider him a friend and I recommend him to 
the Committee without qualification. I look forward to working 
closely with him on meeting the employment needs of this 
Nation's veterans and separating servicemembers, as well.
    Mr. Jefferson, I understand that you have brought along a 
number of friends and associates this morning. Before I ask you 
to begin your remarks, could you please introduce them to the 
Committee.
    Senator Burr. Mr. Chairman, before he does that, could I 
say that Mr. Jefferson spent almost 3 years in North Carolina 
on different stints so I claim ownership of him----
    [Laughter.]
    Senator Burr [continuing]. As you might in Hawaii, because 
North Carolina is a much more memorable stop for anybody in the 
Army.
    [Laughter.]
    Chairman Akaka. With that, and before I ask you to 
introduce your family and friends, let me ask Senator Murray 
for any opening remarks she may have.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Mr. Chairman, thank you so much.
    Raymond, it's very nice to see you here. I have read 
through your resume, and I am very, very impressed in your 
taking on an issue that is extremely important to me: making 
sure that the men and women who serve us are rightfully and 
gainfully employed when they come home. I look forward to 
hearing your comments this morning and having a chance to ask a 
few questions.
    But really, I am looking forward to working with you. Mr. 
Chairman, I ask that my full statement be submitted for the 
record.
    [The prepared statement of Senator Murray follows:]
 Prepared Statement of Hon. Patty Murray, U.S. Senator from Washington
    Senator Akaka, Senator Burr, Thank you very much for holding 
today's hearing to consider the nominations of Ray Jefferson to be the 
next Assistant Secretary of Labor for Veterans' Employment and Training 
and Joan Evans to be the next VA Assistant Secretary for Congressional 
and Legislative Affairs.
    Mr. Jefferson, Ms. Evans, welcome to the Committee. I congratulate 
you both on your nominations and applaud you for your willingness to 
take on these challenging--and rewarding--jobs.
    I also want to thank both of you for meeting with my staff 
yesterday, and I apologize that I was unable to join because of a vote 
on the floor.
    I am looking forward to hearing from you both about your goals for 
serving our veterans. One thing that is clear to me is that finding the 
right people for these leadership jobs is absolutely critical.
    Ultimately, the VA and the Labor Department are organizations of 
people, and those in leadership roles will shape their cultures as well 
as their policies.
    And as all of us here know, our veterans deserve no less than the 
best that our country has to offer.
                           To Ray Jefferson:
    Mr. Jefferson, as a veteran yourself, you are acquainted with the 
characteristics and skills that our veterans bring to the table. They 
have what it takes to succeed in the working world--they are 
disciplined team players who have proven that they can perform under 
pressure.
    But when our men and women transition from the battlefield to the 
civilian world, they often find that their skills are not understood by 
civilian employers.
    Even in the best of times, this transition would be difficult. But 
when combined with the current economic recession, the results have 
been devastating.
    Nearly one million veterans are now unemployed as of February 2009. 
There are twice as many unemployed veterans as there were one year ago 
and there are more unemployed Iraq and Afghanistan veterans than there 
are men and women currently serving in Iraq.
    We know that helping our servicemembers transition into civilian 
life is a fundamental cost of war. The brave men and women who leave 
their jobs to serve our country deserve our help finding good jobs when 
they return.
    While there is a patchwork of Federal programs available to help 
veterans secure civilian employment and promote entrepreneurship, more 
needs to be done.
    This is why I am working on a bill right now which would improve 
job opportunities and vocational training for veterans.
    Together, we have to find a way to make the transition from soldier 
to citizen a smoother one, and I look forward to working with you to do 
just that.
    Thank you for appearing before the Committee today, and for your 
honorable service.

    Chairman Akaka. Thank you. It will be included in the 
record.
    Mr. Jefferson, will you please proceed with introducing 
your family and friends.
    Mr. Jefferson. Thank you, Senator. I would like to 
introduce my mother, Mrs. Nadia Jefferson. My mother is an 
Egyptian-American and a lifelong public servant. She spent her 
life as a teacher's aide for physically challenged children, 
and I am very honored, Mom, to have you here today. Thank you.
    I have quite a few guests, so let me just briefly mention, 
I would like to thank and acknowledge a good friend, Mr. Scott 
Gould, the Honorable Scott Gould, Deputy Secretary of Veterans 
Affairs. We have been friends for quite some time, and I know 
we are looking forward, if confirmed, to just having 
unprecedented interagency collaboration.
    I would like to acknowledge many of my friends from the 
military academies, from West Point and also the Naval Academy, 
and we have quite a few members from both academies of the 
Class of 1988. So if the Class of 1988 would kindly stand up. 
[Applause.]
    When I was going through the rehabilitation program, I had 
the privilege of attending the Harvard University, and the 
Director of Admissions for Harvard's Graduate School of 
Government came down from Harvard today. I am very grateful to 
her for giving me the opportunity to attend that school and 
accepting my humble application. Alexandra Martinez, thank you 
for being here. [Applause.]
    I have two more introductions. When I was going through 
graduate school, I had the privilege of participating in the 
Department of Veterans Affairs Vocational Rehabilitation and 
Employment Program. My case officer in Boston, Rick Repucci, 
just retired after 29 years with the VA. He flew down to be 
here today. He really helped me when I was getting my life back 
together. Rick, thank you for your service. [Applause.]
    Next, I would like to acknowledge two veterans who are here 
today. Both of them were severely injured in the line of duty. 
One is my West Point classmate and good friend of 25 years, 
Tony Dinallo. Tony had a rapelling accident. He was dropped 50 
feet. He was a complete paraplegic, yet in the period of 1 
year, he miraculously was able to work himself back to being 
fully functioning. Tony, thanks for being here today. 
[Applause.]
    Finally, it has just been a long journey from that hospital 
bed in Tripler back in 1995 to this room today. When I was in 
the hospital, there was a gentleman who came to visit me. He 
had lost his leg; he was an amputee. From the first days, he 
just gave me a lot of encouragement to keep going. I lost touch 
with him after 1995, and we had a reunion about a month ago, 
and he is here today. His name is Nadir Ogundi from the U.S. 
Navy. [Applause.]
    I just want to acknowledge the many friends and family who 
are here today who for reasons of time I haven't introduced, 
but their unfailing support and confidence have played a huge 
role in my life, for which I am very thankful and grateful. 
Thank you all for being here. [Applause.]
    Chairman Akaka. Thank you, Mr. Jefferson.
    In addition, I, too, want to recognize Deputy Secretary 
Gould, who is with us today. I would like to welcome you, 
Secretary Gould. We appreciate you taking your valuable time to 
be here in support of these nominees. Thank you very much.
    Before I administer the oath to Mr. Jefferson, I am going 
to ask Senator Tester for any opening remarks he may have.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Mr. Chairman. I very much 
appreciate you being here today, Mr. Jefferson.
    I have got to tell you that I was very impressed by you 
when we met in my office, and I am further impressed by you 
packing the Committee room. I think that speaks well of you, 
and it speaks well of your commitment to each other. Friends 
are the most valuable commodity you can have--easiest to lose 
and hardest to get. So I think that speaks well of you.
    I am not going to take a lot of time, Mr. Chairman. I will 
tell you that when Mr. Jefferson and I spoke in my office, we 
talked about rural America and veterans that live in rural 
America and how we can get them jobs. We have got a region in 
America called Montana that is as big as the Northeastern 
corridor where, quite honestly, we need to do a better job at 
helping our veterans find work.
    I think there are five folks there. I would typically say 
we need more, but maybe we just need a different way of 
utilizing other people that can support them. I don't care how 
we do it. We just need to figure out ways that we can--through 
those positions and the Labor Department, but also the VA--get 
these veterans back on their feet. You know all about that.
    Mr. Jefferson. Yes, sir.
    Senator Tester. So I just want to thank you for being here 
today. I think there are many programs out there that can help 
our veterans. They need to be fully maximized to take care of 
these folks and help them get good-paying jobs once they 
reenter the civilian lifestyle.
    So, I want to thank you for putting yourself up for this 
job. I will tell you that I have no doubt in my mind that you 
are going to do great things, and I appreciate your willingness 
to serve.
    Mr. Jefferson. Thank you, Senator, very much.
    Senator Akaka, sir, if I may humbly make one last 
introduction of some kamaaina who have come from Hawaii to be 
here--the Takamura family, Jeanette and Karl Takamura. Jeanette 
has previously served our Nation as the Assistant Secretary for 
Health and Human Services. They have traveled from Hawaii to be 
here today. [Applause.]
    Chairman Akaka. Thank you very much, Mr. Jefferson. Will 
you please rise to take the oath and raise your right hand.
    Do you swear or affirm that the testimony you will give at 
this hearing and any written answers or statements you provide 
in connection with this hearing will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Jefferson. I do.
    Chairman Akaka. Thank you. Let it be noted that the witness 
responded in the affirmative.
    Mr. Jefferson, will you please begin with your statement.
    Mr. Jefferson. Yes, Senator, and will gladly follow up with 
that question, as well, sir.
    Chairman Akaka. Thank you.
    Mr. Jefferson. Chairman Akaka, aloha.
    Chairman Akaka. Aloha.

    STATEMENT BY RAYMOND M. JEFFERSON, NOMINATED TO BE THE 
ASSISTANT SECRETARY FOR VETERANS' EMPLOYMENT AND TRAINING, U.S. 
                      DEPARTMENT OF LABOR

    Mr. Jefferson. Chairman Akaka, Ranking Member Burr, and 
Distinguished Members of the Committee, thank you. Thank you 
for your service to the veterans' community, and thank you for 
considering my nomination here today.
    Over the past 2 weeks, I have had the opportunity to meet 
with many Members of the Committee to learn about your 
priorities and also obtain the benefit of your ideas, advice, 
and insights. Those have been tremendously helpful, and I am 
very appreciative.
    I am humbled and honored by President Barack Obama's 
nomination to serve our country as the Assistant Secretary of 
Labor for Veterans' Employment and Training. Both of my parents 
were lifelong public servants, which had a huge impact on who I 
am and how I have come to be here today.
    I have introduced my mother. I want to just acknowledge my 
father, who was an African American. He spent his career as the 
Deputy Director for the New York State Department of Mental 
Health and Mental Retardation. He passed away, but I know that 
he is here today in spirit.
    I am here today because of a defining moment in my life. 
After graduating from West Point, I spent 11 years as an Army 
officer. There was a pivotal moment on October 18, 1995, that 
put into motion a series of events that have led me to be here 
today. While trying to protect my teammates from a defective 
hand grenade detonating prematurely, I lost all fingers on my 
left hand. But someone once wrote that every crisis is an 
opportunity to be reborn, and my personal journey as a veteran 
and an amputee provided me with firsthand knowledge on the 
needs that our veterans face.
    In the early days of my accident, I was often worried, 
fearful, uncertain about my future and wondering if things 
would ever be all right again. But recuperation and moving 
forward have been the greatest, most positive journey of my 
life. The hardest decision that I had to make was believing it 
was possible, making a commitment to excellence and to continue 
striving to achieve my dreams.
    When I was in that hospital in Tripler, I made a commitment 
to three things: serving our Nation as a leader in the public 
arena; helping other individuals and organizations overcome 
challenges to achieve their potential; and participating in 
humanitarian endeavors.
    I want to acknowledge again the significant impact the 
Department of Veterans Affairs had in my life. The Vocational 
Rehabilitation and Employment Program there was instrumental in 
me getting my life back together. And Rick, I am so glad that 
you could be here to see this today. I can personally attest to 
the success that is possible for veterans and transitioning 
servicemembers when they have the support of a committed 
Federal agency and its staff to help them.
    Transitioning from military to civilian life taught me 
firsthand the challenges that our servicemembers and veterans 
may face. I understand, and I have been a part of the 
communities that we serve and those that we partner with. I 
appreciate the importance of transitions and support to help 
create or recreate one's life.
    So, my vision for VETS, if confirmed: I am completely 
committed to supporting President Barack Obama's and Secretary 
Hilda Solis's promises to veterans of restoring our sacred 
trust with them and ensuring that we provide them with the best 
possible employment services. Secretary Solis and I are 
especially committed to ensuring we serve populations with 
unique needs, populations such as: homeless veterans; women; 
veterans from rural communities; and veterans who have been 
ill, wounded, or injured.
    If confirmed, I will consider myself to have four primary 
responsibilities. First, leading the organization in a 
participative manner to make sure that we focus on peak 
performance, talent development, performance measurement and 
inspirational leadership.
    Second, developing the vision and creating, communicating, 
and implementing the supporting strategy to achieve that vision 
and help today's transitioning servicemembers and veterans 
succeed in the modern economy.
    Third, advising the Secretary on relevant policy matters.
    And fourth, reporting to the Secretary and this Committee 
on the results of our efforts.
    Should I have the privilege of being confirmed, VETS will 
be committed to the following. First, increasing access, 
awareness, and participation in its programs and in improving 
the employment outcomes for those participants.
    Second, helping transitioning servicemembers to transition 
seamlessly into quality civilian employment and careers, with a 
special emphasis on green jobs and jobs of the future.
    Third, boosting USERRA's impact by increasing the awareness 
of and commitment to it and reducing USERRA-related claims.
    Fourth, investing in VETS team members to increase their 
potential and to ensure that they can have greater capacity to 
serve veterans and transitioning servicemembers.
    And finally, communicating and collaborating with other 
agencies of the Department of Labor and with all of our 
stakeholders, inside and outside government, with a particular 
emphasis on Congress and this Committee, VSOs, State workforce 
agencies, the Department of Veterans Affairs, the Department of 
Defense, the State workforce agencies, the private sector, 
nonprofits, and other government agencies, so that we can 
better serve veterans and their employment needs.
    In conclusion, I am committed and inspired to help 
transitioning servicemembers and veterans create meaningful 
lives, develop rewarding careers, and become productive 
citizens and leaders in their communities. Eleanor Roosevelt 
once said that the future belongs to those who believe in the 
beauty of their dreams. I believe that together we can provide 
transitioning servicemembers and veterans with the best 
possible service, and together we can make sure when people 
like Cadet Sam Harrison finishes his military career and 
transitions to being a veteran, that he has the best possible 
services and resources available to him that our Nation can 
provide.
    Thank you very much. I look forward to answering your 
questions, and, if confirmed, the privilege of working with 
you. Thank you.
    [The prepared statement of Mr. Jefferson follows:]

Prepared Statement of Raymond M. Jefferson, Nominee to be the Assistant 
     Secretary for Veterans' Employment and Training Service, U.S. 
                          Department of Labor

    Good Morning Chairman Akaka, Senator Burr and Distinguished Members 
of the Committee on Veterans' Affairs: Thank you for your service to 
the Nation, for your service to the Veterans community and for 
considering my nomination. I am honored to be here today seeking your 
endorsement for the privilege of serving as the Assistant Secretary of 
Labor for Veterans' Employment and Training.
    Over the past few weeks, I had the opportunity to learn about the 
Committee's priorities and benefit from your ideas, advice and 
insights. That has been tremendously helpful. Thank you. Your support 
and commitment to helping Veterans and Veteran-serving agencies succeed 
was apparent, heartfelt and inspiring.
    I am humbled and honored by President Barack Obama's nomination to 
serve as the Assistant Secretary of Labor for Veterans' Employment and 
Training. I am also very grateful for the confidence President Barack 
Obama and Secretary Hilda Solis have in me to help achieve their 
promises to Veterans in the area of employment and training.
    I am joined today by my mother, Mrs. Nadia Jefferson. My father 
passed away several years ago, but I know he is here in spirit and 
proud of what he sees. My mother and father were both lifelong civil 
servants. My mother, an Egyptian-American, spent her career as a 
teacher's aide for physically challenged children. My father, an 
African-American, was the Deputy Director for New York State's 
Department of Mental Health and Mental Retardation. I am a product of 
their upbringing, and of America's public school system. I want to 
acknowledge and thank my friends for their unfailing support, and 
express my gratitude to the many teachers whom I have had throughout my 
life. They have all played a major role in my being here today.

                           A DEFINING MOMENT

    Sometimes the split-second decisions we make in life become 
unexpected defining moments and turning points. I spent 15 years in the 
Army, beginning as a cadet at West Point followed by 11 years as an 
Army officer with leadership positions in the Presidential Honor Guard 
(Infantry), 3rd Ranger Battalion (Airborne Ranger Infantry) and 1st 
Special Forces Group (Asia). October 18, 1995, is a day that I will 
always remember and which, unknown at the time, put in motion a series 
of events that led to the privilege of being here today. As I began to 
participate in a classified Special Forces training mission that day, I 
never thought that, within hours, my life would change forever. It was 
during that afternoon, while trying to protect my teammates from a 
defective hand grenade that was detonating prematurely, that I lost all 
five fingers on my non-dominant hand, in the line of duty. I received 
tremendous support during my recuperation from my family, friends, the 
Army and the Department of Veterans Affairs. This support, and many 
answered prayers, were the reasons that I was able to move forward and 
recreate a meaningful life. My mother and many of these friends are 
here today. Thank you--I will always remember what you did for me.

                            PERSONAL JOURNEY

    My personal journey as a Veteran and an amputee has provided me 
with firsthand understanding and appreciation for the needs that our 
Veterans have. In the early days after my accident, I was often filled 
with sadness, worried and uncertain about my future, and fearful that 
things would never be alright again. Recuperation and the journey 
forward has been the greatest, most challenging and positive experience 
of my life. My hardest decision was making the commitment to move 
forward through life, focus on the positive, and continue striving for 
excellence. I dedicated the remainder of my life to the following 
threefold path: (1) serving our Nation as a leader in the public arena; 
(2) helping individuals and organizations to achieve their potential; 
and (3) performing humanitarian service through global endeavors.
    By participating in the Department of Veterans' Affairs' Vocational 
Rehabilitation and Employment Program, I was able to receive the 
support and financial assistance needed to achieve a dream--earning an 
MBA and an MPA (Master in Public Administration) from Harvard 
University. I can personally attest to the success that is possible 
when Veterans and transitioning servicemembers have the benefit of a 
committed Federal agency and its staff to assist them.
    I continued a career of public service as a White House Fellow, 
serving as a Special Assistant to the U.S. Secretary of Commerce, and 
then as a Fulbright Fellow in Singapore. Afterwards, I had the 
privilege of serving as the Deputy Director for Hawaii's Department of 
Business, Economic Development and Tourism, a position equivalent to 
Deputy Secretary of Commerce. Most recently, I was a Leadership 
Consultant with McKinsey & Company in Asia and helped organizations 
develop their human talent and performance potential. Since my 
accident, I've also had the opportunity to work with and learn from 
many nonprofits that help underserved populations.
    Transitioning from military to civilian life as a Veteran-amputee 
taught me firsthand the challenges that Veterans and transitioning 
servicemembers can face upon entering the civilian workforce. I 
understand and have been a part of the communities we serve and those 
we partner with, and appreciate the importance of transitions and 
assistance to help create, or recreate, a life and career. I am 
inspired and committed to help Veterans and transitioning 
servicemembers create meaningful lives, develop rewarding careers and 
become productive citizens and leaders in their communities.

                            VISION FOR VETS

    If confirmed, my mission would be to support and achieve President 
Barack Obama's and Secretary Hilda Solis' promises to Veterans--
restoring our Nation's sacred trust with Veterans and providing them 
and transitioning servicemembers with better services. Secretary Solis 
makes it very clear that Veterans and VETS are a high priority for her. 
She particularly emphasizes the Department of Labor's (DOL's) 
responsibility to help returning servicemembers from the Iraq and 
Afghanistan wars obtain good jobs and create meaningful careers. 
Secretary Solis also stresses the need for cooperation among all DOL 
agencies. I would be a principal member of the DOL leadership team and 
would work collaboratively with the other Assistant Secretaries to 
ensure that DOL does all it can to help Veterans with their employment 
needs. Secretary Solis and I will pay special attention to ensuring we 
serve populations with unique needs, such as Veterans and transitioning 
servicemembers who are women, ill or injured, or who live in rural 
communities.
    If confirmed, I will consider my responsibilities to be the 
following:

    (1) Leading the organization in a participative, synergistic manner 
with an emphasis on inspirational leadership, talent development, peak 
performance, career satisfaction and performance measurement;
    (2) Developing the vision and creating, communicating and 
implementing the supporting strategy for helping Veterans and 
transitioning servicemembers to succeed in today's economy;
    (3) Advising the Secretary on relevant policy matters; and
    (4) Reporting to the Secretary on the results of VETS' efforts.

    Should I have the privilege of being confirmed, VETS will be 
committed to:

    (1) Increasing access to and participation in its programs, and 
improving the employment outcomes for those participants;
    (2) Helping servicemembers to transition seamlessly into quality 
civilian employment and careers, with a particular emphasis on ``Jobs 
of the Future'' and Green Jobs;
    (3) Boosting USERRA's impact by increasing awareness of and 
commitment to it, while also reducing USERRA-related issues;
    (4) Investing in VETS' team members to further develop their 
inherent potential and increase their capacity to better serve 
Veterans; and
    (5) Communicating and collaborating with other DOL programs and 
with stakeholders inside and outside the Federal Government--such as 
Congress, the VSOs, state workforce agencies, the private sector, 
nonprofits and other government agencies--to better serve Veterans and 
achieve their employment needs.

    If confirmed, success would be measured by the impact our programs 
have on helping Veterans and transitioning servicemembers succeed in 
today's modern economy. I believe performance measurement and best 
practice benchmarking are important, continuous processes that help 
organizations provide the best service possible and greatest impact. 
These processes would further increase Veterans' customer satisfaction 
and outcomes while helping VETS continually improve service delivery, 
program results and ensure that public funds are well spent.

    In conclusion, if this Committee chooses to confirm me, I will work 
closely with you, with the outstanding team at VETS and with our 
partners and stakeholders to provide Veterans and transitioning 
servicemembers the best possible resources and services to enable their 
success in today's economy. Thank you for your unwavering commitment to 
Veterans and for considering my nomination. It would be a privilege and 
an honor to serve our Nation's Veterans and transitioning 
servicemembers--I hope you find me worthy.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Daniel K. Akaka to 
Raymond M. Jefferson to be Assistant Secretary for Veterans' Employment 
                 and Training, U.S. Department of Labor

    Question 1. Have you and Secretary Solis discussed the duties and 
the role you would assume as Assistant Secretary for Veterans' 
Employment and Training if you are confirmed? If so, what specific 
areas of the job were discussed?
    Response. Yes. Secretary Solis and I are committed to achieving 
President Barack Obama's vision, goals and his promises to Veterans. 
Secretary Solis made it very clear that Veterans and VETS are a high 
priority for her. In particular, she emphasized our responsibility to 
help returning servicemembers from the Iraq and Afghanistan wars to 
obtain good jobs and create meaningful careers.
    Secretary Solis and I both believe that the Assistant Secretary for 
Veterans' Employment and Training supports President Barack Obama's 
agenda by being responsible for (1) leading the organization; (2) 
developing the vision; (3) creating, implementing and communicating the 
strategy for helping Veterans and transitioning servicemembers to 
succeed in today's economy; (4) advising the Secretary on relevant 
policy matters; and (5) reporting to the Secretary on the results of 
VETS' efforts. Secretary Solis emphasizes the need for seamless 
cooperation among all DOL agencies. I will be a principal member of the 
DOL leadership team and will work with the other Assistant Secretaries 
to ensure that DOL does all it can to help Veterans with their 
employment needs.

    Question 2. Have you and Secretary Shinseki discussed the 
relationship you would have with the Department of Veterans Affairs in 
your capacity as an Assistant Secretary within the Department of Labor?
    Response. Yes, I've met with Secretary Shinseki as well as Deputy 
Secretary Scott Gould and Chief of Staff John Gingrich. We also had the 
opportunity to work together as part of the Presidential Transition 
Team. We have spoken informally since then, and developed the 
foundation for a positive, productive and collaborative relationship 
going forward. If confirmed, I am looking forward to working seamlessly 
with VA to fulfill President Barack Obama's promises of restoring our 
Nation's sacred trust with Veterans and providing them and 
transitioning servicemembers with better services. In particular, we're 
in agreement on the need to work closely together to provide the best 
possible employment opportunities for all Veterans.
    Question 3.What policymaking role do you anticipate having if you 
are confirmed?
    Response. If confirmed, my role will be to support the Secretary's 
policymaking responsibilities by serving as her principal advisor and 
partner on issues relating to Veterans' employment and training. I will 
provide her with my candid and unbiased opinion on VETS-related matters 
to the best of my ability and, when a decision is made, will ensure it 
is communicated and implemented effectively, efficiently and 
consistently. Secretary Solis has emphasized that I will be part of the 
core policymaking team and will represent Veterans' employment and 
training concerns in all DOL activities.

    Question 4. Have you formulated any thoughts on what your job 
responsibilities will be and how you will approach these 
responsibilities if confirmed?
    Response. If confirmed, my mission would be to support Secretary 
Solis' commitment to good jobs for everyone by providing Veterans and 
transitioning servicemembers the best possible resources and services 
to enable their success in today's economy. The job responsibilities 
would include (1) leading the organization; (2) developing the vision; 
(3) creating, implementing and communicating the strategy for helping 
Veterans and transitioning servicemembers to succeed in today's 
economy; (4) advising the Secretary on relevant policy matters; and (5) 
reporting to the Secretary on the results of VETS' efforts.
    Fulfilling these responsibilities will involve (1) increasing 
participation in VETS programs and improving employment outcomes for 
those participants; (2) helping servicemembers to transition seamlessly 
into quality civilian employment and careers, with a particular 
emphasis on ``Jobs of the Future''; (3) reducing USERRA-related issues 
and increasing USERRA's impact; (4) investing in VETS' team members to 
further develop their inherent potential and increase their capacity to 
better serve Veterans; and (5) communicating and collaborating with 
other DOL programs and with stakeholders inside and outside the Federal 
Government--such as Congress, the VSOs, state workforce agencies, the 
private sector, nonprofits and other government agencies--to better 
serve Veterans and achieve their employment needs.

    Question 5. If confirmed, what would you most like to accomplish in 
your new position? What would you hope your legacy to the Department 
will be?
    Response. If confirmed, I would like my legacy to be the 
accomplishment of four goals. First, serving as a focal point for the 
issue of Veterans' employment, to include greater awareness and use of 
VETS resources as well as enhanced cooperation with our stakeholders, 
especially Congress, the VSOs and state workforce agencies. Second, 
incorporating best-practices and providing excellence in program and 
service delivery to Veterans. Third, increasing the private sector's 
involvement as a partner in Veterans' employment. Finally, working 
synergistically with VETS' team members to become a model for 
inspirational leadership, talent development, peak performance and 
career satisfaction.

    Question 6. How would you describe your management style and how is 
it suited to this particular position?
    Response. I use a method of leading and managing that is 
appropriate for the situation and context, always with the goal of 
achieving results while developing people in the process. My preference 
is to use a participative style--one that involves stakeholders in 
identifying opportunities, developing options and creating an action 
plan, then delegates the implementation and supervises it by measuring 
results and personal interaction. Recognizing and appreciating team 
members' contributions are also important leader actions. I value 
collaboration and consensus as ways to develop the best ideas and buy-
in for solutions. Simultaneously, I recognize and accept the 
responsibility for accomplishing the mission. Serving Veterans the best 
way possible will be my guiding concern.
    This approach reflects the commitment to achieving Veterans' 
employment needs while further enhancing VETS' culture, capacity and 
impact. There are many stakeholders and programs in the area of 
Veterans' employment. This approach, and its emphasis on collaboration, 
also recognizes and supports the need to work in partnership with VA, 
DOD and DHS so that together we can fulfill President Barack Obama's 
promises to Veterans and transitioning servicemembers.

    Question 7. What in your experience do you believe contributes to 
your qualifications for this new position?
    Response. My personal journey has provided me with firsthand 
understanding and appreciation for the needs that our Veterans have as 
well as the opportunity to gain qualifications and skills that are 
ideally suited to this opportunity of service. I spent 15 years in DOD, 
beginning at West Point followed by 11 years as an Army officer in 
leadership positions with the Presidential Honor Guard (Infantry), 3rd 
Ranger Battalion (Airborne Ranger Infantry) and 1st Special Forces 
Group (Asia). On October 18, 1995, I lost all five fingers on my non-
dominant hand in the line of duty while trying to protect my teammates 
from a defective hand grenade that was detonating prematurely. I 
received tremendous support from DOD and VA, which was instrumental to 
helping me move forward and create a meaningful life. Through 
participation in VA's Vocational Rehabilitation and Employment Program, 
I was able to receive financial assistance to achieve a dream--earning 
an MBA and an MPA (Master in Public Administration) from Harvard 
University.
    I continued a career of public service as a White House Fellow, 
serving as a Special Assistant to the U.S. Secretary of Commerce and 
learning about interagency cooperation, leading complex Federal 
organizations and policy formulation. Afterwards, serving as a 
Fulbright Fellow in Singapore broadened my ability to work in 
multicultural environments, as does living in my homestate of Hawaii. I 
then had the privilege of serving as the Deputy Director for Hawaii's 
Department of Business, Economic Development and Tourism, a position 
equivalent to Deputy Secretary of Commerce. This role strengthened my 
ability to enable organizational transformation, deliver and improve 
large-scale public services, formulate policy, understand private 
sector perspectives, promote workforce development and appreciate state 
workforce agencies. Most recently, serving as a Leadership Consultant 
with McKinsey & Company broadened and deepened my understanding of the 
private sector, leading change, developing inspirational leadership and 
businesses' needs regarding hiring human talent.
    I understand and have been a part of the communities we serve and 
partner with, and know the importance of transitions and assistance to 
help create, or recreate, a meaningful life.

    Question 8. What particular skills do you bring with you to this 
new position that will help you address the employment needs of 
Veterans?
    Response. My background in the military, public and private 
sectors, combined with some unique developmental experiences--among 
them transitioning from military to civilian life as a veteran-
amputee--allowed me to develop a combination of skills that will be 
very helpful for serving Veterans' employment needs. Among the skills 
that I have developed are (1) leadership, management and human 
relations; (2) public advocacy, listening and speaking; (3) 
understanding and incorporating private sector priorities, support and 
objectives; (4) the ability to develop partnerships and networks around 
shared interests; and (5) performance measurement and benchmarking. 
Additionally, I have a very personal understanding of the challenges 
that Veterans and transitioning servicemembers can face upon entering 
the civilian workforce, and can personally attest to the success that 
is possible when they have the benefit of a committed Federal agency to 
assist them. I am inspired and committed to help Veterans and 
transitioning servicemembers create meaningful lives, develop rewarding 
careers and become productive citizens and leaders in their 
communities.

    Question 9. What strategies might be implemented to ensure a higher 
level of visibility for issues related to Veterans' employment needs?
    Response. Having VETS serve as a focal point for Veterans' 
employment is an important first step to raise awareness and visibility 
of the issue. Within DOL, the Secretary has assured me that VETS is a 
priority and I will be a principal member of her leadership and 
policymaking team. Additionally, we should strengthen the dialog, 
relationship and collaboration with stakeholders such as Congress, the 
VSOs, state workforce agencies, our Federal partners (e.g. VA, DOD, 
DHS, HUD, SBA and others), nonprofits and the private sector to elevate 
the dialog and develop new ideas, while also communicating progress and 
successes. The potential of leveraging online social networking should 
be explored as well.

    Question 10. I believe much can be done to improve the coordination 
and cooperation between VA and DOL. What thoughts do you have as to how 
this might be achieved?
    Response. Joint DOL/VA collaboration is essential to meet Veterans' 
employment needs and fulfill President Barack Obama's promises of 
restoring our Nation's sacred trust with Veterans and providing them 
and transitioning servicemembers with better services. I had the 
opportunity to work with Secretary Shinseki, Deputy Secretary Scott 
Gould and Chief of Staff John Gingrich while serving as a member of the 
VA Agency Review Team. We developed the foundation for a positive, 
productive and collaborative relationship going forward. If confirmed, 
I will meet with the VA leadership as soon as possible and regularly 
thereafter to maintain a strong partnership. Presently, there is 
significant coordination between the agencies--VETS works with VA's 
Vocational Rehabilitation and Employment Service (VR&E), VA is also a 
member of the Transition Assistance Program (TAP) Steering Committee 
and both Secretaries are members of the Interagency Council on 
Homelessness. At the same time, I would like to explore ways to further 
improve coordination and cooperation at all levels and wherever 
services are delivered. Additionally, I would like to determine how we 
can have greater impact together in the many areas where we share 
common goals, such as transition assistance, homelessness, job 
creation, better serving women's veterans, etc.

    Question 11. Are there any specific problems or challenges that you 
have already identified that you would like to tackle in this new 
position?
    Response. Since the intent to nominate, my involvement with DOL has 
been minimal and so my first priority will be to learn more about the 
agency, observe operations in the field, assess the current impact of 
its programs and solicit input from VETS' team members, Veterans and 
stakeholder groups. There are many opportunities before us, to include 
(1) revolutionizing the TAP program; (2) increasing private sector 
involvement with VETS and Veterans' employment; (3) strengthening 
USERRA's impact; (4) investing in VETS' human capital; (5) helping 
homeless Veterans obtain employment, with special attention to women's 
particular needs; and (6) enhancing relationships with current 
stakeholders while developing relationships with potential partners.

    Question 12. Veterans are afforded specific protections under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA). 
What emphasis will you place on striving to make certain that Federal 
agencies are role models of USERRA compliance so that Veterans who have 
fought for the Nation do not have to come home and fight for their jobs 
and benefits?
    Response. The Secretary and I are committed to the President's 
promise of fighting employment discrimination against Veterans and 
returning servicemembers. USERRA compliance and support will be a top 
priority of ours to ensure that it is a strong program that protects 
people's rights. An important first step will be to further develop the 
relationship with OPM so we have a strong foundation for collaboration. 
We want to expand USERRA outreach to ensure that employers--
particularly Federal employers--understand and comply with the law. In 
partnership with OPM, we want to ensure that executive branch agencies 
provide effective training to their human resources personnel, as 
required by the 2008 amendments to USERRA. The expertise and 
investigative skills of VETS USERRA investigators should be enhanced 
with a common standard. It is my understanding that VETS is currently 
participating in an OPM task force with this same objective. The USERRA 
claims process should also be analyzed to determine how it can be 
improved and expedited.

    Question 13. How do you believe special hiring authorities--for 
example, Veterans' preference, Veterans Readjustment programs, Disabled 
Veterans affirmative action programs, and others--might be promoted to 
increase the employment of Veterans both within the Department of Labor 
and across all Federal agencies?
    Response. VETS' responsibilities in this area complement OPM's 
responsibility of developing and managing human capital for the Federal 
Government. VETS should work in partnership with OPM to increase 
awareness, understanding and support of these authorities within all 
Federal agencies, with particular outreach to human resources and 
management decisionmakers. We should also enhance the synchronization 
of our efforts with stakeholders such as the VSOs, state workforce 
agencies, VA's Vocational Rehabilitation and Employment Service (VR&E), 
and other government entities at the Federal and state levels. It is my 
understanding that VETS is currently participating in an OPM task force 
with this same objective.

    Question 14. I know that you understand the value of a seamless 
transition. The transition from military to civilian life needs to be 
as hassle free and as beneficial as possible for servicemembers. I am 
aware the DoL has been involved with efforts in this area, especially 
through the TAP workshops, but I believe that more might be done. What 
is your assessment of DoL's role in transition from active duty to 
Veteran status and what might be done in this regard?
    Response. Secretary Solis and I agree that servicemembers' 
transitions from military to civilian life should be as seamless and 
beneficial as possible. The Transition Assistance Program (TAP) is an 
important way to help accomplish that goal, and expects to serve about 
130,000 customers this year. While DOL has primary responsibility for 
TAP, improving it will require input from its clients--the 
servicemembers, DOD and DHS--and other stakeholders. I look forward to 
working in partnership with Congress, VA, DOD, DHS, the VSOs and state 
workforce agencies to ensure that TAP delivers the best possible 
service to our heroes in uniform. It will be important to review 
participant feedback on satisfaction and improvement suggestions; 
determine what best practices and new, relevant content should be 
further incorporated; increase awareness of TAP's utility; involve 
private sector input and increase access for National Guard and Reserve 
personnel. Pilot programs are an effective vehicle for determining the 
impact of new ideas.

    Question 15. The employment-related needs of recently separated, 
younger Veterans have, over time, been particularly difficult to 
address as their rate of employment has been consistently higher than 
their peers. What ides do you have for new ideas that might be 
implemented to assist these individuals?
    Response. Transforming the TAP program to make it more effective is 
an important contribution that VETS can make to help younger, 
separating servicemembers transition faster, easier and more 
successfully to civilian life. Research conducted by the University of 
Chicago reveals that young Veterans have a very high initial 
unemployment rate that steadily decreases and, by 39 weeks after 
separation, approximates that of the general veteran population (which 
is typically lower than that of the overall population). We want to 
decrease the time it takes young Veterans to reach the rate of the 
general Veteran population.
    Transforming TAP needs to be done in partnership with Congress, VA, 
DOD, DHS, VSOs and state workforce agencies. It should involve input 
from servicemembers and Veterans as well as the private sector. TAP 
participants should receive best practices and the most effective 
transition-related training. As stated earlier, it will be important to 
learn from past participant feedback on satisfaction and improvement 
suggestions; determine how new, relevant content should be 
incorporated; increase awareness of TAP's utility and increase access 
for National Guard and Reserve personnel. Pilot programs are an 
effective way vehicle to demonstrate the impact of new training 
approaches and that the time to approach the unemployment rate for the 
general Veterans population can be reduced. The potential of leveraging 
online social networking and new media to reach more Veterans--
especially the younger ones--should also be explored.

    Question 16. What emphasis will you place on the needs of Veterans 
who are homeless--particularly those who are women?
    Response. Secretary Solis and I are committed to supporting 
President Barack Obama's promise to combat homelessness among our 
Nation's Veterans by expanding proven programs and launching innovative 
services. Secretary Solis is presently serving as the Vice-Chairperson 
for the Interagency Council on Homelessness and has asked us to focus 
parts of our 2010 programs on homeless women Veterans.
    Effectively addressing Veterans' homelessness will require working 
in partnership with VA, HUD, HHS and other Federal agencies. While 
employment is a key component of freedom from homelessness, the problem 
needs to be addressed in a holistic, interagency manner with other 
important stakeholders--government and nongovernmental--at the 
national, state and local level, such as community-based organizations 
and neighborhood partnerships. It is also important to identify best 
practices and disseminate them. VETS' Homeless Veterans Reintegration 
Program has garnered praise as a highly successful, model program. The 
Secretary has directed us to conduct demonstration programs in 2010 to 
determine how we can deliver better services to women Veterans and 
families who are homeless. We will place a high emphasis on helping 
homeless Veterans and addressing the unique needs of those who are 
women.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Richard Burr to 
   Raymond M. Jefferson, Nominated to be the Assistant Secretary for 
  Veterans' Employment and Training Service, U.S. Department of Labor

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Daniel K. Akaka to 
 Raymond M. Jefferson, Nominee to be Assistant Secretary for Veterans' 
       Employment and Training Service, U.S. Department of Labor

                           JOBS OF THE FUTURE

    Question 1. You have noted a desire to focus on ``Jobs of the 
Future'' and ``Green Jobs.'' Could you please provide examples of each?
    Response. ``Jobs of the Future'' are jobs in occupations that (1) 
are in high demand; (2) are growing; and (3) offer good wages and 
opportunities. Some examples are the professions of health care and 
information technology. For example, the median hourly wage for 
Registered Nurses (RNs) was $29 in 2006. Demand for RNs is projected to 
increase by 18-26%, requiring over one million RNs by 2016. Many 
information technology occupations are projected to increase over 27%, 
and those occupations paid median hourly wages of over $30 in 2006.
    ``Green Jobs'' are also ``Jobs of the Future.'' They can already be 
found in many industries, and will continue to grow in both numbers and 
importance. For example, the recently enacted economic stimulus 
legislation is expected to give a boost to the creation, retention, and 
transformation of up to 400,000 ``Green Jobs'' in the next several 
years. VETS recently issued grants to service providers who will assist 
Veterans to prepare for and obtain jobs in the following industries: 
construction; retrofitting; energy-efficient building; renewable 
electric power; energy efficient and advanced drive train vehicles; 
bio-fuels; deconstruction and materials usage; energy efficiency 
assessment for the residential, commercial, or industrial sectors; and 
manufacturers that produce sustainable products using environmentally 
sustainable processes and materials.

                               INVESTMENT

    Question 2. You noted that you hope to invest in VETS' team members 
``to further develop their inherent potential and increase their 
capacity to better serve Veterans.'' If confirmed by the Senate, can 
you please provide--within 60 days--more detail on how you intend to 
make this investment together with goals and a timetable for moving 
forward?
    Response. Yes, Mr. Chairman. If confirmed, I will provide you with 
a more detailed plan for this investment, to include goals and a 
timetable, within 60 days of confirmation.
                                 ______
                                 
   Response to Posthearing Questions Submitted by Hon. Jon Tester to 
 Raymond M. Jefferson, Nominee to be Assistant Secretary for Veterans' 
           Employment and Training, U.S. Department of Labor

Effectiveness of State Grants Program for Local Veterans' Employment 
        Representatives (LVER) program and the Disabled Veterans' 
        Outreach Program (DVOP)
    The Department's data on veteran job seekers paint an unclear 
picture of their use of employment and training services (according to 
GAO Reports conducted in 2005 and 2007) making it difficult to know how 
many, and how well, Veterans are actually served. Lack of credible 
information diminishes the Department's ability to appropriately apply 
resources, especially in rural communities and on Indian Reservations. 
I am concerned that these data gaps and antiquated State Grant formulas 
may have contributed to a decrease in personnel resources and effective 
use of those resources by the state.
    Question. If confirmed, will you commit to a full review of LVER 
and DVOP performance measures and outcomes to see if they are adequate, 
particularly with respect to service of rural Veterans? Will you 
provide an update to my office within one year?
    Response. Yes, if confirmed, I am committed to conducting a full 
review of the LVER and DVOP programs--to include performance measures, 
outcomes and service delivery models--to determine if they are adequate 
and how they can be improved, particularly with respect to service for 
rural Veterans. I will provide you with an update of that review within 
one year of confirmation.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mark Begich to 
 Raymond M. Jefferson, Nominee to be Assistant Secretary for Veterans' 
       Employment and Training Service, U.S. Department of Labor

    Question 1. In your testimony you state Secretary Solis is 
committed to ensuring returning Vets from Iraq and Afghanistan wars 
obtain good jobs and create meaningful careers.

    (a) Can you tell me what specific programs are in-place to track 
the transitioning Veterans to assist in implementing the goal of 
employment?
    (b) How does the DOL work with Department of Defense (DOD) and 
Department of Veterans Affairs (DVA) to achieve this goal?
    Response. The Transition Assistance Program (TAP) is the most 
important program in place to assist servicemembers transitioning from 
military to civilian employment. TAP is a Department of Defense (DOD) 
program that partners with DOL, the Department of Veterans Affairs 
(VA), and the Department of Homeland Security (DHS). The program is 
guided by a Steering Committee chaired by DOL and its members are the 
VA, DOD, DHS, and the military services. TAP has four components:

    1. Pre-separation counseling--This is mandatory for all 
transitioning servicemembers and is provided by the military services 
and DHS;
    2. TAP employment workshops--These are mandatory in the Marine 
Corps, voluntary in the other services, and are administered through 
DOL and its state partners;
    3. VA benefits briefings--These briefings are also voluntary and 
administered by the VA; and
    4. Disabled Transition Assistance Program (DTAP)--This is also 
voluntary and administered by the VA.

    Question 2. You describe performance measurement and benchmarking 
as important, which can assist in providing the greatest impact. 
According to the 2007 GAO report on the Disabled Veterans' Outreach 
Program (DVOP) and Local Veterans' Employment Representative (LVER) 
program; these programs have many problems with accurately providing 
performance measures. What can you tell me about performance 
measurement in these programs and how you would strive to improve 
these?
    Response. The performance of grant programs is measured and closely 
monitored by Federal staff assigned as grant officer technical 
representatives. Each grantee, whether a state workforce agency or 
competitive grantee, is required to provide quarterly reporting. Goals, 
to include entered employment and retained employment, are established 
for each grantee and closely reviewed. Technical assistance is provided 
for any grantee that falls short of those goals. If confirmed, I am 
committed to conducting a full review of the LVER and DVOP programs--to 
include performance measures, outcomes and service delivery models--to 
determine if they are adequate and how they can be improved. I would be 
happy to provide you with an update of that review.
    Success can be measured by the impact our programs have on helping 
Veterans and transitioning servicemembers succeed in today's modern 
economy. I believe performance tools such as best-practice 
benchmarking, customer satisfaction analysis, outcome tracking, 
stakeholder input and impact assessment are important processes that 
should be continuous and that help organizations provide the best 
service possible and achieve the greatest impact. I want to ensure that 
we are measuring the right metrics--ones that enable and determine 
success in VETS' vision, mission and responsibilities--and 
incorporating the resulting information in a cyclical self-improvement 
process. This process should increase Veterans' customer satisfaction 
and outcomes while helping VETS to continually improve service delivery 
and program results.

    Question 3. From the DOL Web site I note that performance outcomes 
for employment of Vets and disabled Vets are varied amongst the States. 
The national average is 60% employment for Vets earning an average of 
$32K/year.

    (a) I believe the goal of DOL is 60%, should we have a higher goal?
    Response. I understand that the entered employment goal is 62.5%. I 
believe we should continually strive to improve performance and set 
goals that provide relevant outcomes for Veterans. If confirmed, I'm 
committed to conducting a full review of all programs, performance 
metrics and goals to ensure that the best possible service is provided 
and the best possible outcomes are achieved.

    (b) What are we doing to focus on the States like Hawaii, Rhode 
Island, and California which are down in the 40% range?
    Response. If confirmed, I am committed to identifying and 
addressing the causes of employment below the national average in 
impacted States to the greatest extent possible, and doing so in 
collaboration with our partners, to include Congress, the VSOs, state 
workforce agencies, the private sector, nonprofits and other government 
agencies.

    Question 4. According to the Bureau of Labor and Statistics $32K/
year is $10K/year less than the national wage average of $42K/year. 
What would you explain the reasoning is for this 24% discrepancy in 
wage earnings for Vets?
    Response. The data referenced originates from two very different 
sources. The average $42,000/year figure refers to the average $42,270/
year earnings for all occupations, as reported by the May 2008 
Occupational Employment Statistics (OES) survey conducted by the Bureau 
of Labor Statistics (BLS). The OES is a semiannual survey of nonfarm 
establishments. The annual wage estimate represents the base pay for 
non-farm wage or salary workers assuming a full-time year-round 
schedule, with few exceptions.
    The veteran earnings data cited above refers to the earnings of 
Veterans who are employed in the first quarter after they last received 
Wagner-Peyser employment services, and who retain employment for two 
additional quarters. The average earnings for this population was 
$33,658 for the quarter ending March 31, 2009. (Source: ETA 9002 D Qtr 
Ending March 31, 2009, reported as of 6/2/2009.) This earnings level 
compares quite favorably to that of all (veteran and nonveteran) 
Wagner-Peyser participants ($25,376); to participants in the Workforce I
nvestment Act (WIA) Adult Program ($28,692); and to WIA Dislocated 
Worker participants ($32,180). (http: / / www . doleta . gov / 
performance / results / Quarterly_report / Mar_09 / Quarterly_ 
Report_033109.pdf)
    It should be noted that most of the participants in these One-Stop 
Career Center programs have experienced a recent period without 
employment. Therefore, it is expected that it will take some time for 
their earnings to rebound to the levels that they may have experienced 
prior to their period without employment.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Roger F. Wicker to 
 Raymond M. Jefferson, Nominee to be Assistant Secretary for Veterans' 
       Employment and Training Service, U.S. Department of Labor

    Mr. Jefferson, should you be confirmed, you would be responsible 
for overseeing several important programs that affect the lives of many 
of our Nation's Veterans. The services offered through the Homeless 
Veterans' Reintegration Program play an important role in assisting 
homeless Veterans find meaningful employment.
    A healthcare resource organization from my state was a recipient of 
the Homeless Veterans' Reintegration Program for the last three years. 
Recently, this non-profit organization applied for the 2009 Veterans' 
Reintegration Program grant, but ran into serious problems with the 
grants.gov Web site. This error, due to the failing of the grants.gov 
Web site, prevented the application from being accepted despite several 
attempts and calls to the appropriate help desk. In fact, my 
constituent was informed that this systematic issue had been ongoing 
for several days. However, I was informed in a letter from the 
Department of Labor (DOL) that the Department's rules do not allow it 
to consider any submissions received after the deadline, even if it was 
the government's own delivery system that failed. I am concerned that 
the DOL does not have sufficient flexibility in its rules to respond to 
the increasing shift to electronic submission of grant applications. I 
have been informed of other departments' rules that allow for a two day 
error correction window to address submission errors arising under 
systematic issues outside of the applicant's control. This seems to be 
a well-reasoned approach.

    Question 1. What steps will you take, if confirmed as Assistant 
Secretary, to ensure that safeguards are put in place to allow 
submissions from applicants when similar errors occur outside their 
control?
    Response. Since being nominated, my involvement with DOL has been 
minimal so I have not been able to conduct an evaluation of the 
program. One of my first priorities will be to learn more about the 
agency, observe operations in the field, assess the current impact of 
its programs and solicit input from VETS' team members, Veterans and 
stakeholder groups. This will involve conducting an accurate, 
comprehensive assessment of the performance, effectiveness and impact 
of all programs, to include their service delivery models. If 
confirmed, I will review the rules pertaining to submitting 
applications for Homeless Veterans Reintegration Program grants as well 
as feedback about the application process.
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from the nominee to the Office of Legal Counsel, 
U.S. Department of Veterans Affairs:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Akaka. Thank you very much, Mr. Jefferson, for 
your testimony.
    I would like to pose a question. Could you please share 
your thoughts with us on what you view as the difference 
between a job and a career and what emphasis you would place on 
each, if confirmed.
    Mr. Jefferson. Yes. Mr. Chairman, thank you very much for 
highlighting that difference for the Committee and for the 
Members here today. It is important that we make sure that all 
veterans have good jobs. That is a priority of Secretary Solis. 
But a greater service that we can provide is preparing them for 
careers.
    One of the differences is that careers have the opportunity 
for continuing and progressive growth, development, financial 
self-sufficiency, and opportunities. Emphasizing that 
preparation is something that we would like to do through our 
work with the CVOPs, Disabled Veterans Outreach Program, the 
LVERs (the Local Veterans' Employment Representatives), and 
also the TAP program to bring in new content that will empower 
veterans to manage their careers and have a greater vision for 
themselves than they previously thought possible.
    Chairman Akaka. Thank you very much for that response.
    You have indicated that you believe performance measurement 
and best practice benchmarking can help organizations provide 
the best service possible and make the greatest impact. Could 
you explain how these processes might be applied to LVERs and 
DVOPs, especially since they are actually employees of the 
various States?
    Mr. Jefferson. Yes. Senator, thank you for highlighting 
that. It is an issue that I have been thinking about and have 
some ideas on. From serving as Deputy Secretary of Commerce 
with the Department of Business, Economic Development and 
Tourism, or DBEDT, in Hawaii, I have a keen appreciation for 
the dynamics of State and local service providers. But how can 
we look at other models for service delivery? We're scanning 
related service delivery organizations in other sectors, the 
private and the nonprofit. Which ones have the greatest 
outcomes? We are looking at what they do and then bringing that 
information in, teaching our DVOPs and our LVERs through the 
NVTI (National Veterans Training Institute) and through 
concurrent and refresher training; looking at how we can 
emphasize and incorporate new modalities, such as pure 
learning; maybe incorporating some new IT solutions so best 
practices are taught and disseminated and shared much more 
efficiently. We want to identify what is the best process out 
there and bring those to our DVOPs and LVERs.
    Chairman Akaka. VA estimates that 131,000 veterans are 
homeless on any given night. Struggles with obtaining and 
maintaining suitable employment after service is one of the 
many factors that contribute to a veteran becoming homeless. If 
confirmed, how do you plan to strengthen the Veterans' 
Employment and Training Program to combat these troubling 
statistics?
    Mr. Jefferson. Yes. Mr. Chairman, one veteran who is 
homeless is too many. I think there are several things that 
need to be done. One is strengthening the partnership with 
service delivery organizations, working more closely with 
Veterans Affairs, working more closely with Housing and Urban 
Development to take not a single agency approach but an 
interagency approach.
    Two, identifying those organizations that have the highest 
success rates of helping homeless veterans, learning what they 
are doing, sharing and disseminating those best practices. Some 
of those are grantees of ours, we have relationships with them. 
But looking at who has the highest outcomes for helping 
veterans end homelessness the quickest and disseminating those 
best practices in an interagency manner.
    Chairman Akaka. Thank you very much. Have you given any 
thought to the employment needs of the spouses of active-duty 
servicemembers who are deployed and how VETS might address 
them?
    Mr. Jefferson. Yes, Mr. Chairman, we have. One of the 
programs that we have which could be extremely helpful to 
spouses is the Transition Assistance Program. Spouses can 
participate in that program. What I would like to do is explore 
the degree of awareness about that opportunity and to look at 
how we can increase awareness of the program, increase spousal 
involvement, and also highlight the success stories and the 
positive outcomes of that involvement.
    Chairman Akaka. Thank you very much.
    Let me call on the Ranking Member for his questions. 
Senator Burr?
    Senator Burr. Thank you, Mr. Chairman.
    Again, Ray, welcome.
    Mr. Jefferson. Thank you, sir.
    Senator Burr. The first question, housekeeping. As Ranking 
Member, I do have some responsibilities to Members on this side 
of the aisle to actively do oversight, as does the full 
Committee, with regard to the activities of the Veterans' 
Employment and Training Services. This tends to lead me or my 
staff to make certain requests at times. If confirmed, do you 
pledge to ensure that my staff and I will be provided with 
requested information in a timely manner?
    Mr. Jefferson. Yes, sir, I absolutely do.
    Senator Burr. If confirmed, will you be proactive in 
alerting this Committee, including both sides of the aisle, to 
any significant trends, problems, or other issues regarding the 
law and programs administered by the Veterans' Employment and 
Training Service?
    Mr. Jefferson. Yes, Senator, I will.
    Senator Burr. I thank you for those answers.
    Ray, last year, Congress passed a law that I authored that 
would require Federal executive branch agencies to ensure that 
their human resource personnel are trained in the rights and 
obligations under the Uniformed Service Employment and 
Reemployment Rights Act. In my view, this will help prevent 
USERRA violations from occurring in the first place, but it is 
my understanding that some agencies have been slow to implement 
this new training requirement.
    Do you agree that the best steps that we can take to 
protect USERRA rights of military personnel and veterans is to 
prevent them in the first place?
    Mr. Jefferson. Senator, I think that is critically 
important, and one of the things that we want to do is to 
increase awareness and commitment of employers' 
responsibilities under USERRA. If confirmed, I would look to 
strengthen the relationship with OPM so that we can provide 
that training and technical assistance to Federal Government 
agencies, other government agencies, partner with the private 
sector to ensure that they understand and are committed to 
that, and that prevention is a key component of reducing 
USERRA-related claims.
    Senator Burr. Do you agree that that starts with the proper 
training of human resources personnel to ensuring that they 
understand the law?
    Mr. Jefferson. Yes, Senator. I think that is a critical 
component in the process.
    Senator Burr. I have your commitment that you will work 
aggressively to make sure that any agencies that might have 
been slow to take on the letter of the law actually do go 
through that training process?
    Mr. Jefferson. Senator, one of my first priorities will be 
to perform a complete evaluation of the program to identify any 
agencies which have been slow to implement that process, then 
to take appropriate action to encourage them to complete that 
process.
    Senator Burr. Great. Thank you.
    In your prehearing questions, you stated that the 
Department of Labor, ``strongly opposes transferring the 
responsibility of investigating these USERRA cases from the 
Department of Labor to the Office of Special Counsel.'' Yet in 
25 cases this fiscal year, the Department of Labor has exceeded 
the statutory 60-day limit for referring cases to the Office of 
Special Counsel out of the 128 Federal USERRA cases closed in 
fiscal year 2009, to date.
    If transferring control of Federal USERRA claims to the 
Office of Special Counsel could help expedite a just resolution 
of those cases, wouldn't veterans be better served to do that?
    Mr. Jefferson. Well, Senator, thank you for highlighting 
that issue. I actually feel that there are two points here to 
address. First is doing a complete assessment of the process to 
determine why there have been those extended procedures 
required and to go ahead and streamline it so all 
investigations are completed in the appropriate period of time.
    But there is a fundamental reason why I believe that that 
responsibility should not be transferred. In addition to doing 
investigations, that also provides the veterans and 
transitioning servicemembers with additional programs and 
resources that could be very helpful to them in finding and 
obtaining not just a job, but a career, which is our 
fundamental goal. So I believe that we need to maintain the 
current responsibility because of the other services, 
resources, and benefits we provide, and to look at how that 
process can be improved, then improve it as rapidly as 
possible.
    Senator Burr. If a year from now we have got the same 
percentage number of cases that have not been referred and they 
exceed the statutory 60-day limit, what question should I ask 
of you then?
    Mr. Jefferson. Senator, our commitment is to ensure that 
there is no need to ask that question within the year, sir, 
because we will have resolved it. We will have resolved it 
prior to that. We also want to work very closely with you and 
your office to keep you informed every step of the way.
    Senator Burr. With your incredible passion to get this 
done----
    Mr. Jefferson. Yes, sir.
    Senator Burr [continuing]. Can I assume that if we still do 
have a problem a year from now, then it is a territorial 
dispute versus a lack of will?
    Mr. Jefferson. I think, sir, if a year from now a problem 
still exists, we will look at some new and innovative 
approaches to resolve it.
    Senator Burr. Thank you.
    Mr. Jefferson. But I want to give you my full commitment, 
sir, that USERRA is a priority, that doing everything we can in 
every step of the process to ensure there is commitment to it, 
that all partners and all sectors are involved and aware, and 
that we produce the outcomes that our veterans deserve when 
they come back, which is that the job they left and the 
benefits are available to them.
    Senator Burr. I thank you for that commitment and I thank 
the Chair.
    Chairman Akaka. Thank you very much, Senator Burr.
    Now I will call on Senator Murray for her questions.
    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Jefferson, would you share with us what you think is 
the biggest challenge facing the VETS office in helping 
veterans with their employment goals?
    Mr. Jefferson. Thank you, Senator. Being very candid with 
you, since my accident, I don't look at things in terms of 
challenges as much as I look at them as opportunities. So, I 
feel that we have some significant opportunities.
    One significant opportunity is to engage more strongly with 
the private sector. You can do all kinds of wonderful things to 
improve your programs and prepare a veteran or a transitioning 
servicemember for career success. But when he or she goes out, 
if they cannot find a job within a reasonable period of time, 
it is demoralizing. So engaging with private-sector 
organizations to increase awareness of what veterans can 
provide and get their commitment to hire veterans is a huge 
priority.
    Second, looking at how all of our programs could be 
improved to incorporate best practices and increase the 
outcomes.
    And third, the partnerships. This is not a priority or a 
role that VETS can do alone. We need to engage with our friends 
inside and outside government, VSOs, State workforce agencies, 
nonprofits, to do this in partnership.
    I think those are three significant things that we can do 
to increase our service to veterans and transitioning 
servicemembers.
    Senator Murray. Let me focus on one of them, the private 
sector.
    Mr. Jefferson. Yes.
    Senator Murray. I mean, I talk to veterans all the time----
    Mr. Jefferson. Yes.
    Senator Murray [continuing]. And they want to be employed, 
they want a job, they want to be productive. I've talked to 
Chambers of Commerce and they have no idea that veterans are 
even out there. I made a pledge to many of our Iraqi and Afghan 
veterans coming home that I would never leave a Chamber of 
Commerce or Rotary meeting without telling them they need to 
hire veterans.
    Mr. Jefferson. Yes.
    Senator Murray. How do we engage the private sector better? 
How do we let them know about the many men and women who have 
got great skills?
    Mr. Jefferson. Well, thank you, Senator. I know that is an 
area that we can collaborate on, and I also feel very strongly 
about. I think there are several things. One is looking for 
those organizations that private sector leaders turn to for 
sources of information and increased awareness. One is YPO-WPO, 
Young Presence Organization-World Presence Organization; it is 
a CEO organization. So, engaging them to find out what 
information they need from us: is it a massive resume database? 
How can we take the tremendously talented individuals who are 
out there and make it easy for you to contact them and hire 
them?
    So, having dialog with organizations that represent private 
sector interests, going to those large organizations that have 
a history of hiring the most veterans and looking at how we can 
potentially create pilot programs to streamline veterans' 
hiring. Also speaking to the veterans and working with the VSOs 
to find out where the veterans are experiencing challenges in 
the process and working it from both ends so together we can 
come toward the middle.
    Senator Murray. Well, it is a big challenge, but I am 
really glad that you are going to take that on because I think 
there are a lot of opportunities left simply because the two 
groups--veterans and the people who employ veterans, our 
private companies--don't know that each other exists.
    Mr. Jefferson. Exactly, Senator. That is something we want 
to address; and also to encourage the assistance and the ideas 
of this Committee as we do that.
    Senator Murray. OK, great. You know the Federal Government 
has a huge patchwork of programs available today, including the 
one you are going to head up. You talked a little bit about 
streamlining and collaborating. How do you do that with the 
other Federal agencies so that people are working better 
together?
    Mr. Jefferson. Yes. Well, Senator, I think that is a--it is 
an immediate priority and it is a hugely important one. I think 
part of this involves personal relationships, and I have been 
fortunate to have some existing relationships with many of 
these agencies--very grateful to have the Honorable Scott Gould 
here today. I think convening a dialog where we become aware of 
what one another are doing; how we can partner; where there is 
redundancy, creating focal points so veterans do not have to 
figure out what all the different opportunities available to 
them are, but maybe we have a one-stop kind of information 
center.
    But it is not just information. We want to make sure that 
it is easy for veterans to physically access programs and 
resources to get everything they need in an integrated, simple 
manner; to get those employment opportunities and those career 
opportunities that the Senator spoke about earlier.
    Senator Murray. OK, good. I look forward to hearing about 
your progress and what we can do to help.
    Mr. Jefferson. Thank you, Senator. I appreciate and welcome 
in advance that assistance.
    Senator Murray. OK, and I appreciate your comments about 
TAP and working with spouses, as well. If we are not working 
with the spouses and the families, we often lose a lot of the 
resources. So I look forward to hearing more on what you are 
going to be able to do there, as well.
    Mr. Jefferson. Thank you, Senator.
    Senator Murray. Mr. Chairman, I look forward to supporting 
this nominee, and hopefully we can move him quickly through the 
process once we have the Committee hearing so that we can get 
him to work for our veterans.
    Mr. Jefferson. Great, Senator.
    Chairman Akaka. Thank you very much, Senator Murray, and 
thank you for urging us to move expeditiously, which we will.
    Mr. Jefferson. All right, Senator.
    Chairman Akaka. Thank you.
    Now, I would like to call on Senator Isakson for any 
statement and questions.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. My only statement is we are lucky to have 
people like Mr. Jefferson who want to serve the country. You 
are to be commended on your record and you are especially to be 
commended on your attitude. I have listened to your remarks and 
attitude is directly proportionate to your altitude and you 
have got a high altitude. I like that a lot.
    Mr. Jefferson. Thank you, sir.
    Senator Isakson. Senator Murray just asked you a question 
and you gave an answer that included, to me, one of the keys to 
this whole transition to jobs. You mentioned one-stop. Senator 
Murray and I are on the Labor Committee and the Subcommittee on 
Occupational Safety and we oversee the Workforce Investment 
Act, where a few years ago there were pilots developed around 
the country for one-stop shops for people seeking employment 
and employment training. We had a hearing just a couple of days 
ago on that.
    Right now, in my State of Georgia, for example--I just 
happen to have this on my mind because our Labor Commissioner 
spoke--of the 400,000 unemployed people that went through our 
Department of Labor, they had reemployed 261,000 in an economy 
that is very down because they had a one-stop place where the 
unemployed people could go where they could get training 
information, they could get employment information, they could 
get every resource they needed at one place.
    I don't think that exists. I think there are, like Senator 
Murray said, multiple attempts to help veterans with jobs, but 
I don't know that there is a one-stop coordinated place. I know 
in the transition from DOD health care to VA health care, we 
experienced a lot of problems with people falling through the 
cracks because there wasn't a good transition.
    Mr. Jefferson. Yes, sir.
    Senator Isakson. That is being worked out now and it is 
better, but it is being worked out through an ombudsman or a 
central approach. I would like for you to comment on the 
concept of a one-stop shop where everybody that wants to help 
veterans comes together to make it simple for the veteran to 
transition to the private sector.
    Mr. Jefferson. Senator, I really appreciate you bringing 
that point up. These are hugely valuable resources, and I had 
the privilege of working with a lot of them as Deputy Secretary 
of Commerce in Hawaii. So, one of the things I am committed to 
doing is getting the different service providers together, 
looking at what one another is doing; asking how can we work, 
share resources, space, things such as that; and developing a 
model so that veterans and transitioning servicemembers, when 
they go back to their home towns, they can go to one place, get 
resources, training, information in a way that is very simple 
and effective and help encourage them to make that transition 
or to find that career as quickly as possible.
    I think they are hugely important. I think it begins with 
dialog to see how can we create those partnership, then 
creating those partnerships. I think pilot programs are a very 
effective way to demonstrate the validity and feasibility of 
new initiatives and new ideas.
    Senator Isakson. Well, you just hit the second key word I 
was going to bring up when you said pilot programs. You talked 
about your defining moment in your personal journey.
    Mr. Jefferson. Yes, sir.
    Senator Isakson. We are in a defining moment right now in 
terms of veterans' employment. We are in a severe recession at 
a time where we have the largest number of veterans coming back 
of any time since Vietnam----
    Mr. Jefferson. Yes, sir.
    Senator Isakson [continuing]. I would imagine, because of 
the size of the deployment we have now. So when you combine a 
significant recession with double-digit unemployment and a high 
number of veterans returning, that is a defining moment for you 
and the responsibility you are nominated to take.
    Mr. Jefferson. Yes, sir.
    Senator Isakson. You mentioned pilot program. You know, 
when our pilots, helicopter pilots, munitions officers, and our 
nuclear plant officers come out of the military, there is no 
limit to the job opportunities they have because of the skills 
they have.
    Mr. Jefferson. Mm-hmm.
    Senator Isakson. We also have a number of people down the 
skill ladder that are trained for jobs that are out there, but 
I don't think sometimes we have the pilot programs with the 
private sector and the DOD to foster them. For example--I think 
I am correct on this--Marriott has a deal with the Navy with 
regard to KP duty ,the kitchen police, and the chefs for 
culinary arts, where Naval enlisted personnel who work in the 
mess hall leave there with the skills that Marriott looks for 
in their food service operations.
    So one of the things I would encourage you to do is find as 
many areas as you can where you can be a catalyst for pilot 
programs in the branches of the service for training for all 
skill levels, not just the high skill levels, but down the 
skill level chain so those partnership can be open 
opportunities when servicemembers leave the service.
    Mr. Jefferson. Yes, sir.
    Senator Isakson. If you do that, I think we will provide 
some jobs. I look forward to voting for your nomination and I 
endorse Senator Murray's comments. The sooner, the better.
    Mr. Jefferson. All right. Thank you, Senator. I appreciate 
that.
    Chairman Akaka. Thank you very much, Senator.
    Let me call on Senator Burris for any statement and 
questions you may have.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you, Mr. Chairman. I will be rather 
brief, but I want to welcome the distinguished appointee.
    Mr. Jefferson. Thank you, sir.
    Senator Burris. You live in Hawaii now, is that correct?
    Mr. Jefferson. Well, I am presently in Washington, but 
Hawaii is home, and I will be going back there for Christmas, 
sir. Yes, that is home.
    [Laughter.]
    Senator Burris. So you take off back there during the 
wintertime.
    Mr. Jefferson. Yes, sir.
    Senator Burris. And you have a home there, which means you 
leave us here to freeze, right?
    Mr. Jefferson. Yes, sir.
    [Laughter.]
    Senator Burris. Tell me this. If you are confirmed, in 
terms of employment, what Senator Isakson just made mention, 
that seemed to be a major concern of our veterans. I am getting 
all kinds of requests from veterans into my office about them 
coming back, some of them the jobs might not be there. The 
employer may have promoted other people ahead of them. So I 
just wonder whether or not we can really assess, and I don't 
have any specifics, but we will certainly be in touch with you 
when you are confirmed--not if you are confirmed--to really 
work with you in this regard. So is that something we have 
agreed to here, Mr. Jefferson?
    Mr. Jefferson. Absolutely, Senator.
    Senator Burris. OK, because I am concerned about these 
individuals coming back who served their country, now have to 
try to take care of their families when they cannot get gainful 
employment. Of course, the economy is bad, too, which adds to 
it. Employers have to replace them when they are gone away. But 
we cannot leave them out there to suffer.
    You are also involved with training. So will you be looking 
at putting programs together in community colleges especially 
across the States? Do you have any specific programs that you 
are aware of that are going on in Veterans Affairs now?
    Mr. Jefferson. Senator, first of all, thank you for your 
comments and thank you for outlining a variety of things that 
we want to address. I genuinely appreciate that.
    I think the first thing, sir, which you touched on is that 
when transitioning servicemembers or veterans come back, its 
information and access, making sure they are aware of the 
programs and resources available to them and they can access 
those programs, whether they are in the inner city, in a 
downtown area, or in rural areas. So information access.
    Second, when they go into those programs, making sure we 
provide them with the best possible training modalities so that 
they have success. Just as the Senator said earlier, whether 
they have a lot of education or they are leaving as a senior 
officer or maybe it is someone who has less time in service, we 
want to make sure that our programs provide effective solutions 
for people at all levels in their career and all backgrounds.
    And third, making sure that we measure and monitor those 
outcomes plus the feedback from veterans and the VSOs, 
including them as full partners. So, we have a cyclical process 
of getting feedback, adjusting and incorporating the processes 
so that it reflects best practices, and continuing to do it in 
that manner.
    Sir, I think those things and that approach will help us 
provide the best possible service and the best possible results 
for veterans.
    Senator Burris. Now, when were you nominated by the 
President for this position? How long ago?
    Mr. Jefferson. Sir, I believe the intent to nominate was 
April 17, and that the actual nomination----
    Senator Burris. April, and this is now July?
    Mr. Jefferson. Yes, sir. The actual nomination, sir, I 
believe was in early June. I might be mistaken on the dates.
    Senator Burris. Early June, because I am trying to look at 
this--Mr. Chairman, I am going to look at this timetable that 
we have between nominations and confirmations. I have 
interviewed a lot of individuals who were nominated early on, 
some of them left their jobs, and the nomination process is 
taking so long that some of those people are a little 
concerned. Some of them did leave their jobs, thank goodness, 
because of the length of the process. But I just always ask 
this question, what is the length of the process in terms of 
getting them nominated, getting them confirmed, and getting 
them on the job. So I hope that somewhere down the line, we can 
take a look at that.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman Akaka. I thank you very much for your questions 
and concerns, Senator Burris.
    Mr. Jefferson. Thank you, Senator.
    Chairman Akaka. I want to thank you very much, Mr. 
Jefferson, for your testimony and your responsiveness to the 
Committee. I again want to say how much I and the Committee are 
looking forward to working with you in your new position as we 
address the employment and transition needs of our Nation's 
veterans.
    Mr. Jefferson. Yes.
    Chairman Akaka. I will be working with my colleagues from 
the HELP Committee as we proceed on your nomination, and I 
intend to do all that I can to bring it to the full Senate 
during this legislative period so that you can begin your 
important work as soon as possible. I urge you to respond as 
soon as you can to any posthearing questions.
    After a short break, we will convene a second hearing on 
the second nomination pending before us this morning. With 
that, this hearing is adjourned.
    [Off the record.]
    Chairman Akaka. This hearing by the Senate Committee on 
Veterans' Affairs will come to order.
    We are now moving to consider the President's nomination of 
Joan Evans for the position of Assistant Secretary of 
Congressional and Legislative Affairs at VA. This position is 
an important one to this Committee because it is a key office 
for promoting transparency and collaboration between VA and 
Congress.
    If confirmed, Ms. Evans will be responsible for advising 
senior Department officials on developing and maintaining VA's 
relationship with Members of Congress and Congressional 
committees. She will provide advice on Congressional interest 
in VA policy, program development, and implementation while 
overseeing the management of all Congressional hearings and 
ensuring that Congress receives pertinent and timely 
information about VA programs and policy issues.
    The Office of Congressional and Legislative Affairs 
provides support and assistance with respect to specific 
legislative activity. It monitors the status of pending 
legislation affecting VA, and it works closely with the 
Legislative Advisor in developing the Department's annual 
legislative program. In short, the office Ms. Evans is 
nominated to head is VA's front door for those of us in 
Congress.
    Our colleague, Senator Wyden, is joining us this morning, 
and he will formally introduce Ms. Evans to the Committee. 
Therefore, I will not go into detail about her background. I do 
note, however, that her long and substantial experience on the 
staff of Congresswoman Hooley should serve her well. If she 
should be confirmed, she will bring with her knowledge of and 
appreciation for the importance that this office has in our 
day-to-day operations with VA.
    I am hopeful that our Committee and then the full Senate 
will move quickly to consider Ms. Evans' nomination for this 
important job.
    As Chairman of the Senate Committee on Veterans' Affairs, I 
welcome you, Ms. Evans, and your family.
    Ms. Evans. Thank you.
    Chairman Akaka. Before I ask for your introductions, let me 
call on Senator Burr for any opening statements and then 
Senator Murray.
    Senator Burr. Mr. Chairman, I sort of included both of my 
statements in the original statement. I welcome Joan Evans' 
nomination. I welcome the opportunity for her to be here for 
her hearing. I question the wisdom of having Ron Wyden 
introduce her----
    [Laughter.]
    Senator Burr [continuing]. But that comes from an equal 
amount of experience with him over the years----
    Senator Wyden. The story of my life.
    [Laughter.]
    Senator Burr [continuing]. But we won't hold that against 
her as she goes through this nomination hearing. I thank the 
Chair.
    Chairman Akaka. Thank you very much.
    Senator Murray?
    Senator Murray. Thank you very much, Mr. Chairman. Ms. 
Evans, welcome to this Committee. I want to congratulate you on 
your nomination and applaud you for your willingness to take on 
this challenging and rewarding job. I can guarantee that once 
you are there, you will be hearing a lot from me. I really want 
to make sure that our veterans get the best care possible, and 
I know we will count on you to help make sure that happens.
    I just want to say one thing. The VA is an organization of 
people and those in leadership will shape the culture of the 
organization. During Secretary Shinseki's confirmation hearing, 
I spoke about the need to overhaul the bureaucratic culture at 
the VA, and since his confirmation, he has said on numerous 
occasions that one of his top priorities really is to transform 
the VA into a truly 21st Century organization. While I am sure 
that it goes without saying, I did want to stress with you 
today how important it is that the VA works with Congress as 
part of that cultural and organizational shift that we are 
seeing.
    You know, in the past, too often the VA was reactive, not 
proactive, when they informed Congress about the publicly 
potentially embarrassing internal issues. I don't care if 
Republicans or Democrats are in charge, a tendency to downplay 
the problems at the VA was a serious disservice to all the 
veterans who count on this agency to do a good job.
    So I hope that, if confirmed, you are really willing to 
challenge that culture and change that dynamic so that the VA 
is open, proactive, and is out there in front making sure we, 
as Members of Congress, know what we need to know so that we 
can serve our veterans the best way possible.
    So I look forward to hearing your opening statement and 
seeing the questions and answers. I really appreciate your 
taking this on and your willingness to help the men and women 
who served our country. Thank you.
    [The prepared statement of Senator Murray follows:]
 Prepared Statement of Hon. Patty Murray, U.S. Senator from Washington
    Ms. Evans, during Secretary Shinseki's confirmation hearing I spoke 
about the need to overhaul the bureaucratic culture at the VA. And 
Secretary Shinseki has said on numerous occasions that one of his top 
priorities is to transform the VA into a truly 21st century 
organization.
    I want to stress to you how important it is that the VA works with 
Congress as part of this cultural and organizational shift.
    Too often the VA has been reactive, not proactive, when informing 
Congress and the public about potentially embarrassing internal issues.
    This tendency to downplay problems does the VA a serious 
disservice. And ultimately, the erosion of trust comes at the expense 
of our veterans. This is why I sincerely hope that, if confirmed, you 
will work to promote an open and proactive approach to relations with 
Congress.
    I think we can all agree that our veterans our best served when the 
VA and Congress work as partners to deliver the health care, benefits 
and service they have earned.
    Thank you for your willingness to take on this challenge and I look 
forward to your testimony.

    Chairman Akaka. Thank you very much, Senator Murray.
    Senator Burris, any opening statement you may have?
    Senator Burris. I was listening to you, Mr. Chairman. I did 
interview Ms. Evans yesterday; we had a great conversation. I 
expressed to Joan that we are definitely concerned about the 
legislative package that will be coming out of this Congress to 
benefit our veterans. We are going to continue to seek to 
improve the family relationship with veterans, the housing 
relationship with veterans, the health care relationship with 
veterans. You coming from the Congress with knowledge of how we 
work will be very beneficial, I am pretty sure, in helping us 
to make sure that our veterans are taken care of.
    As I said to you, Joan, the only way we can do what we do 
in America is because these people have done what they have 
done for us, and we have to take care of them. We cannot have 
them struggling, unable to get health care, unable to find 
decent places to live, unable to get jobs. So if there is 
something we can do legislatively, I am hoping that you would 
lead that charge. I look forward to your testimony and your 
confirmation.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burris.
    Now I will recognize our colleague and friend from Oregon, 
Senator Wyden, who will introduce Ms. Evans to the Committee.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, thank you very much. I think 
it would be cruel and unusual punishment to give you and four 
great advocates for veterans a big speech. If I could, I would 
just put my prepared remarks into the record and summarize my 
big concerns.
    Chairman Akaka. Aloha and welcome to the Committee.
    Senator Wyden. Thank you, Mr. Chairman, and thank you in 
particular and your colleagues for making this Committee the 
bully pulpit for America's veterans, the place where veterans 
are going to be heard, where there is going to be a voice for 
their concerns. Veterans are always going to be at the table 
because of the leadership that you provide and that of your 
colleagues. For that, we are very grateful. In particular, you 
and I go back well over 20 years being friends. Just know how 
much I appreciate your service to America's veterans.
    Formerly known as Joan Mooney, I think I would just like to 
start by saying that I think her story is a great American 
story. It represents really the best of our country's values, 
and I am just going to highlight a few points.
    She is the daughter of a Coast Guard veteran. She is the 
wife of an Oregon National Guardsman. So she understands the 
kind of challenges facing America's families. She has been a 
wife, for example, facing her husband's deployment, multiple 
deployments, and knows the feeling of a missing link in a home 
and family while a spouse is away, and I think that is a 
particularly important contribution. I have heard Senator 
Murray talk about this over the years, that so often, we forget 
about the families, and we don't really remember what the 
families are wrestling with. From the standpoint of Joan's 
service to the country, she is the embodiment of the military 
families that our country is striving to protect.
    For this position, the Assistant Secretary of Veterans 
Affairs for Congressional and Legislative Affairs, I think her 
background is a textbook for what we are looking for in this 
particular position. She began working in the House, where we 
first met, in 1987 in the office of Congressman Terry Bruce. 
You probably remember Terry. He served on the Commerce 
Committee with a number of us. She also served as Chief of 
Staff to Illinois Congressman John Cox.
    In addition to that, when she joined Congresswoman Hooley 
is staff, who has been an inspiration to many veterans, she 
became the go-to person in our Congressional delegation on 
veterans issues. In fact, between Ms. Evans and Congresswoman 
Hooley, all of us together in the Oregon Congressional 
delegation have tried to step in and pick up on their work 
because they did so much good work for so long. They have left 
us with big shoes to fill, and suffice it to say, an awful lot 
of veterans in our State are asking now who is going to step up 
and start doing the work again that Congresswoman Hooley, 
particularly with Joan Evans, was able to do.
    I can't tell you, Mr. Chairman and colleagues, how many 
times Joan Mooney came to my house in Oregon at eight o'clock 
in the morning, with kids in the back, full of ice chests for 
sandwiches because we were going to go off to some small town 
in Oregon and try to advocate for veterans. That is what she 
did. That is what her approach to public service is all about, 
riding shotgun literally and figuratively for the causes that 
are important to veterans.
    Congresswoman Hooley was a serious consensus-building 
lawmaker who was interested in solving problems rather than 
engaging in partisan politics. Congresswoman Hooley has 
retired. She has gone home to our great Northwest, where 
Senator Murray knows all former elected officials return. But 
the same fierce advocacy for veterans remains here in 
Washington, DC, with Joan Evans.
    So it is a great honor, not just for myself, but for 
Oregon, to be able to recommend Joan Evans for this key 
position. She is going to serve our country and our veterans 
very, very well, and I thank you for the chance to be able to 
come and particularly have the honor to introduce the next 
great Assistant Secretary of Veterans Affairs, Joan Evans.
    [The prepared statement of Senator Wyden follows:]

              Prepared Statement of Honorable Ron Wyden, 
                        U.S. Senator from Oregon

    Mr. Chairman and distinguished Members of the Committee: It is a 
great pleasure to appear before you today to introduce the President's 
nominee for Assistant Secretary of Veterans Affairs for Congressional 
and Legislative Affairs, Joan Evans. Throughout her career, and in fact 
throughout her entire life, Ms. Evans has been a strong voice for the 
causes that matter most to our Nation's veterans.
    As the daughter of a Coast Guard veteran and the wife of an Oregon 
National Guardsmen, Ms. Evans has a working knowledge of military and 
veterans affairs. She understands its strengths and its challenges, and 
knows how to move the Department forward in the 21st Century as our 
military tackles new challenges. She has been a daughter seeing her 
father struggle with non-Hodgkin's lymphoma that was caused by his 
service. She has been a wife facing her husband's deployment and knows 
the feeling of a missing link in your home and family while they're 
away. Joan Evans is the embodiment of the military families that our 
country strives to protect. Her voice is their voice. And at this 
important juncture in history, at this important time, their voice must 
be heard.
    In addition to her ties to our men and women in uniform, Joan's 
career in Congress makes her uniquely suited for the position to which 
she's been nominated--as the Assistant Secretary of Veterans Affairs 
for Congressional and Legislative Affairs. Evans began working in the 
House in 1987 in the office of Congressman Terry Bruce of Illinois, 
rising quickly in the ranks to serve as his Washington Co-Director. She 
also served as Chief of Staff to Illinois Congressman John Cox. But my 
path crossed with Joan's about 12 years ago when she became the Chief 
of Staff for a former colleague and great star among Oregon 
legislators--Darlene Hooley.
    While serving in the House of Representatives, Congresswoman Hooley 
became the first Oregon Democrat in history to serve on the House 
Veterans' Affairs Committee and the top Democrat on the Oversight and 
Investigations Subcommittee. Hooley also served as a member of the 
House Budget Committee for four terms. In that position, she helped 
lead the fight for the funding our Nation's veterans deserve.
    Everyone here knows how important a Chief of Staff is to a 
Congressional office. And with Joan riding shotgun, the office was 
well-renowned across the state for its prompt, courteous and effective 
constituent service. It was a reflection of Hooley's reputation as a 
serious, consensus-building lawmaker who was more interested in solving 
problems than engaging in partisan politics.
    Although Congresswoman Hooley has retired and gone back to Oregon, 
that same fierce advocacy for veterans is still here in Washington with 
Joan.
    Again, it has been a pleasure to appear before you today and a 
great honor to introduce the next Assistant Secretary of Veterans' 
Affairs--Joan Evans.

    Ms. Evans. Thank you.
    Chairman Akaka. Thank you very much, Senator Wyden, for 
your introduction. It was very personal and we are very 
grateful for that. I just want you to know we will move as 
quickly as we can on the nomination confirmation. Thank you. I 
know you are a busy man, so you are free to leave.
    Ms. Evans, before you begin your testimony, I know that you 
have some family and friends with you this morning and I would 
invite you to introduce them to the Committee.

   STATEMENT OF JOAN M. EVANS, NOMINATED TO BE THE ASSISTANT 
   SECRETARY OF CONGRESSIONAL AND LEGISLATIVE AFFAIRS, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Ms. Evans. Thank you, sir. I have my husband here, Major 
Paul Evans of the Oregon Air National Guard; my daughter, 
Katherine Mooney; and I have a number of friends that are 
colleagues from the House and Senate: Priscilla Ross, Pam 
Pryor, Susan Butler, Will Stone, Rochelle Darnet, who is here, 
Perry Finney Brody, Noel Brazil, Christina Metzler, and Faye 
Frankfurt.
    I particularly want to say thank you to our team at VA for 
coming today: Deputy Secretary, Scott Gould; Deputy Assistant 
Secretary, Julie Anderson; OCLA staff, Acting Assistant 
Secretary, Danny Devine, and Mary Kay Stack; and Office of the 
Secretary's staff Peter Levin, Covey Langley, Hally Schneier, 
and Bill Hiers.
    I would also like to extend a thank you to the Governor of 
Oregon's staff, Dan DiSimone, who is also here. Thank you.
    Chairman Akaka. Thank you very much.
    As you know, we do administer an oath. May I ask you to 
please rise to take the oath. Raise your right hand. Do you 
swear or affirm that the testimony you will give at this 
hearing and any written answers or statements you provide in 
connection with this hearing will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Ms. Evans. I do.
    Chairman Akaka. Thank you. Let it be noted that the witness 
responded in the affirmative.
    Ms. Evans, will you begin with your testimony.
    Ms. Evans. Thank you. Chairman Akaka, Ranking Member Burr, 
and distinguished Members on the Committee on Veterans' 
Affairs, thank you for the opportunity to testify before you 
today and for your consideration of my nomination to serve as 
VA's Assistant Secretary for Congressional and Legislative 
Affairs.
    I would also like to express my family's gratitude to our 
Senator, Ron Wyden, for his gracious introduction and for the 
care and concern he extended to my family during Paul's 
overseas deployments. Oregon veterans and their families have 
an outstanding advocate in Senator Wyden, who has ably stepped 
in to Congresswoman Hooley's shoes to fill that void.
    I am deeply humbled by President Barack Obama's nomination 
and the confidence both he and Secretary Shinseki have shown in 
me. If confirmed, it will be my honor to serve this Committee 
and the Congress as your chief resource in accessing 
information from the second-largest Federal agency.
    During the last few weeks, I have been privileged to meet 
personally with many of you and your staff, receiving 
invaluable guidance and beginning what I trust will be an 
ongoing dialog, if confirmed. I have worked on Capitol Hill for 
nearly two decades, from leading the Washington office for 
Illinois Congressman Terry Bruce through serving as Chief of 
Staff to Oregon Congresswoman Darlene Hooley, the first Oregon 
Democrat on the House Veterans' Affairs Committee and Ranking 
Member of its Oversight and Investigations Panel.
    While working for Congresswoman Hooley, I met and married 
my husband, Paul Evans, who is here today with my daughter, 
Kate. Since 9/11, Paul was mobilized for 24 months in Operation 
Noble Eagle and has served in three combat missions in Iraq and 
Afghanistan with the Oregon Air National Guard. He chairs 
Governor Kulongoski's Veterans Services Task Force and is the 
Governor's Chief Policy Advisor for Emergency Management, 
Military, and Veterans. He remains Director of Operations at 
the 116th Air Control Squadron at Camp Rilea on the beautiful 
Oregon coast.
    My marriage to Paul has given me a keen appreciation for 
the sacrifices of American veterans. I was also made mindful of 
the challenges families face as a part-time caregiver for my 
father, an atomic veteran with a service-connected cancer, and 
for my mother, who predeceased him, putting his health care 
needs above her own. My grandfather, a World War II veteran, 
found care and compassion in a VA hospital at the end of his 
life.
    Through these experiences, I am firmly committed to 
President Obama and Secretary Shinseki's vision for 
transforming VA into a 21st century organization that is 
veteran-centric, results driven, and forward looking. If 
confirmed as Secretary Shinseki's principal Congressional 
advisor, I will work to ensure the office is a highly effective 
partner to Congress in meeting the needs of the Nation's 
veterans.
    I understand your need for quick and complete information 
about issues and events. I also understand the frustrations of 
veterans and their families seeking services and benefits from 
offices that are overly bureaucratic and seem to take forever 
to process simple requests.
    By improving outreach to Members of Congress, their staffs, 
and Committees, OCLA can help VA leaders better understand and 
engage with Congress in policy matters. Our work should be 
based on a commitment to appropriate and timely responses. We 
should also shine a light on potential or upcoming issues.
    I appreciate the work of the Chairman, Ranking Member, and 
Committee Members, and I greatly value your leadership in 
honoring the service and sacrifice of our Nation's veterans. If 
confirmed, my mission will be to ensure that Secretary 
Shinseki, as well as Congress and its authorizing and 
appropriating Committees, have everything they need to perform 
their respective roles efficiently and effectively, fulfilling 
the sacred trust with our Nation's heroes.
    Thank you for your consideration, and I am pleased to 
answer any questions.
    [The prepared statement of Ms. Evans follows:]

 Prepared Statement of Joan M. Evans, Nominee for Assistant Secretary 
  for Congressional and Legislative Affairs at the U.S. Department of 
                            Veterans Affairs

    Chairman Akaka, Ranking Member Burr, and Distinguished Members of 
the Committee on Veterans' Affairs, thank you for the opportunity to 
testify before you today and for your consideration of my nomination to 
serve as the Department of Veterans Affairs' Assistant Secretary for 
Congressional and Legislative Affairs. I am deeply humbled by President 
Barack Obama's nomination and the confidence both he and Secretary 
Shinseki have shown in me.
    If confirmed, it will also be my honor to serve this Committee and 
the Congress as their chief resource in accessing information from the 
second largest agency in the Federal Government, the Department of 
Veterans Affairs.
    I have worked on Capitol Hill for nearly two decades, heading up 
the Washington office for Congressman Terry Bruce of Illinois, as chief 
of staff to Congressman John Cox of Illinois then Congresswoman Darlene 
Hooley, the first Oregon Democrat to serve on the House Veterans' 
Affairs Committee.
    While working for Congresswoman Hooley, I met and married my 
husband, Paul Evans, who is here with my daughter Kate. Paul has served 
three tours of duty in Iraq and Afghanistan with the Oregon Air 
National Guard and was mobilized for 24 months in Operation Noble 
Eagle. He chairs the Oregon Governor's Veterans Services Task Force and 
is the Governor's chief policy advisor on Veterans, Military and 
Emergency Management. He remains Director of Operations for the 116th 
Air Control Squadron at Camp Rilea in Warrenton, Oregon.
    My marriage to Paul has given me a keen appreciation for the 
sacrifices of America's Veterans. I am also aware of the challenges 
families face as a part-time caregiver for my father, an atomic Veteran 
with a service-connected cancer, and subsequently my mother, who 
predeceased him putting his health care needs above her own.
    I am firmly committed to President Obama's and Secretary Shinseki's 
vision for transforming VA into a 21st Century organization that is 
Veteran-centric, results-driven, and forward-looking.
    If confirmed as Secretary Shinseki's principal Congressional 
advisor, I will work to make the Office of Congressional and 
Legislative Affairs a highly effective partner to Congress in meeting 
the needs of the Nation's Veterans.
    I understand your need for quick and complete information about 
issues and events affecting constituents. I understand the uncertainty 
of waiting late in the evening to receive needed information for the 
next day's hearing or mark-up. I also understand the frustrations of 
Veterans and their families seeking services and benefits from offices 
that are overly bureaucratic and seem to take forever to process simple 
requests.
    By improving outreach to Members of Congress, their staff and 
Committees, the Assistant Secretary and OCLA can help VA leaders better 
understand and engage with Congress on policy matters. Our work should 
be based on a commitment to prompt and appropriate responses to 
Congressional requests for information and assistance. We should also 
shine a light on potential or upcoming issues. If confirmed, my mission 
will be to ensure Secretary Shinseki and VA leadership as well as 
members of the Senate and House of Representatives and the authorizing 
and appropriating Committees have all that they need to perform their 
respective roles efficiently and effectively.
    I appreciate the work of the Chairman, Ranking Member, and 
Committee members, and I greatly value your leadership in honoring the 
service and sacrifice of our Nation's Veterans. I look forward to 
working with you, if confirmed, to make VA's Office of Congressional 
and Legislative Affairs a more effective partner in meeting the needs 
of this Committee and the Congress, and of the Veterans we serve.

    Thank you.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Daniel K. Akaka to 
Joan M. Evans to be Assistant Secretary for Office of Congressional and 
        Legislative Affairs, U.S. Department of Veterans Affairs

    Question 1. Have you and Secretary Shinseki discussed the duties 
and the role you would assume as Assistant Secretary for Congressional 
and Legislative Affairs if you are confirmed? If so, what specific 
areas of the job were discussed?
    Response. Yes, we have discussed the overall role of the Assistant 
Secretary as the Secretary's chief advisor on Congressional and 
legislative matters, and ensuring all VA leaders are apprised of 
Congressional activities. The Secretary has conveyed to me his priority 
of responding to all Congressional inquiries in a complete and 
expeditious manner; anticipating and informing Members of Congress and 
Congressional staff of emerging issues; expanding outreach to all 
members of the Senate and House of Representatives and their DC and 
State staff; and directing VA Congressional Relations staff in a manner 
that will improve client satisfaction and employee fulfillment.

    Question 2. It is my understanding that you have been working 
directly in Secretary Shinseki's office for the past several months on 
matters related to Congressional Affairs. If confirmed, do you expect 
that someone will be hired to perform the duties that you perform there 
or do you anticipate that all Congressional focus will be in through 
OCLA?
    Response. I do not know whether there will be another senior 
advisor hired in my place. It is the Secretary's prerogative to have 
staff throughout his office coordinating on whatever issues and 
programs he deems appropriate. Staff throughout the Department work on 
scheduling, response to requests for information, and other issues that 
may be related to Congress. However, I have been informed that, if 
confirmed, I will be the primary advisor on all Congressional matters. 
Additionally, my personal goal would be to work as a team with all VA 
professionals who engage in any form of Congressional Relations 
wherever they may be within VA from the Office of the Secretary to the 
regional and facility level.

    Question 3. Do you anticipate having a policymaking role if you are 
confirmed?
    Response. The primary responsibilities involve understanding and 
anticipating the needs and interests of Members of Congress and 
advising the Secretary of Congressional implications of all policy 
decisions. If confirmed, I will work closely with Administration and VA 
staff offices to inform them of pending and newly enacted legislation 
which would require the development of policy. I will also work with 
Congress in providing input of subject matter experts as Congress 
develops legislation that may affect VA policy. Additionally, as 
Assistant Secretary, I would be actively engaged in the VA governance 
process and would provide insights into the policy decisions of the 
department.

    Question 4. Have you formulated any thoughts on what your job 
responsibilities will be and how you will approach those 
responsibilities if confirmed?
    Response. If confirmed, my responsibilities would include advising 
the Secretary and VA leadership on Congressional and legislative 
matters; informing and engaging Members of Congress, Congressional 
Committees and staff on VA issues; leading and directing a team of 
professionals in advising and providing assessments on effects of 
proposed legislation and program changes; raising awareness of new 
trends in use of VA services and emerging needs of Veterans; responding 
promptly to Congressional requests for information and assistance; and 
shining a light on potential problems. If confirmed, I will approach 
all of my responsibilities in a manner that is Veteran-centric, forward 
looking and results driven.

    Question 5. If confirmed, what would you most like to accomplish in 
your new position? What would you hope your legacy to the Department 
would be?
    Response. If confirmed, I would work to make the Office of 
Congressional and Legislative Affairs a highly effective partner to 
Congress in meeting the needs of the Nation's Veterans. I want to 
encourage a team that is aware of and understands Congressional policy 
interests, as well as the value and importance of bringing those 
interests to the attention of VA leaders for engagement. I am committed 
to improving outreach to members and staff; expanding the knowledge 
base of the Congressional Relations team and investing in the 
development of team members; effectively distributing staffing 
resources to achieve objectives; and updating technologies and data 
management processes to meet the needs of a large team with a critical 
mission in a dynamic work environment.

    Question 6. How would you describe your management style and how it 
is suited to this particular position?
    Response. My management style emphasizes collaboration whenever 
possible. Serving members in Congress for over 17 years has taught me 
how to meld the objectives of leadership with proactive strategies 
developed and executed with peers and staff. I believe each situation 
is different and the various skills and talents of the team must be 
utilized for the benefit of the mission. Much of the work in OCLA, as 
in Congressional offices themselves, is reactive to current events. 
Remaining forward-looking is just as important. Proactivity often 
prevents reactivity. In setting the long-term vision and annual and 
biennial benchmarks, staff skills can be best resourced and 
expectations are clear.

    Question 7. If confirmed, do you have any plans to bring any other 
political appointees with you to your new position? If so, please share 
details on what positions these other appointees would fill.
    Response. It is my understanding that there will be additional 
political positions in OCLA. I will work the Secretary and VA senior 
management team along with the White House to determine the appropriate 
positions and the hiring process, should I be confirmed.

    Question 8. What in your experience do you believe contributes to 
your qualifications for this new position?
    Response. After 17 years of working in Congress, I believe that I 
have a solid understanding of the needs of Members of Congress as they 
work to best represent their constituents. It is my view that few know 
the needs of local Veterans better than the Members of Congress who 
serve them.
    I have worked for a member who served on the House Budget Committee 
for 8 years and led the fight for sufficient resources to meet the 
needs of our Veterans. Congresswoman Hooley was also the first Democrat 
from Oregon to serve on the House Committee on Veterans' Affairs and 
the top Democrat on the Oversight and Investigations Subcommittee. As a 
result, I am familiar with the honor and privilege of working on behalf 
of veterans for someone who held a position of great influence.
    My most meaningful experiences come as the wife of a soldier who 
has seen first hand the impacts of recent conflicts and as the daughter 
of a 67 year old Veteran who died of a service-connected cancer. His 
primary caregiver--my 66 year old mother--predeceased him in part 
because she was so busy taking care of his health that she neglected 
her own.

    Question 9. I am aware that your husband is a member of the 
National Guard and has now been deployed. How have his experiences--and 
yours as the spouse of a deployed servicemember--influenced your sense 
of VA's mission and how well VA now is meeting the needs of deployed 
and returning servicemembers?
    Response. Since meeting and marrying my husband, I can say that I 
better understand the demands on servicemembers and their families in 
the deployment cycle and after they return. I can't say I know it all; 
even for my own family, each deployment was different, and each return 
resulted in a marked and lasting change in all of us.
    Paul has served in the Armed Forces since 1992, first in the Air 
Force and now in the Oregon Air National Guard. Since we married, Paul 
was deployed to Iraq for a second time in 2005 and then to Afghanistan 
from 2006-7. My husband sought VA health care after his return from 
Iraq in 2003 and had to wait weeks for a response that ultimately 
soured him on seeking mental health care there.
    As Chair of the Oregon Governor's Veterans Services Task Force, 
Paul has testified before the Oregon legislature several times about 
the need to be pro-active in establishing an effective reintegration 
model for our National Guard and Reserves. What I've learned is that 
everyone reacts differently to different treatments, and everyone's 
needs are not the same. For VA staff, often you have only one chance to 
make a good impression.
    I've had a Tip O'Neill quote posted on my desk since working for my 
first boss on the Hill that expressed his views on constituent service. 
He said that for the person who comes to you for help, what they are 
asking of you may be the most important thing in the world to them. If 
they could do it themselves, they wouldn't be asking for your 
assistance. Their request should matter to you in the same way it does 
to them, and everyone should be treated equally and respectfully no 
matter who they are.
    Through our marriage, we now share friends and family who have 
served in various capacities: my father in the Marshall Islands near 
the nuclear tests in the late 1950s; my cousins John in Vietnam and 
Robert in the Vietnam-era; my Uncle Stan in World War II; my 
Grandfather in World War II and Korea. Paul's family and friends range 
from a World War II underage veteran who played a part in Day Three of 
Overlord to his Uncle Bill, a Marine veteran of the Battle of Chosin, 
to his active duty and Guard buddies who were with him in South and 
Central America, the Balkans, Operation Southern Watch and Operation 
Noble Eagle, and multiple OEF/OIF deployments. Hearing their stories 
has helped me to better understand the heroes among us. I want to 
ensure that each Veteran is given the benefits they have earned from a 
team that is Veteran-centric, forward looking, and results driven.

    Question 10. What skills do you bring with you to this new position 
that will help you contribute to meeting the needs of veterans?
    Response. I believe that I bring an understanding of how Congress 
works, responding effectively to the needs of those we serve, and 
strategic planning skills to help build VA's OCLA into a more effective 
partner with Congress in meeting the needs of the growing number of 
Veterans. I also believe I bring my own experience of what challenges 
the families of veterans, both as a spouse and as a part-time caregiver 
for my father.

    Question 11. Are there any specific problems or challenges that you 
have already identified that you would like to tackle in this new 
position?
    Response. I understand there are challenges in responding to 
Congress quickly because of the stove-piped nature of VA with its three 
administrations and multiple staff offices. There have also been 
challenges with decentralization, with important policymaking decisions 
taking place at the local level sometimes without input from VA 
leadership. Congressional inquiries can result in information coming 
before VA leadership for the first time. As information comes up 
through the bureaucracy of the three administrations, there is a 
filtering process that may make VA's ultimate response to an inquiry 
less clear. If confirmed, I hope to address these issues.

    Question 12. In your experience as Chief of Staff for a member of 
the House of Representatives, did you have any interaction with VA's 
OCLA and how would you characterize that experience? What did you 
believe could have been done differently or better?
    Response. I do not specifically recall having interaction with 
OCLA. I do remember working with VA to set up a meeting between 
Congresswoman Hooley and then-Secretary Tony Principi. Our House 
Veterans' Affairs legislative assistant, who ultimately moved to Oregon 
to serve as a VA caseworker, has told me that she occasionally called 
on VA's OCLA for assistance and was satisfied with the responses.

    Question 13. Please provide an organizational structure and roles 
and responsibilities for the staff currently employed by the Office of 
Congressional and Legislative Affairs and any modifications you might 
have under consideration for the office in the future--including any 
needs for expansion?
    Response. The present organizational chart is attached.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Through the process of Transformation, a group of staff within OCLA 
was selected and charged by the Office of the Secretary with making 
recommendations on the mission and function of a 21st Century OCLA. Led 
by Judith Sterne, OCLA's Task Force consisted of Pam Balsley (Veteran), 
Gloria Galloway, Omar Hughes (Veteran), Charlie Likel (Veteran), Lesia 
Mandzia, Stephen McGinley (Veteran), Mary Kay Stack, and Stacy Vasquez 
(Veteran). The group provided a mix of grades, experience, military 
service, gender, and diversity.
    I understand this group has produced a draft plan that is currently 
under reviewed within VA. If confirmed, I look forward to reviewing the 
final proposal and sharing this with you for your feedback since OCLA's 
goal should be ensuring that its main client is satisfied with its 
experience. I intend to work with OCLA staff and within the VA 
governance process to use these recommendations as a framework, adding 
any new input based on my experience serving in personal offices for 17 
years and feedback from those who OCLA serves.

    Question 14. How do you see the relationship between OCLA and 
subject matter experts within VA and do you believe that there are 
circumstances when OCLA would not be involved in responding to 
questions from Congress?
    Response. OCLA staff should have a broad knowledge of VA policies, 
programs and personnel and strong relationships with subject matter 
experts as well as Hill staff. From that vantage point, they should be 
better able to assist Congressional staff with contacts and information 
they may not be aware of should they contact a sole VA expert outside 
of OCLA. Contact with OCLA should be value-added; we should work 
together to make improvements and develop or add skill sets that better 
meet the needs of those we serve: the Members of Congress and their 
staff.

    Question 15. What goals do you have for timely responses to 
Congress for requests for whitepapers, information or other background 
materials for emerging matters?
    Response. The Secretary has set a two-week turnaround for routine 
correspondence, understanding that some may require immediate action--
even within the same day. I would follow in his example by setting the 
bar at that level. If confirmed, once in the office I would be in a 
position to better assess how quickly the requests can be fully 
completed and how to appropriately resource the office to better 
fulfill members' needs.

    Question 16. What relationship will you establish with the 
Assistant Secretary for Public and Intergovernmental Affairs and how do 
you anticipate coordinating with that office?
    Response. Assistant Secretary Duckworth and I have spoken often 
about the need to maintain a close working relationship, if I am 
confirmed, as so much of what each office does is dependent upon the 
other. Our goal is to communicate frequently, sharing information on 
hot issues and meeting regularly to plan strategic communications with 
the Hill. We share the objective that VA informs Veterans, Members of 
Congress, the press and intergovernmental stakeholder with the 
timeliest, most complete, accurate and up-to-date information. 
Assistant Secretary Duckworth has been a friend and tremendous resource 
to me at the Department, and I look forward to our relationship growing 
stronger if confirmed.

    Question 17. What do you intend to do to ensure that Members of 
Congress are advised in advance of problems, issues and emerging 
matters--particularly when those matters are specific to the area a 
member represents?
    Response. It is imperative that the Congressional Committees and 
Members of Congress whose Veteran constituents may be impacted are 
informed immediately of any emerging issues. That is the Secretary's 
goal. The decentralization of the VA can make timely notification 
challenging. As VA moves from a stove-piped organization to ``One VA,'' 
we can better inform members and Committee staff of any potential 
issues.

    Question 18. What will OCLA's role be in the preparation of 
testimony for Congressional hearings?
    Response. It is my understanding that OCLA staff's responsibility 
is to offer recommendations to Committee staff for relevant witnesses 
or surrogates, prepare witnesses for accurate and effective testimony, 
ensure that testimony is delivered in advance in a timely fashion, and 
ensure that any follow up questions are answered on-time to the 
satisfaction of Members of the Committee.

    Question 19. Will OCLA have any role in clearing legislation that 
VA submits to Congress?
    Response. My understanding is the OCLA professional staff works the 
internal VA process to develop annual and ad hoc legislative proposals 
for VA to present to Congress. It is my hope that OCLA would also work 
to better identify and inform the Secretary of trends coming from the 
Hill and Veterans, allowing VA to become more forward-thinking and 
proactive in its ability to set policy.

    Question 20. Do you see any value in informal contact between OCLA 
and the staff of the appropriate authorizing and appropriating 
committees of Congress?
    Response. Informal communications with both the authorizing and 
appropriating Committees are essential to maintaining effective dialog 
between the leadership and staffs of the legislative and executive 
branches of government. I look forward to engaging with members as well 
as Committee and personal office staffs, and would encourage OCLA team 
members to do the same.

    Question 21. Currently VHA and VBA have their own Congressional and 
Legislative Affairs offices. Have you reviewed how these two offices 
might relate to the structure of the Office of Congressional and 
Legislative Affairs?
    Response. I have not yet had the opportunity to work extensively or 
develop a dialog with all members of these offices. I have heard from 
press accounts that the Chairman believes that a more centralized VA 
structure would be most beneficial to Veterans. If confirmed, I would 
look forward to reviewing the proposed plans and working with 
Department staff through the governance structure to achieve an OCLA 
model that makes the most sense and most effectively serves Members of 
Congress and their Veteran constituents.

    Question 22. Is there a move to consolidate the three offices and 
if so, can you provide us with an organizational chart for what this 
consolidated office might look like?
    Response. Through the process of Transformation, a group of staff 
within OCLA as well as other offices have been charged by the Secretary 
with making recommendations for a 21st Century VA. If confirmed, I 
intend to work within the process and use Transformation Task Force's 
recommendations as a framework, adding any new input based on my 
experience serving in a personal office for 17 years and on the input 
of those we are privileged to serve.

    Question 23. Have you evaluated the role and work of the 
Congressional Liaison offices located on Capitol Hill and how that fits 
into the work of the Office of Congressional and Legislative Affairs?
    Response. When they were initially established, the Liaison Offices 
were intended to be a convenient hub for personal interactions between 
VA professionals and Member of Congress and their staff. Through 
increased telephone and email communication, my understanding is that 
the Rayburn and Russell offices have evolved into triage centers to 
route requests and inquiries to the appropriate VA staff. I believe VA 
Senior Leadership and most members of OCLA see benefits in updating the 
focus and expanding the staff to a more proactive outreach to member 
offices. In remaining forward looking, it becomes easier to anticipate 
appropriate changes in order to meet the needs of our Nation's 
Veterans.

    Question 24. How do you intend to identify and evaluate any trends 
in the concerns raised by Members of Congress and how will you present 
the issues raised for VA Senior Management so they might be addressed?
    Response. More frequent and free flowing communication within OCLA 
and with VA senior leaders will help elevate issues raised by Members 
of Congress within the Department. Second, an effective system should 
be developed so that good ideas flow to the top for decisionmaking, and 
are tracked until they are implemented or rejected.

    Question 25. In the past, this Committee has had a difficult time 
receiving timely submissions of testimony and timely responses to 
posthearing questions. Please comment on ways you will work to improve 
the timeliness of responses to this Committee.
    Response. Much of running a timely, effective and relevant OCLA 
will involve strengthening project management skills of the whole team. 
It is my understanding that with greater focus, attention and clear 
goals in recent years, OCLA has vastly improved the timeliness and 
relevance of responses to post hearing questions as well as 
congressionally mandated reports. I believe if timeliness is the 
priority of senior leadership in OCLA and the Department, it is an 
achievable goal. OCLA can also work with OMB to ensure that they have 
sufficient time to review items to meet all deadlines.

    Question 26. Committee staff occasionally travels under the 
auspices of VA and has reported numerous problems using FED TRAVELER--
the required travel system used by VA and other Federal agencies. 
Specifically, Committee staff members have found flights that cost 
hundreds of dollars less than what was found in FED TRAVELER and have 
found errors in processing their expenses that would have cost the 
government additional money using FED TRAVELER. Will you pledge to 
evaluate VA's experience with FED TRAVELER and report back on whether 
or not travel expenses have gone up since it became the sole source of 
travel reservations and reimbursements?
    Response. Concern has been expressed about the requirement of 
Congressional staff to use the Government travel contract program, Fed 
Traveler, when they travel on official government business. As noted, 
the argument, in part, is that less expensive commercial flights are 
available. Similar concerns were raised when Congressional staff was 
required to use the Zegato travel contract to arrange for official 
government travel.
    In response to these concerns, in September 2009, the Department 
issued OF Bulletin 09047E3.08, ``Use of Non-Contract Airfares,'' a copy 
of which is enclosed. The Bulletin outlines the benefits of using 
contact city-pair fairs to include: (1) no advance ticket purchase is 
required; (2) tickets are fully refundable; (3) last seat availability; 
and (4) stable prices to enable travel budgeting. Despite these 
benefits, it has become apparent that the use of non-contract airfares 
can further reduce VA's travel expenses when such fares are prudently 
obtained.
    To minimize costs of official travel, VA employees and 
Congressional staff flying at VA's expense are now authorized to use 
non-contract airfares when it can be determined before the start of a 
trip that this type of service is practicable and economical to the 
Government. Specifically, under the authority of 41 Code of Federal 
Regulations 301-10.107, VA employees and those traveling on behalf of 
VA may be granted an exception to use a contract city-pair fare when a 
non-contract carrier offers a lower fare to the general public that, if 
used, will result in a lower total trip cost to the Government. Use of 
these non-contract fares, however, must be approved on an individual 
case-by-case basis by the employee's Under Secretary or by the VA 
Assistant Secretary for Management.

    Question 27. Please explain in detail what you understand the 
function of the House and Senate Committees on Veterans Affairs to be 
and how you believe your office should relate, respond and interact 
with Congressional staff.
    Response. SVAC and HVAC are the primary authorizing committees in 
Congress on legislation affecting Veterans. Committee members work to 
develop areas of expertise that meet the needs of their constituents 
and enable them to make significant contributions to public policy 
debates affecting Veterans. Chairs and Ranking Members work to set the 
agendas for their respective majority and minority members.
    OCLA staff should excel in regular outreach to all Committee staff, 
member staff in DC as well as in State/District offices. If confirmed, 
I will work to empower OCLA staff so that they have the structure and 
resources to provide reliably consistent, timely and full responses to 
Congressional inquiries. I will support and join them in ensuring 
Members of Congress and Congressional staff are promptly notified of 
any potential problems as they arise. OCLA staff will develop strategic 
communications plans in concert with OPIA and OSVA to better inform 
members and Congressional staff about VA decisions that will affect 
Veterans nationally or locally.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Richard Burr to Joan 
 M. Evans to be Assistant Secretary for Congressional and Legislative 
              Affairs, U.S. Department of Veterans Affairs

    Question 1. According to the Department of Veterans Affairs (VA) 
Web site, the Office of Congressional and Legislative Affairs (OCLA) 
``is the focal point for Department management and coordination of all 
matters involving the Congress.''

    A. What do you see as the key functions performed by OCLA?
    Response. OCLA's key functions are providing the Secretary and VA 
leadership with advice on Congressional and legislative matters; 
informing and engaging Members of Congress, Congressional Committees 
and staff on VA issues; providing assessments on the effects of 
proposed legislation and program changes; raising awareness of new 
trends in use of VA services and emerging needs of Veterans; and 
shining a light on potential problems.

    B. What do you see as the key responsibilities of the Assistant 
Secretary for Congressional and Legislative Affairs in carrying out 
those functions?
    Response. My key responsibilities would be leading a strong team of 
Congressional Relations professionals and serving as the principal VA 
Congressional Affairs advisor to the Secretary, VA leadership, Members 
of Congress, Committees, and staff.

    C. How has your background prepared you to take on these 
responsibilities?
    Response. As a long-time House Chief of Staff, I have set up new 
offices and reorganized existing ones to best meet the needs of 
constituents. I have also managed and directed a team of professionals 
who helped develop and implement strategic plans to meet the goals of 
the principal and those he/she served.

    D. How would you measure your success in fulfilling those 
responsibilities? Would it depend in part on whether you are able to 
establish and maintain good working relations with Members of Congress 
and their staffs?
    Response. Success would be effectively resourcing the office and 
moving from reactivity to proactivity within OCLA; developing and 
maintaining good working relationships with members and their staffs; 
and responding to members and staff requests in a timely and complete 
manner.

    Question 2. In the book The People Factor, the Deputy Secretary of 
Veterans Affairs, W. Scott Gould, and his co-author discussed the need 
to overhaul the Federal personnel system. As part of that effort, they 
stressed that ``perhaps the single most important change that Congress 
could make would be to emphasize people management skills during the 
confirmation process for political appointees.''

    A. Would you please provide specific examples from prior jobs 
demonstrating your people management skills?
    Response. In dividing up office goals and responsibilities, as 
Chief of Staff I played to each person's strengths. If someone was 
gifted at meeting people and socializing legislation, they were 
assigned those duties. Detail-oriented staff were heavily relied upon 
for scheduling, correspondence and budgeting. Good writers handled our 
communications; analytic thinkers crafted our legislative proposals. 
Everyone has a role to play and needs different levels of management. I 
believe in situational leadership. Each employee is unique and the 
various skills and talents of the team must be best utilized for the 
benefit of the mission.
    I conducted weekly after action reviews meetings with staff, and 
brought their efforts before the Congresswoman so she could relay her 
praise and appreciation. In Congresswoman Hooley's office, I convened 
annual planning sessions to work as a team on legislative, 
communications, outreach and constituent service agendas for the year. 
In doing so, staff was able to be more proactive than many of their 
counterparts and was better prepared when unforeseen events arose. As 
staff excelled, they were recognized through increased levels of 
responsibility, pay and bonuses. If a staff opening occurred, new hires 
were rare and high performers were rewarded with promotions. At the 
American Academy of Ophthalmology I worked with hundreds of physicians 
as they learned to become advocates for their patients and profession. 
I coached and mentored them with encouragement when they had a good 
meeting or a positive outcome, and kept their spirits up when things 
did not go so well.

    B. How would you rate your people management skills and how do you 
think your prior subordinates would rate your skills?
    Response. I encourage staff to perform at the highest level, and 
stay mission focused and results driven providing feedback along the 
way. Together, we were successful in building a constituent service 
operation that was unparalleled in the state because our staff 
resources were well managed and consistently challenged. Many 
Congressional staff are new to a professional setting and are learning, 
and the feedback I have received is that I have high expectations and 
get excellent results in return. Those who have worked with me on a 
team would say that they have grown as professionals under my 
leadership.

    Question 3. Secretary Shinseki has pledged to have Congressional 
inquiries answered within a two-week time period; however, some 
inquiries from my staff have been outstanding for several months and 
many inquiries have not been answered within the two-week time period.

    A. Do you believe it is acceptable for these requests for 
information to remain pending for so long?
    Response. In general, I do not believe requests for information 
should remain pending for the time period you have described. However, 
I am not familiar with these particular requests and why the 
information has taken longer to produce. I can say that the Secretary 
has set a goal of responding to member requests within two weeks, and 
the Executive Secretary states that nearly all requests have been 
answered in that timeframe. My goal is to institute this within the 
informal request process in OCLA; and if requests cannot be handled in 
that time than regular calls to update the request are made until the 
matter is resolved.

    B. As a former Congressional staff member, what would you view as a 
reasonable time-line for responding to requests for briefings, 
statistics, and other information?
    Response. Depending on the urgency of the request, standard 
response goals should range from same day to two weeks. Extenuating 
circumstances such as complexity of request or a decisionmaking process 
may require more time and a flexible deadline. Notice should be given 
to the member or staff if responses run into unforeseen delays.

    C. In your view, what factors lead to delays in responding to those 
requests? For example, do you believe there is a need to change the 
culture at VA?
    Response. Having worked in the office of the Secretary, I have 
learned that some requests are more complex or challenging than others 
to answer. There is also the culture of a large, slowmoving institution 
with which to contend.

    D. Are you aware of any requests for information from my staff that 
currently are pending with OCLA? If so, when do you believe my office 
should expect to receive the requested information?
    Response. I have noted this request to the Chief of Staff for 
review. If confirmed, I pledge to look into this process to ensure that 
information goes out as expeditiously as possible. If information is 
delayed, I will let you know why and when it may be expected.

    Question 4. According to the Questionnaire for Presidential 
Nominees that you submitted to the Senate Committee on Veterans' 
Affairs (Committee), your previous work experience includes more than 6 
years with the American Academy of Ophthalmology in Washington, D.C.

    A. What were your responsibilities during that time? Were you a 
lobbyist?
    Response. From 1991-1997 at the American Academy of Ophthalmology, 
I worked on policies related to Veterans and military health care and 
research, residency training, and health care reform. I also directed a 
grassroots advocacy program for physicians to advocate on behalf of 
their patients for access to specialty care and managed their political 
action committee in concert with their physician Board members in 
compliance with Federal election law. I was not a registered lobbyist.

    B. Are there any conflicts of interest that you believe could arise 
with regard to your prior work for the American Academy of 
Ophthalmology?
    Response. No.

    Question 5. In a directive to all of the heads of the Executive 
Departments and Agencies, President Obama said that his administration 
is ``committed to creating an unprecedented level of openness in 
Government'' and that his administration will ``disclose information 
rapidly.'' That directive also stressed that ``[t]ransparency promotes 
accountability.''

    A. Do you share the President's vision that government should be 
open, transparent, and accountable? If so, what steps would you take to 
advance the President's vision, if confirmed?
    Response. Yes, my goal is to share accurate and complete 
information with Members of Congress and Committees, and notify both of 
any problems as fully and expeditiously as possible.

    B. Do you believe this type of transparency includes providing 
timely, complete, and accurate information to Members of this Committee 
and their staffs?
    Response. Yes, transparency on VA matters should be extended to 
Congress, Veterans, and the general public.

    Question 6. The Questionnaire for Presidential Nominees that you 
submitted to the Committee reflects that you currently are serving as a 
Senior Advisor to the Secretary of Veterans Affairs.

    A. What are your responsibilities in that capacity?
    Response. As Senior Advisor, I have been working within OSVA on a 
number of important matters such as scheduling, staffing of the 
Secretary and VA leadership, preparation for meetings, and briefings on 
VA programs.

    B. In that capacity, have you had opportunities to interact with 
Members of this Committee or their staffs? If so, do you believe you 
have laid the groundwork for developing good working relations with the 
Committee Members and Committee staff?
    Response. As Senior Advisor to the Secretary, I have attended a few 
meetings with Members of Congress. I hope they have helped create a 
good foundation for the Secretary in those exchanges. If confirmed, I 
look forward to conducting a significant amount of outreach to members, 
Committees and their staffs and to continuing on a regular basis. Many 
legislative and policy ideas come from direct input from Veterans to 
member offices, and I look forward to working with Senate and House 
Offices both in the Capitol and the home state.

    C. In that capacity, have you identified any practices or 
procedures at OCLA that you believe could be improved?
    Response. If confirmed, I would work to make the Office of 
Congressional and Legislative Affairs a highly effective partner to 
Congress in meeting the needs of the Nation's Veterans. I want to 
encourage a team that is aware of and understands Congressional policy 
interests, as well as the value and importance of bringing those 
interests to the attention of VA leaders for engagement. I am committed 
to improving outreach to members and staff; expanding the knowledge 
base of the Congressional Relations team and investing in the 
development of team members; effectively distributing staffing 
resources to achieve objectives; and updating technologies and data 
management processes to meet the needs of a large team with a critical 
mission in a dynamic work environment.

    Question 7. According to Legistorm, you received $135,000 in salary 
from the House Budget Committee between 2000 and 2004, but that 
Committee is not reflected in the employment history listed in your 
Questionnaire for Presidential Nominees.

    A. Were you ever employed by the House Budget Committee?
    Response. No, I was not employed by the House Budget Committee. The 
House Budget Committee formerly allocated funds for member-office staff 
who served as Budget Associates for the member. My understanding is 
that, with the changes instituted by the 110th Congress, this practice 
was ended.

    B. If so, what were your responsibilities?
    Response. N/A
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mark Begich to Joan 
 M. Evans, Nominee to be the Assistant Secretary for Congressional and 
        Legislative Affairs, U.S. Department of Veterans Affairs

    In your testimony you state you understand the need for quick and 
complete information about issues and events affecting constituents.

    Question 1. In your estimate, what is a reasonable time to provide 
a response to an inquiry submitted by a Congressional Office on behalf 
of a constituent?
    Response. In my testimony I was referring to medical facility or 
regional office events or practices that might impact local veterans; 
in that case, as soon as it came to OCLA's attention notifications 
should be made to the affected House and Senate offices.
    With regard to casework, some cases are more complex than others 
and require significantly more time to bring to resolution than a 
routine request for information, which should be answered within two 
weeks. The vast majority of constituent casework is worked at the 
regional office or facility level rather than in OCLA's liaison office. 
However, when tasked with tracking a specific case, my understanding is 
that liaison staff can help serve as a forcing function to help move it 
toward resolution.

    Question 2. What specifically do you plan to do to improve this 
process and make this more timely and efficient?
    Response. In terms of notifications, I would encourage a culture of 
calls and visits rather than e-mails or letters that can get lost in 
the shuffle. In addition to contacting Committee leadership, OCLA's 
personal outreach to affected members' staff is preferred; in some 
cases, direct member contact by the Assistant Secretary or the 
Secretary may be warranted.
    With regard to casework, if confirmed my goal would be to 
informally survey Congressional offices to find any noticeable delays 
in responses, then bring patterns to the attention of VA leadership, 
including the Administrations and local offices, to address.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much for your testimony, Ms. 
Evans.
    Ms. Evans, in your answers to my prehearing questions, you 
acknowledge the importance of informing Congress about emerging 
issues and stated that this should be done in a timely manner. 
Please tell the Committee what you would consider to be 
adequate advance notice regarding such issues.
    Ms. Evans. I would consider as problems arise to be on the 
phone quickly to let you know, particularly as fully as we can. 
Sometimes that may mean gathering more information, but as soon 
as word comes out to get it to you for review.
    Chairman Akaka. Would you ever consider a press release as 
adequate and timely advance notice to Congress, as was done in 
the case of the prostate cancer treatment program in 
Philadelphia?
    Ms. Evans. Thank you for the question. Coming from the 
perspective of a House staffer, I wouldn't consider that 
adequate advance notice. I know how busy staffs, Senators, and 
members are and things need to be brought to their attention, 
and I think personal communication is the best way to do that.
    Chairman Akaka. In one of your answers to a prehearing 
question, you stated that you believe VA's senior leadership 
and most members of OCLA see benefits in updating the focus of 
the office and expanding the staff to be more proactive in its 
outreach to member offices. Can you explain to the Committee 
what these benefits are?
    Ms. Evans. Thank you. I believe that the benefits that 
outreach provides is knowing on the front lines what is going 
on in States and districts with members and with their 
veterans. So to me, getting as close to the veteran as you can 
to find out information is most helpful. So what I would like 
to do, I think, is develop close relationships with Committee 
staff here in the Senate and House Veterans' Affairs 
Committees, as well as the appropriating committees, getting to 
know members of the personal office staff as well as folks back 
home in the State working in the State and district offices.
    Chairman Akaka. In one of your answers to prehearing 
questions, you discussed your belief that VHA needs a more 
centralized structure. Do you believe that right now the 
central office has a handle on activities at the health care 
networks? Does it have knowledge of what is occurring, for 
instance, at VA medical centers?
    Ms. Evans. Well, thank you, sir. I think under the 
tremendous leadership of Secretary Shinseki, Deputy Secretary 
Scott Gould, and the entire leadership team, they have done 
yeoman's work at this point in bringing together all elements 
for a transformation. They have had VISN briefs with almost 
half the VISNs at this point, bringing up leadership from State 
and regional offices, getting to know them, discovering 
problems. So I think we are well on our way.
    Chairman Akaka. You mention in your prehearing questions 
former Speaker Tip O'Neill's views on constituent service. With 
this in mind, how long should a Senate office wait for 
responses to casework sent to the liaison office for 
assistance?
    Ms. Evans. That, sir, depends on--I would say it depends on 
the case. I think they should be handled as expeditiously as 
possible and staff should be reviewing and forcing decisions on 
those. Some pieces of casework are more complex than others, so 
as timely a manner as possible. Right now, I would have to get 
into the office and see what the hold-ups are, and I look 
forward, if confirmed, to working with you and your staff to 
best meet your needs and the needs of veterans.
    Chairman Akaka. Thank you for your responses.
    I call on Senator Burr for his questions.
    Senator Burr. Thank you, Mr. Chairman, and Joan, welcome.
    Ms. Evans. Thank you.
    Senator Burr. Truly, we are delighted to have you.
    Housekeeping is the first question, if I may. As Ranking 
Member, I have some responsibilities to my side of the aisle 
from the standpoint of oversight as it relates to the Veterans 
Administration. It often leads me or my staff to ask the VA for 
certain information. If confirmed, do you pledge to ensure that 
my staff and I will be provided the requested information to 
the fullest extent permitted by law without hassle and delays?
    Ms. Evans. Yes, I do, sir.
    Senator Burr. If confirmed, how would you ask your staff to 
prioritize requests from various Members? Would it depend at 
all on whether the request is from the majority or minority?
    Ms. Evans. No, sir.
    Senator Burr. If confirmed, will you make it a priority to 
look into any pending requests for information from me or other 
Members of the Committee to ensure that those requests are 
fulfilled as soon as possible?
    Ms. Evans. Yes, sir.
    Senator Burr. If confirmed, will you be proactive in 
alerting the Committee, including both sides of the aisle, to 
any significant trends, problems, or other issues at the VA?
    Ms. Evans. Yes, sir.
    Senator Burr. I thank you for those answers.
    Joan, my staff recently asked the Office of Legislative 
Affairs for information about VA involvement with a company 
that was reported to have conducted unauthorized clinical 
trials. OCLA had a knee-jerk response that was the information 
could not be provided without, ``a written request signed by 
the Chair and specifying the reasonable particularity the 
oversight purpose for which the records are sought.'' Now, OCLA 
later changed its tune and said that they couldn't find any 
relevant information. My staff was able then to get the 
requested information from the Inspector General's office. Do 
you believe this was handled correctly?
    Ms. Evans. Well, thank you for presenting that situation. I 
am not familiar with it. My pledge to you would be, whether on 
a formal or informal basis, to work with you and your staff to 
ensure that you have everything that you need to do your job 
effectively and efficiently.
    Senator Burr. Can I ask, do you believe that it probably 
should have been a proper response to tell us what could be 
provided legally versus what cannot be?
    Ms. Evans. Yes.
    Senator Burr. Thank you. General Shinseki has indicated 
that his goal for Congressional inquiries is to respond within 
2 weeks, and I realize casework is significantly different than 
this. Over the past several months, it has taken VA much longer 
than 2 weeks to respond to many of the requests for information 
from my office. If confirmed, what specific steps would you 
take to ensure that these types of requests are answered in a 
timely manner?
    Ms. Evans. One of the things is to establish a good 
tracking system to follow up with people. I think the thing 
that everybody--nobody wants any surprises and people don't 
appreciate radio silence----
    Senator Burr. How important do you believe a free flow of 
information is between the agency and Congress?
    Ms. Evans. I think it is critical for both branches of 
government to do their job effectively.
    Senator Burr. Would it be your intention to foster a 
collaborative relationship between the VA and Congress?
    Ms. Evans. Absolutely, sir.
    Senator Burr. In a recent letter, General Shinseki 
indicated that he asked the VA staff to review current 
procedures for responding to Congressional requests and to, 
``adjust them to ensure prompt response and follow-up.'' Are 
you aware of a review of this type?
    Ms. Evans. Well, currently, Senator Burr, I am in the 
Office of the Secretary, so I am working directly with the 
Secretary not on this issue. So I can't comment on that. I am 
not familiar with it.
    Senator Burr. Well, I would ask you, upon your 
confirmation, would you make a special effort to review the 
status of that review?
    Ms. Evans. Yes, sir.
    Senator Burr. Thank you. In response to prehearing 
questions, you mentioned, ``the culture of a large, slow-moving 
institution,'' as one of the factors that leads to delays in 
responding to Congressional inquiries. What steps would you 
take to ensure that this culture does not prevent the VA from 
meeting the Secretary's goals of responding to Congress within 
2 weeks?
    Ms. Evans. Well, if confirmed, I hope to go down to OCLA, 
work in the system, get to know the processes, see the 
obstacles that the Congressional relations officers and the 
liaisons are faced with when doing their job. They are all 
dedicated, very hard working people who want to do their job 
efficiently and effectively. So my goal would be to work with 
Members of the Committee and their staffs as well as Members of 
Congress in personal offices who don't have the good fortune of 
being on this Committee to know what their concerns are and how 
we can best answer them.
    Senator Burr. I thank you for your honesty and candor 
today. Mr. Chairman, I look forward to the opportunity to have 
Ms. Evans before us for her confirmation.
    Chairman Akaka. Thank you very much. Thank you, Senator 
Burr.
    Now I would like to call on Senator Burris. May I say, 
Senator Burris, you made some remarks about the nomination 
process. I just want you to know that Ray Jefferson's 
nomination was received by us on June 9 and Ms. Evans on June 
23. That is a pretty rapid pace for all the paperwork that has 
to occur before we have this hearing, and so we put them 
together and have had this hearing set up today. I must tell 
you that we have to wait until we receive what we call ``the 
official notice'' from the White House on these nominations 
before we can proceed with the paperwork. But I would tell you 
that we have really moved it as rapidly as we could.
    Senator Burris. Thank you, Mr. Chairman. I just talked with 
her yesterday and she told me that, but there was some concern, 
and I am sorry Senator Burr left, because I was deeply 
concerned about the nomination of Tammy Duckworth that took all 
that time. That is what we were----
    Chairman Akaka. This is the time for your questions.
    Senator Burris. Yes, sir. Thank you.
    Mr. Chairman, the nominee also has an Illinois connection. 
She worked for Congressman Terry Bruce, who was a very good 
friend of mine. When she told me that, I said, well, my vote is 
assured. If she can work for Terry, she will have to have a 
couple of medals.
    [Laughter.]
    Ms. Evans. No.
    Senator Burris. That is my buddy.
    Joan, tell me this, because I am concerned. I had requested 
information from one of the hearings. There was the person at 
the VA who was in charge of construction and this request was 
made at least 2 months ago in reference to minority contractors 
where I had requested that we get a breakdown of who was doing 
the work on these construction sites for the VA; not only that, 
but a breakdown of the dollar amount, the ethnicity of the 
contractor, whether Hispanic, Asian, black, or female. To this 
day, I don't think I have received that information. You are 
currently at the Department of Veterans Affairs right now. You 
work for the Secretary, is that correct?
    Ms. Evans. Yes, sir.
    Senator Burris. I hope that if you are confirmed, you 
probably could do that. But I just wonder, in listening to 
subjects Senator Burr raised, whether or not this is a pattern, 
how the VA responds to Congress, responds to a Senator.
    So you having come from this legislative side to the 
executive side, I just hope that there would be, as far as you 
are concerned, a little better treatment, or information 
flowing on a timely basis. Is that something, if you are 
confirmed, that you can state to us unequivocally would take 
place?
    Ms. Evans. Yes, sir. I will work to act as expeditiously as 
the team can get together and also to keep you informed along 
the way.
    Senator Burris. Because I am still looking for that 
information, and I would hope that when you would go back, my 
staff would be in touch with you, because I don't recall 
specifically the young lady who was here--we surely have a 
record of who was requested the information. I don't know what 
the hold-up is and why there is one. Maybe they don't have it. 
If they don't have it, then we ought to know because then we 
want to make sure that any of the construction that is to take 
place would open up opportunities for minority contractors to 
do a lot of that work. That is what I am concerned about.
    That is the end of my questioning, Mr. Chairman, because I 
do have to take leave to make another appointment.
    Good luck to you, and we look forward to working with you, 
Joan.
    Ms. Evans. Thank you, Senator.
    Senator Burris. By the way, my Legislative Director, Ken 
Montoya, told me to come down here and make sure I asked you 
that question.
    [Laughter.]
    Ms. Evans. Thank you.
    Senator Burris. So you can blame Ken for that. He told me 
he was your buddy, too.
    Ms. Evans. Yes. Thank you, sir.
    Chairman Akaka. Thank you very much, Senator Burris. We are 
really grateful for your role on this Committee and your 
thoughts are really welcomed.
    Ms. Evans, I would just like to ask you a few questions 
about--one of them is on outreach and another is on casework.
    Ms. Evans. Yes, sir.
    Chairman Akaka. On casework, do you believe constituent 
casework should fall within the 2-week suggested turn-around 
for Congressional correspondence?
    Ms. Evans. Sir, I think that depends on the case and the 
complexity of it, but I think that all casework should be 
handled as expeditiously as any other request.
    Chairman Akaka. Thank you. About outreach, do you plan to 
improve outreach to Members of Congress and their staffs?
    Ms. Evans. Yes, sir. If confirmed, I personally would like 
to establish a goal of offering to meet with every member of 
the House and the Senate or their designated staff personally 
to find out what their concerns are and to evaluate those 
concerns as we look at transforming OCLA.
    Chairman Akaka. I certainly appreciate that.
    There is something that I would like to seek clarification 
on, regarding subject matter experts. Can you please clarify 
something about direct communication between VA subject matter 
experts and Members of Congress and their staff. Do you believe 
there are circumstances where OCLA would not be involved in 
responding to questions from Congress, and if so, when would 
direct communication with VA experts be appropriate?
    Ms. Evans. Well, thank you, sir. What I would like to do, 
if confirmed, is to work with your staff leadership as well as 
the leadership in the VA to come up with an appropriate and 
timely system so that we meet your request with the depth of 
knowledge you are looking for.
    Chairman Akaka. Well, I really appreciate that. As you 
know, we are trying real hard to do all we can for veterans 
across the country, and what we are seeking to do is to work 
together with the new administration as much as we can to do 
the job. If we find better ways to do it, we will. So we would 
appreciate close communications between VA and the Congress, 
for us particularly on the Committee.
    I appreciate you, your family and your friends being here, 
and I should say your supporters, too. I want to thank you for 
your participation in today's hearing. I appreciate your desire 
to serve our Nation's veterans.
    For the information of Members and staff, I would like to 
move this nomination as soon as possible. To that end, I ask 
that any posthearing questions for either nominee be sent to 
the Committee's Legislative Clerk by the end of business 
tomorrow so we can move. I urge both nominees to provide 
answers to any posthearing questions as soon as possible so 
that the Committee can report the nominations to the full 
Senate.
    Thank you again. This hearing is adjourned.
    Ms. Evans. Thank you.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]


HEARING ON NOMINATIONS OF DR. ROBERT A. PETZEL AND DR. RAUL PEREA-HENZE

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Tester, Begich, Burris, 
Burr, and Johanns.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The Senate Committee on Veterans' Affairs 
will come to order.
    On November 18, the Senate received the nomination of Dr. 
Robert Petzel to serve as Under Secretary for Health of the 
Department of Veterans Affairs. Today's hearing is an important 
step in the Committee's process of consideration on this 
pending nomination.
    The nominee before us has distinguished himself as a 
physician, an educator, and an administrator. He has served in 
many capacities in the Veterans Health Administration, as a 
Chief of Staff at a VA medical center, as a Network Director, 
and most recently as the Acting Deputy Under Secretary for 
Health. Dr. Petzel has, through his long career in VA, acquired 
impressive experience in the VA system and demonstrated a 
commitment to improving health care for the Nation's veterans. 
It is my firm belief that only someone with qualifications such 
as those possessed by Dr. Petzel could meet the challenges 
facing the next VA Under Secretary for Health.
    VA is the largest health care organization in the country 
and has experienced significant growth in recent years. Yet its 
leaders have been unable to plan effectively for the future 
because they were never sure how much funding VA would receive 
in the coming years.
    With advance funding for VA health care now a reality, this 
will be much less of an issue. However, since resources are 
sure to be tight during this economic downturn, appropriated 
funding provided to VHA must be used wisely.
    Highly publicized failures of VA to deliver quality health 
care, and a lack of accountability at high levels for those 
failures, have impacted veterans' confidence in the system and 
the morale of the dedicated men and women who work for VA. 
There has been significant change in the organizational 
structure of VHA in recent years. When VA's Networks were 
created in the mid-1990s, they were envisioned as lean 
management structures with less than a dozen employees. Today, 
VA's networks employ at least 1,000 individuals, many in 
positions without any direct responsibility for the delivery of 
health care services.
    As modern medicine is able to save more lives on the 
battlefield than ever before, VA is facing new challenges in 
adapting to the needs of the most seriously injured. Recently, 
the Senate unanimously passed S. 1963, the proposed Caregiver 
and Veterans Omnibus Health Services Act of 2009. This 
legislation is one part of a larger effort to give VA tools to 
address the needs of the newest veterans. If enacted, this 
measure will provide vital support for the caregivers of the 
most seriously injured veterans from the Iraq and Afghanistan 
wars and improve services to almost every group of veterans, 
including women veterans, veterans who live in rural areas, and 
homeless veterans. The caregiver provisions recognize the 
unique needs of the latest generation of veterans, providing 
health care, counseling, support, and a living stipend to those 
who care for the Nation's wounded warriors.
    Dr. Petzel has advocated for a new structure in VA which 
would create service lines. These service lines would ensure 
accountability among senior leadership for the services 
provided in VA hospitals and clinics throughout the country. He 
has also stressed the need to work to improve the quality of 
services across the system so that the veterans receiving care 
from the smallest VA clinics to the largest VA hospitals will 
receive high-quality care.
    As a former Network Director and now Acting Principal 
Deputy Under Secretary of Health, Dr. Petzel has both the 
perspective and the credibility among his peers to succeed as 
VA's Under Secretary for Health. I am convinced that Dr. Petzel 
can ensure that VA is the health care provider of choice. Our 
Committee looks forward to partnering with Dr. Petzel and his 
colleagues in VA as we move forward with the goal of providing 
the best care anywhere to the Nation's veterans. My desire is 
that the Committee move expeditiously to confirm Dr. Petzel so 
that he can assume the role of being head of the Veterans 
Health Administration.
    Now I would like to call on Senator Johanns for his opening 
statement.

                STATEMENT OF HON. MIKE JOHANNS, 
                    U.S. SENATOR FROM NEVADA

    Senator Johanns. Mr. Chairman, thank you very, very much. I 
appreciate the opportunity to say just a few words. I can say 
to the Chairman that it probably would be adequate to say I 
agree with what you said there, but I do want to offer a 
thought or two.
    First, Dr. Petzel, I want to say thank you. Thank you for 
your many, many years of service. You have such an impressive 
resume, dating back to your early years at St. Olaf--and we 
shared a story. I went to a college just down the road from 
there, actually. But I look at your entire career, and it is a 
career of service and public service, which we thank you for.
    I also want you to know, Doctor, as I mentioned to you 
briefly, I received on your behalf what I consider to be a 
very, very high recommendation. A gentleman by the name of Al 
Washko, whom you know very well, who is the Director of the VA 
Nebraska-Western Iowa health care system, gave me a call just a 
few days ago and pointed out to me that he had worked under you 
at some point in his career. He spoke of your leadership, your 
integrity, and what you brought to the job and could not have 
given you a more positive recommendation. That speaks highly of 
you, and it carries a lot of weight.
    I have to tell you that I am excited about your nomination 
and very pleased to have the opportunity to not only speak 
favorably about that, but to also offer my words of support.
    With the support of the Chairman, whom I publicly thank 
again, we had an opportunity to have a hearing in August at 
that VA facility in Omaha. They do such a great job there. Al's 
leadership has made such a great difference. As you know, it 
ranks so high in many areas, and yet I think we all agree that 
the facility is just flat worn out. The heating, ventilation, 
air-conditioning system is rated F, I think dating back to 
1999. It just simply is a facility that has outlived its 
usefulness.
    I really look forward to the opportunity to work with you 
on that. We have got some pretty serious problems there that we 
need to address, but I do not want to go into that in deep 
detail today because we will have an opportunity to address 
that facility and others around the country.
    What I do want to encourage you to do is, as you take on 
this new responsibility, hoping that you are confirmed, to 
reach out to the Members of this Committee on a regular basis. 
We all serve on a number of committees. In fact, I have often 
commented that one of challenges of becoming a new U.S. Senator 
is trying to figure out how to be in two and three places at 
once.
    This Committee, because of the leadership of the Chairman 
and the leadership of our Ranking Member, really is as 
nonpartisan as they come in the Senate. We do not work on this 
issue because it is a Republican issue or that issue because it 
concerns Democrats. We work on issues to try to help the lives 
of veterans who have given so much to our country. So we look 
forward to that opportunity to bring you on the team and to do 
all we can to work together with you. So I will just wrap up my 
comments today by wishing you the best and ending where I began 
by saying thank you for your many, many years of public 
service.
    Chairman Akaka. Thank you very much, Senator Johanns.
    Senator Begich, your opening statement, please.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, I will pass. I will just wait 
for the questions.
    Chairman Akaka. Thank you.
    Senator Murray?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman, Senator 
Johanns this morning, and all of our colleagues, for holding 
this really important hearing to consider the nominations of 
Dr. Robert Petzel to be VA Under Secretary for Health and Dr. 
Raul Henze to be Assistant Secretary for Policy and Planning.
    It goes without saying that both of these positions are 
vitally important both to the millions of veterans who rely on 
the VA for their health care and benefits and to the thousands 
of VA employees who work for our veterans.
    If confirmed, both of these nominees will face very 
stubborn challenges that have persisted despite the efforts of 
their predecessors, so I look forward to working with both 
nominees to take real steps forward now on behalf of our 
Nation's veterans.
    Mr. Chairman, I also just want to take a moment to 
reiterate a message that I have sent many, many times to 
previous nominees. It is in your interest, it is in the VA's 
interest, and it is certainly in the veterans' interest for you 
all to be open and honest with Congress if you are confirmed. I 
guarantee that you will have a healthier relationship with all 
of us here in Congress if you are up front and proactive with 
all of us. In the past, the VA too often tried to minimize and 
cover up problems. Veterans depend on the VA to provide an 
honest accounting of its programs and its policies.
    Mr. Chairman, aside from the VA Secretary himself, there is 
perhaps no more important position affecting the health and 
well-being of our Nation's veterans than the Under Secretary of 
Health. Decisions made by the Under Secretary affect how long a 
patient has to wait to receive care, the quality of care 
provided, and many other areas. If confirmed in this position, 
Dr. Petzel would head the Nation's largest integrated health 
care system. He would oversee the delivery of care to more than 
5 million veterans, and he would lead more than 200,000 health 
care professionals and support staff who work at more than 
1,400 sites of care.
    As Under Secretary of Health, he would take the point on 
tackling the VA's health care challenges. Those challenges 
include: providing mental health care to veterans who bear the 
invisible wounds of war, such as PTSD and TBI; preparing the VA 
for an influx of female veterans; expanding access to VA health 
care to Priority 8 veterans; and preparing the VA to care for 
more Iraq and Afghanistan veterans. Those are just some of the 
major challenges that he will face.
    I was able to speak with Dr. Petzel last week about some of 
these issues when we met in my office, and he told me about his 
vision--I am sure he will talk about it today--about bringing 
the VA into the 21st century. I look forward to hearing more 
from you today on all of that.
    I also had the chance to meet Dr. Henze last week. We 
talked about his public and private sector experience and how 
it would allow him, if confirmed, to use data analysis to drive 
the Office of Policy and Planning's strategic planning process. 
By all accounts, Dr. Henze has a strong and varied resume, and 
he has his job cut out for him. The long-term challenges facing 
the VA are well known, and the Office of Policy and Planning 
has a central role to play in pushing the VA forward to utilize 
long-term strategic planning. But too often the VA has been the 
victim of its own bureaucratic obstacles which delay the vital 
services and programs our veterans need. That is why I am 
interested to learn how Dr. Henze thinks the VA can creatively 
and realistically address the long-term challenges it faces.
    So thank you very much, Mr. Chairman, for holding this 
hearing, and I look forward to the testimony of the witnesses.
    Chairman Akaka. Thank you very much, Senator Murray.
    Senator Burris?

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you, Mr. Chairman.
    Mr. Chairman, I am going to have to make just a few 
comments, since I will not be able to stay through the entire 
hearing, but I just want to make sure that Dr. Petzel gets a 
couple of thoughts from me. One, of course, would be the 
problem that we are having with the Marion hospital, the VA 
hospital in Marion, IL, where Senator Durbin and I were about 3 
weeks ago with concerns of the changes. Secretary Shinseki has 
certainly been up to visit and has been concerned about it, and 
we all want to make sure that Marion is on the right track. 
Over the years they have had several deaths of veterans in that 
facility, and the medical staff--there is a new Director. He 
had been in there only 2 weeks when we were there about 2 
months ago or maybe a month ago. So we are just concerned about 
that, Doctor. And if you are confirmed, we would hope that you 
would keep a very close watch on that situation because there 
are certain specifics that take place which we raised with the 
Director.
    Rural medicine is an issue because that hospital serves a 
three- or four-State area--northern Kentucky, southeastern 
Missouri. A lot of those veterans come to the Marion facility, 
so we are deeply concerned about that.
    Another issue is something that I do not know, but I have 
heard a lot of complaints about, Dr. Petzel, and that is with 
the dental care for our veterans.
    Mr. Chairman, unfortunately, I will not be able to stay 
around to get details on that because I do have another 
engagement. I have to leave and be there very shortly. For the 
record we will be submitting, with your permission, Mr. 
Chairman, our other comments.
    Chairman Akaka. All right.
Prepared Statement of Hon. Roland W. Burris, U.S. Senator from Illinois
    Thank you Mr. Chairman, I would like to begin by extending a ``Warm 
Welcome'' to our distinguished guests, as well as fellow colleagues 
from the Committee.
    In addition Mr. Chairman, I would like to thank you very much for 
holding this important hearing on the nomination of Dr. Petzel to be 
Under Secretary of Health at the Veterans Health Administration (VHA) 
and Dr. Perea-Henze to be the Assistant Secretary for Policy and 
Planning.
    It goes without saying that the positions for which Dr. Petzel and 
Dr. Perea-Henze have been nominated are critically important; both to 
the millions of veterans who rely on the VA for their healthcare and to 
the thousands of hard working VA employees who care for our veterans.
    Mr. Chairman, in my estimation, aside from the VA Secretary 
himself, there is perhaps no more important position affecting the 
health and well being of our Nation's veterans than the Under Secretary 
of Health. This position, in effect, serves as CEO of the VA's entire 
health care system, the largest integrated health care system in the 
United States.
    Dr. Petzel has been nominated to the top VA health position at a 
time of great difficulty for the VA. The system is stretched to the 
limit trying to care for new veterans, while also serving existing 
veterans. Our Vietnam veterans are getting older, and many of them will 
be seeking care for age-related conditions at the same time that more 
and more of our newest veterans will be needing care for the wounds 
they suffered in Iraq and Afghanistan.
    In addition, at the same time the VA struggles to address these 
issues, it must also:

    <bullet> work with DOD to improve the seamless transition process,
    <bullet> reduce waiting times for veterans seeking care at VA 
healthcare facilities,
    <bullet> expand access to mental health services, and
    <bullet> address care for patients with TBI.

    If confirmed, the decisions made by Dr. Petzel in the Under 
Secretary position will affect how long a patient has to wait to 
receive care, the quality of the care provided, and many other areas. 
With this in mind, I look forward to hearing from Dr. Petzel on how he 
plans on dealing with these very important issues.
    In relation to Dr. Perea-Henze's nomination for the Assistant 
Secretary of Policy and Planning position, if confirmed, he will be 
charged with the responsibility of ensuring that decisions made by the 
Secretary and his Deputy are made with full consideration of their 
impact throughout the department. The cross-cutting nature of this 
position makes it vital to the current and future well-being of the 
Department and the lives of this Nation's veterans.
    That said I am also looking forward to hearing Dr. Perea-Henze's 
plans for dealing with the issues facing the Department and what he is 
going to do to ensure this Department is competent and capable today 
and fully prepared for the challenges of tomorrow.

    Senator Burris. Thank you very much. We wish you well. 
Should you be confirmed, we look forward to working with you, 
Doctor. We have to take care of those individuals who took care 
of us. We can never, ever forget a veteran.
    Thank you.
    Chairman Akaka. Thank you very much, Senator Burris.
    Before I call on Senator Tester, I would ask Ranking Member 
Burr for your opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, thank you, and thank you for 
the indulgence of the witnesses. I have had an opportunity to 
meet with Dr. Petzel. I would like my statement to be a part of 
the record, so I am not going to hold us up.
    Chairman Akaka. Without objection, it will be placed in the 
record.
    Senator Burr. Thank you.
    [The prepared statement of Senator Burr follows:]

       Prepared Statement of Hon. Richard Burr, Ranking Member, 
                    U.S. Senator from North Carolina

    Thank you, Mr. Chairman. Welcome to both of our nominees and your 
family members in attendance this morning.
    You both have been nominated to assume leadership positions at a 
critical time in our Nation's history. We are a nation at war, nearly 
the longest the United States of America has ever been engaged in.
    Our advanced medical technology has made it possible for our 
servicemen and women to survive traumatic injuries that they never 
would have survived during previous wars. But when they come home, they 
need a state-of-the-art health care system, as well as a hassle-free 
benefits system, that will help them return to civilian lives that are 
productive and full of promise. I have two prime examples from my home 
state: Eric Edmundson and Ted Wade.
    Both of these young men came home from war broken in mind and body. 
But thanks to the constant love and dedication of their family members, 
as well as a medical system that focused on restoring their 
capabilities to the fullest extent possible, they are getting better 
every day.
    Today's veterans expect this of us. They want a VA that is forward 
looking, innovative, and responsive. That's why both of your 
nominations are so vital.
    Dr. Petzel, you and I met last week in my office to discuss many of 
the challenges the Veterans Health Administration faces. I told you 
that I believed what VHA needs is a leader who will shake things up, 
one who is bold, and who is willing to challenge an entrenched 
bureaucracy often wedded to ideas of the past.
    I must admit, when I first heard that the nominee for this critical 
position was a career VA employee, I wondered how an insider could be 
the change agent of an administration where he has worked for 37 years.
    But after meeting you, I think your experience and record may 
uniquely position you as the right person for this job. I learned from 
our discussion that you and I both share the vision that VA must 
continue to evolve into a 21st Century organization.
    In the course of this hearing, I look forward to continuing the 
conversation we began in my office about what you hope to accomplish 
should you be confirmed.
    Dr. Perea-Henze, you too have been nominated to an important 
position. The office you will head, if confirmed, serves as VA's 
internal ``think tank'' that can be the impetus behind innovation to 
improve VA's service to veterans. This office needs someone who will 
not only assist in developing effective policies and plans, but also 
someone who can be a forceful advocate within the Department to put 
those policies and plans into action.
    In conclusion, congratulations to you both on your nominations. I 
again remind you of the importance of the mission you are seeking to 
undertake. There is perhaps no greater mission in government than the 
care of those who have worn the Nation's uniform in service.
    I look forward to hearing from each of you about how you plan to 
improve the VA services for veterans during your tenure in VA.

    Chairman Akaka. Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Mr. Chairman, and thank 
you both, Dr. Petzel and Dr. Henze, for being here today. I 
apologize. You have two very, very important jobs that you are 
nominated for, and after the visit to my office and my 
opportunity to visit with both of you, I, too, believe that you 
are up for that challenge.
    During my tenure, I think the VA got exponentially better--
starting with Secretary Peake--and I think that Secretary 
Shinseki continues along those lines. So I think that you have 
the opportunity, once in these positions, to do some real good 
things for veterans across America.
    Of course, you know my focus has been and continues to be 
on rural veterans. During our conversation in my office we 
talked about how we implement policies really to meet the needs 
of rural veterans. I think the home health issue and the issues 
that revolve around telehealth are issues and policies that I 
hope we can move forward on in a way that really meets the 
needs of the veterans in rural America.
    I have got a few questions for the record. I hope I can 
stay here for the entire hearing, but depending on what unfolds 
in another Committee will determine whether I can stay here or 
not. Regardless of that, I wish you both the best. You have two 
very, very important jobs to do, and I look forward to working 
with both of you down the line.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Tester.
    Now I would like to recognize the Senator from Minnesota, 
Senator Al Franken, who is joining us this morning to introduce 
our nominee to the Committee. Senator Franken?

  STATEMENT OF HON. AL FRANKEN, U.S. SENATOR FROM MINNESOTA, 
                INTRODUCING DR. ROBERT A. PETZEL

    Senator Franken. Thank you, Mr. Chairman. Chairman Akaka, 
Ranking Member Burr, and Committee Members, thank you very much 
for giving me this opportunity to introduce Dr. Robert Petzel, 
who has been nominated for the critical job as Under Secretary 
for Health in the Department of Veterans Affairs.
    As a relatively new member of the Senate, I do not think I 
have any higher priority than making sure that our veterans get 
the health care that they deserve. You might already know that 
my very first bill was to provide service dogs to wounded 
veterans who have both physical and mental wounds. I believe 
our veterans, our wounded warriors, will get tremendous 
benefits from those highly trained dogs.
    Dr. Robert Petzel went to St. Olaf, one of Minnesota's 
outstanding colleges. He serves on the faculty of the medical 
school at the University of Minnesota and has long been based 
in Minneapolis, serving as Director of the Midwest VA Health 
Care Network. I am confident Dr. Petzel will bring the same 
dedication and skill to improving the health of our Nation's 
veterans as he brought to caring for veterans in Minnesota and 
other midwestern States.
    I also know Dr. Petzel is committed to pursuing innovative 
solutions and evidence-based performance management to best 
provide that care. He has worked to expand the reach of 
community-based outpatient clinics in Minnesota without 
compromising the core functions of VA medical centers, and he 
has pursued the promise of telehealth and telemedicine within 
the VA.
    VA's health care has been called the best anywhere. As the 
official at the head of the Veterans Health Administration, Dr. 
Petzel will be faced with the daunting task of making it even 
better. We owe our veterans nothing less.
    Dr. Petzel's nomination is truly a source of pride for 
Minnesota. I look forward to working with him in the months and 
years ahead to make sure that our veterans have the highest 
possible level of care and quality-of-life.
    Thank you.
    Chairman Akaka. Thank you very much, Senator Franken, for 
being here. Aloha and welcome to this Committee and also aloha 
and welcome to Dr. Petzel.
    Senator Franken. Thank you, Mr. Chairman. Aloha to you.
    Chairman Akaka. Thank you very much, Senator Franken.
    Under the rules of the Committee, the testimony of all 
Presidential nominees appearing before the Committee shall be 
taken under oath. Dr. Petzel, would you now stand for the 
administration of the oath? Will you raise your right hand? Do 
you solemnly swear that the testimony you are about to give, 
that your responses to the Committee, the Committee's 
questionnaire, your responses to all questions both live and in 
writing before the Senate Committee on Veterans' Affairs will 
be the truth, the whole truth, and nothing but the truth, so 
help you God?
    Dr. Petzel. I do.
    Chairman Akaka. Thank you.
    Dr. Petzel, will you please begin with your statement? I 
understand your family is here. Will you please introduce them, 
too?

   STATEMENT OF ROBERT A. PETZEL, M.D., NOMINEE TO BE UNDER 
  SECRETARY FOR HEALTH, VETERANS HEALTH ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Dr. Petzel. Chairman Akaka, Ranking Member Burr, 
distinguished Members of this Committee, good morning.
    Chairman Akaka. Good morning.
    Dr. Petzel. I want to first thank Senator Al Franken from 
Minnesota for his very kind introduction. Before I begin my 
statement, I would like to introduce my family and thank them 
for their support: my wife, Dr. Sue Petzel; our daughter 
Andrea; our son, Aaron, from Minneapolis; and our son, Erik, 
and his wife, Jennifer, from the Washington, DC, area. Without 
their help and support, I would not be here before you today.
    The Veterans Health Administration has a four-part mission: 
patient care, education, research, and a backup for national 
emergencies. But our foremost responsibility is to provide 
safe, effective patient-centered care for America's veterans. I 
believe that education and research enhance the patient-care 
environment, and I believe that the presence of students and 
residents and the generation of new knowledge through research 
do stimulate better care.
    My first clinical rotation in medical school was at the VA 
Lakeside Medical Center in Chicago. The majority of my 
residency was spent in the Minneapolis VA medical center, and I 
have spent my entire professional life striving to provide the 
``Best Care Anywhere'' to America's veterans.
    The changes that have occurred in the Veterans Health 
Administration since my training 35 years ago have been 
stunning. A national reputation for quality and safety, an 
outstanding integrated array of mental health services, the 
electronic health record, and a sophisticated program to treat 
Traumatic Brain Injury are but a few of the accomplishments 
that VA has achieved over these last several years. We are 
empowering veterans to take control of their health care 
through Web applications like MyHealtheVet. We are adopting new 
models of treatment that bring care closer to home by 
emphasizing non-institutional long-term care, and we have been 
developing proposals and working with Congress to support the 
family members and friends who assume caregiving 
responsibilities for their loved ones. This is particularly 
important for those young people who are severely injured 
returning from Iraq and Afghanistan who will need lifelong 
care. Our dramatically improved collaborations with the 
Department of Defense will enhance and improve care and 
services to those people returning from the conflict.
    These are all great accomplishments, but we need to be 
better, and we can be better.
    I understand health care systems, and I know the VA system 
very well. I know its strengths, its weaknesses, and its 
challenges. Its strengths are its mission, its dedicated 
workforce, its reputation for quality and safety, the 
electronic health record, our broad array of programs, and our 
degree of integration. Our weaknesses and challenges include 
developing a clear vision of what our health care system needs 
to be and will look like in the future, a lack of alignment of 
all of the elements of VA and VHA to achieve this vision, and 
the tremendous variation that occurs in our system across the 
country. Access for veterans has improved significantly, but 
veterans in rural areas still have to travel too long and too 
far for care. We have the largest integrated mental health care 
system in the country, but we still do not reach many veterans 
who need our services. Women are joining the military in record 
numbers, and we must ask ourselves if we have the services they 
need available to them in the manner in which they want them.
    When Secretary Shinseki spoke before you in January, he 
promised that veterans would be at the center of our 
organization. I know the Secretary is committed to transforming 
VA, and I know how deeply he believes in this. Building the 
best health care system for America's veterans has been my 
life's work. This opportunity represents the culmination of a 
career spent caring for those who have worn the uniform and 
borne the burden.
    If confirmed, I will bring an innovative and creative 
approach to the Veterans Health Administration. Beyond our 
transformation initiatives, I will focus on three areas: 
articulating and implementing a vision of what our health care 
system needs to look like in the future; more patient-centered, 
providing more team care and continuously improving itself; I 
will work to align the organization to achieve that vision, 
bringing all of the elements into line--our resource 
distribution methodology, our performance measurement system, 
and our huge array of programs--all, again, aligned to 
accomplish that vision; and, finally, reduce the variation in 
our organization, our structures, our business practices, and 
the way we deliver medical care.
    If confirmed, I promise you that I will work diligently 
with Secretary Shinseki, the Congress, the Veterans Service 
Organizations, and all of VA to ensure our system provides the 
best care anywhere. The Under Secretary for Health's first 
responsibility is and always must be to advocate on behalf of 
America's veterans. I promise you, this will be the basis for 
my every decision.
    Thank you again for the opportunity, and I look forward to 
answering your questions.
    [The prepared statement of Dr. Petzel follows:]

   Prepared Statement of Robert A. Petzel, M.D., Nominee to be Under 
 Secretary for Health, Veterans Health Administration, U.S. Department 
                          of Veterans Affairs

    Chairman Akaka, Ranking Member Burr, Distinguished Members of the 
Committee: Good morning.
    Before I begin my statement, I would like to recognize and thank my 
family: my wife, Dr. Sue Petzel; my daughter Andrea, from Seattle; my 
son, Aaron, from Minneapolis; and my son, Erik and his wife Jennifer, 
from Washington, DC. Without their help and support, I would not be 
here before you today.
    I am thankful and deeply humbled that President Obama and Secretary 
Shinseki have asked me to join their leadership team as we form a 21st 
Century Department of Veterans Affairs--one that is people-centric, 
results-driven, and forward-looking.
    The Veterans Health Administration has a four-part mission: patient 
care, education, research, and a backup for national emergencies. But 
our foremost responsibility is to provide safe, effective patient-
centered health care for America's Veterans. I believe that education 
and research enhance the patient care environment. The presence of 
students and residents and the generation of new knowledge stimulate 
better care.
    My first clinical rotation in medical school was at the VA Lakeside 
Medical Center in Chicago. The majority of my residency was at the 
Minneapolis VA Medical Center, and I have spent my entire professional 
life in the Veterans Health Administration striving to provide the 
``Best Care Anywhere'' to America's Veterans.
    The changes that have occurred in the Veterans Health 
Administration since my training 35 years ago have been stunning. A 
national reputation for quality and safety, an outstanding integrated 
array of mental health services, the electronic health record and a 
sophisticated program to treat Traumatic Brain Injury are but a few of 
VA's accomplishments. We are empowering Veterans to take control of 
their health care decisions through applications like My HealtheVet. We 
are adopting new models of treatment that bring care closer to home by 
emphasizing non-institutional long-term care, and we have been 
developing proposals and working with Congress to support the family 
members and friends who assume caregiving responsibilities for their 
loved ones. This is particularly important for those young and severely 
injured servicemembers returning from Iraq and Afghanistan who will 
need lifelong care. Our dramatically improved collaboration with the 
Department of Defense will enhance and improve care and services to 
these returning servicemembers. These are all great accomplishments, 
but we need to be better, and we can be better.
    I understand health care systems and I know the VA system very 
well. I know its strengths, its weaknesses, and its challenges. Its 
strengths are its mission, dedicated workforce, reputation for quality 
and safety, the electronic health record, our broad array of programs, 
and our degree of integration. Our weaknesses and challenges include 
developing a clear vision of what our health care system should be in 
the future, a lack of alignment, and many variations within our system. 
Access for Veterans has improved significantly, but Veterans in rural 
areas still have to travel too long and too far for care. We have the 
largest integrated mental health system in the country, but we still do 
not reach many Veterans who need these services. Women are joining the 
military in record numbers, and we must ask ourselves if we have the 
services they need available in a manner they want them.
    When Secretary Shinseki spoke before you in January, he promised 
that Veterans would be at the center of our organization. I know the 
Secretary is committed to transforming VA, and I know how deeply he 
believes in this. Building the best health care system for America's 
Veterans has been my life's work. This opportunity would represent the 
culmination of a career spent caring for those who have worn the 
uniform and have borne the burden.
    If confirmed, I will bring an innovative and creative approach to 
the Veterans Health Administration. Beyond our transformation 
initiatives, I will focus on three areas:

    <bullet> Articulating a vision of what our health care system needs 
to become--more patient-centered, providing more team care and 
continuously improving;
    <bullet> Aligning the organization to achieve that vision; and
    <bullet> Reducing the variation in our organization, structures, 
business practices, and medical care.

    If confirmed, I promise you that I will work diligently with 
Secretary Shinseki, Congress, the Veterans Service Organizations, and 
all of VA to ensure our system provides the best care anywhere for 
America's heroes. The Under Secretary for Health's first responsibility 
is and always must be to advocate on behalf of America's Veterans. I 
promise you, this mission will be the basis for every decision I make.

    Thank you again for the opportunity to appear before you today. I 
would be pleased to answer your questions now.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Daniel K. Akaka to 
 Dr. Robert Petzel, Nominee to be Under Secretary for Health, Veterans 
       Health Administration, U.S. Department of Veterans Affairs

    Question 1. What do you view as the biggest challenge facing the 
incoming Under Secretary for Health?
    Response. There are three principal challenges I will confront if I 
am confirmed. First, the Department of Veterans Affairs (VA) must 
reduce variation. A national system requires national standards. 
Organizational structures, business practices, even the way we deliver 
medicine varies greatly. Veterans deserve consistent, high quality care 
in every location. Second, I will articulate a vision for VA as a 
national health care system that is the provider of choice for 
Veterans. Third, I will align our organizations and structures to 
realize this vision. We have an unmatched breadth and depth, but we 
need to marshal these resources toward implementing this vision.

    Question 2. If confirmed, what would you like your legacy to be?
    Response. If confirmed, I would like my legacy to be that as Under 
Secretary for Health, I articulated and implemented a new model of care 
to transform VA into a 21st century delivery system that is patient-
centered, continually improves, and utilizes team care. This new model 
will improve quality and access, allow VA to reach more Veterans, and 
provide greater service that treats all Veterans' health care needs.

    Question 3. What role, if any, do you believe VA should have in the 
national health care reform debate? What can be transferred from VA's 
experience to a national health care reform bill?
    Response. Our principal role in the national health care reform 
debate will be to advocate on behalf of Veterans and ensure they have 
the best options available for care. As we strive to meet that 
challenge, VA demonstrates the value of integrated care, where all 
clinicians work for the same organization, have access to the same 
data, and have a common mission. VA's electronic health record is also 
an excellent and tangible example of how VA can support improved health 
care in the country through integrated and coordinated care. VA has 
virtually unmatched experience in establishing performance measurements 
and meeting these standards; this experience can help other providers 
develop and improve the quality of care patients receive.

    Question 4. How do you compare VHA health care to health care 
available in the private sector? In what areas do you think VA lags 
behind the private sector, and how would you, if confirmed as Under 
Secretary for Health, implement improvements in those areas?
    Response. VA compares very favorably with the private sector on 
technical measures of the quality of hospital care processes, 
outpatient and preventive care, and risk-adjusted mortality. I also 
believe we are unmatched in the care of complex, chronic illness, 
including mental illness and polytrauma, which are areas that are not 
routinely measured outside of VA. However, we lag behind others in our 
business practices, such as billing, coding, collections, and financial 
management systems. We also have been perceived as less transparent 
than other health care organizations. Secretary Shinseki has emphasized 
the importance of transparency. I agree with the Secretary that we must 
do more to help Veterans make informed decisions. FLITE is one resource 
I believe will help VA and VHA better manage these business processes, 
but it is only one element; we need to align our resources and our 
structures to ensure consistency and uniformity throughout the system.

    Question 5. If confirmed, how would you propose to manage the 
confluence of demand for health care created by those veterans with 
service-connected disabilities and those veterans who are eligible for 
VA health care?
    Response. Providing care to service-connected Veterans is one of 
our highest priorities, but we also want to be the provider of choice 
for all eligible Veterans and manage their care as well. VA is 
expanding access to Priority 8 Veterans in a gradual fashion so that 
more Veterans can receive care from us while ensuring we maintain the 
ability to provide care for service-connected Veterans.

    Question 6. According to VA, there are more than 688 full time 
positions in VISN offices, and another 383 collateral VISN employees. 
That is a total of almost 1000 employees nationwide, or four times the 
number originally estimated when the VISNs were created. What explains 
this growth of these offices? What direct responsibility do you believe 
VISNs should have to enforce VA policy and to ensure the quality of 
care at individual facilities in their VISNs?
    Response. Veterans Integrated Service Networks (VISN) are the basic 
operating units within VHA. The VISN structure encourages innovation 
and has been the basis for many of the significant advances within VHA 
over the last 15 years. The responsibilities of VISNs have grown, which 
has in turn necessitated larger staffs. VISNs are responsible for all 
operational issues within their networks, and this is one area where we 
can reduce variation to improve the consistency of our organizational 
structures, business practices and medical care. For example, while I 
was the Network Director for VISN 23, we moved to a consolidated 
equipment purchasing system for imaging equipment such as CT machines. 
This shift resulted in savings of several million dollars as we were 
able to negotiate high volume contracts with lower prices per units, 
and we saved money on maintenance costs through uniformity throughout 
the VISN.

    Question 7. Do you believe that the Under Secretary for Health has 
adequate authority over the VISNs and overall VHA activities?
    Response. The Under Secretary for Health has adequate authority to 
supervise VISNs and other VHA activities. Network Directors are 
accountable to the Under Secretary, but accountability is a two-way 
street. The Under Secretary must clearly convey expectations and 
provide resources to help the VISN meet the standards set by Central 
Office. As I have said before, if confirmed, a key element of my 
objectives as Under Secretary will consist of reducing variation in our 
organizational structures, business practices and delivery of care. We 
want VISNs to be able to maintain flexibility to experiment and do what 
is needed at the local level, but as a former VISN director, I always 
knew that I needed to inform my supervisors in Central Office about 
issues and seek their approval when necessary.

    Question 8. Are you satisfied with the amount of oversight that VA 
headquarters program managers are able to conduct? In your view, is 
budgetary authority a prerequisite for such oversight?
    Response. The Deputy Under Secretary for Health for Operations and 
Management is responsible for all operational issues and overall 
management of our facilities. Program managers are distinct and are 
responsible for developing policy and working with the Networks to 
conduct oversight in their specialty areas. These offices need to work 
together and in close coordination with program managers to ensure that 
the right services are available and that facilities have the necessary 
resources in funding, staff and training. I believe there is an 
increased need for a significant clinical presence in operations and, 
if confirmed, plan to see this happen. I do not think budgetary 
authority is a prerequisite for oversight.

    Question 9. Currently, VHA's quality management functions are 
separated from its patient safety functions, and both are separated 
from patient care services. What will you do, if confirmed, to ensure 
that these offices work together to monitor the quality of health care 
available throughout VHA's health care system? Please explain exactly 
what responsibilities you believe each of these offices should have for 
ensuring that individual facilities and VISNs provide quality health 
care?
    Response. VHA needs an integrated approach to quality and safety. 
There is overlap between quality, safety, and patient care. We need to 
consider what we can and should do to better align our organizations to 
meet the needs of Veterans. Quality and safety data are necessary to 
supporting operations and our facilities, and if confirmed as Under 
Secretary for Health, I will see that this cooperation is taking place. 
The Office of Quality and Safety should be responsible for assessing 
our programs and gathering data that can be provided to the Office of 
Operations and Management and Patient Care Services to improve how we 
deliver health care. VHA has taken many actions to align quality, 
safety, patient care services and operations, including:

    <bullet> Establishing the Office of Quality and Safety, whose chief 
officer reports directly to the Under Secretary for Health;
    <bullet> Creating the Under Secretary's Coordinating Committee for 
Quality and Safety, which includes VHA Senior Leadership, the Office of 
Quality and Safety, the Office of Patient Care Services, Operations and 
Management, and others to coordinate quality and safety activities 
within VHA; and
    <bullet> Holding a bi-weekly meeting to address quality issues with 
VHA senior leadership, along with the Offices of Quality and Safety, 
Patient Care Services, and Operations and Management.


    Question 10. While VHA has many policies and procedures in place to 
ensure that veterans receive quality care, recent failures at 
individual facilities such as Marion, Illinois, Miami, Florida, and 
Philadelphia, Pennsylvania to follow those policies and procedures 
shows that more needs to be done. What can you do if confirmed to 
ensure that individual facilities follow VA directives? A recent news 
article criticized VA's response to problems identified in the 
Philadelphia VA hospital's prostate brachytherapy program, pointing out 
that VA had not really held anyone accountable for these problems. How 
would you characterize VA's response to that issue, and what actions do 
you plan to take moving forward if you are confirmed?
    Response. Although VA responded to these situations quickly upon 
learning about them, there is more we should do to improve the care we 
provide. VA also needs to do a better job of anticipating and 
identifying facilities that may have issues and resolving them before 
patient safety issues emerge.
    The best way to ensure that facilities follow VA directives is to 
clearly explain our expectations, because without this, we cannot 
maintain accountability within the system. It is important to recognize 
that accountability includes more than just dismissal or reassignment. 
Accountability is a two-way street, and if we haven't provided our 
facilities or our staff with the resources to meet our expectations, it 
would be unfair to punish them for not meeting those standards. 
Accountability includes educating staff and connecting performance with 
ratings and awards to provide the proper incentives for compliance. The 
nature of our response should vary according to several factors, such 
as whether there has been an historical record of noncompliance; what 
impact the person's actions had on patient safety and care; and any 
other circumstances unique to the situation. VHA leadership is 
responsible for providing the right structures to ensure 
accountability.

    Question 11. Please describe how you, if confirmed, would propose 
to use the Inspector General's office, and how you will use the Office 
of the Medical Inspector to ensure accountability and adequate 
oversight of VHA? In general, how do you see the respective roles of IG 
and Medical Inspector?
    Response. In my view, the Office of the Inspector General (OIG) is 
largely independent and responds to concerns raised by the public, the 
Secretary, and Congress. The OIG's findings provide a good basis from 
which we can assess our system and its recommendations often help 
strengthen VHA by identifying areas in need of further attention. This 
benefit is consistent with my idea, if confirmed, to reduce variation 
in the system with regard to our organizational structures, business 
practices and medical care.
    The Office of the Medical Inspector (OMI) reports directly to the 
Under Secretary for Health and helps VHA provide the best possible 
health care to Veterans by assessing the quality of their care and 
recommending corrective actions. The OMI possesses the experience and 
expertise within its staff to investigate on short notice almost any 
patient care concern. The OMI can also assist VHA with system-wide 
assessments of quality of care. If confirmed, I would plan to use the 
OMI to continue performing these functions.

    Question 12. Recently, the reports of a contractor that reviews 
quality of care in VA nursing homes were removed from the public 
domain. Do you believe these reports should be publicly available, and 
why or why not?
    Response. I agree with the Secretary that transparency is an 
important area where VA must move forward. In general, information 
necessary for Veterans to make an informed decision regarding their 
health care should be made public. Some internal quality assurance 
documents, such as peer review assessments, require clinicians to 
honestly and accurately evaluate the work of their colleagues to ensure 
Veterans receive safe, quality care. Sharing such documents with the 
public could be counterproductive, since it may induce providers to 
hold back or otherwise offer more reserved assessments, which would 
ultimately and adversely impact patient care.

    Question 13. I have received complaints from veterans that there 
are delays in getting their wheelchairs, hearing aids, and other 
prosthetic and orthotic aids. If confirmed, how will you ensure that 
veterans receive the assistive devices they need whey they need them?
    Response. Prosthetics are an essential component of patient 
wellness and rehabilitation, and I can assure you that, if confirmed, I 
will provide Veterans the devices they need by offering appropriate 
staff and resources to the Office of Prosthetics and Sensory Aids. More 
than 98 percent of all requests in the month of October were responded 
to within 5 days. VA has developed a new monitor this year to help 
track the true timeliness of procurement and to determine when Veterans 
are not receiving equipment within the time we expect or items are not 
properly documented. We will work to improve this process as we move 
forward.
    Our laboratories are nationally accredited to provide the most 
advanced functional and cosmetic prosthetics. VA has more than 600 
contracts with vendors to provide care closer to home for Veterans, as 
well as 66 VA orthotic and prosthetic labs, all of which are nationally 
accredited. VA provides surgical implants, home respiratory care, 
wheeled mobility, telehealth equipment, home adaptations, vehicle 
adaptation, artificial limbs, through its Prosthetics and Sensory Aids 
Service. If confirmed, I look forward to working with you and the 
Committee to remedy any problems experienced by Veterans or your 
constituents.

    Question 14. Recently, two veterans from my home state of Hawaii 
contacted the Committee because their home health care was terminated 
because they no longer met eligibility criteria. One of these veterans 
was an 85 year old wheelchair-bound veteran with cancer. If confirmed, 
how will you ensure that there are standards and processes in place so 
that veterans in need of home care continue to get such care? What 
process would you put in place so that if a decision is made to 
terminate such care, that efforts made to ensure help with finding 
alternative assistance?
    Response. I am unfamiliar with these specific cases, but in 
general, I think these services should be available to everyone who 
would otherwise need hospitalization or institutional care. If 
confirmed, I would look forward to working with you and your staff to 
resolve the issues mentioned above, as well as other issues that arise. 
The Secretary and I believe VA must be a more Veteran-centered 
organization, and this is an excellent example of an area where we can 
improve to better serve Veterans.

    Question 15. I continue to hear about outside health care providers 
who will no longer see veterans because of delays in receiving payment 
from VA. What will you do, if confirmed, to encourage community 
providers to work with VA to provide services where there are no VA 
facilities?
    Response. VHA needs to look closely at its business practices, and 
if confirmed, I will work to reduce variation in how we process claims 
and our billing procedures to produce greater consistency across the 
system. I will also look into different approaches for providing care 
outside VA. Our first responsibility is always to provide health care 
to Veterans and, if we are unable to offer those services directly, we 
must find a qualified provider who can.

    Question 16. If confirmed, how would you address the fact that 
VHA's performance measures have a bit of a ``one size fits all'' nature 
to them? How would you keep the ``good'' part of encouraging 
appropriate screening while eliminating the ``harm'' side of requiring 
inappropriate screening of people who would be harmed, or at least not 
benefited, by screening? An example would be screening for colon cancer 
in a patient whose life expectancy is less than the time it would take 
to benefit from screening that particular patient? How do you minimize 
the ``harm?''
    Response. That is a good question, and one VA and the health care 
industry need to address. We have adopted a national system of 
evidence-based performance measurement and preventive and screening 
practices because the scientific evidence tells us that, for the vast 
majority of patients, these practices promote health and save lives. 
But for Veterans with complex conditions, trying to attain VA's 
performance measure standards may not be best for the patient. For 
example, a patient with a life expectancy of less than 6 months may not 
benefit from screening for cholesterol levels. We do not want 
measurement standards to interfere with sound clinical judgment or 
physician-patient dialog essential to Veteran-centered care. VA is 
working to refine its measurement approaches and is consulting with the 
National Quality Forum to ensure national performance standards reflect 
patient-level considerations. Research is the best way to improve care 
for patients with multiple, chronic conditions. If confirmed, I will 
advance a new model of health care that uses teams of providers in 
collaborative roles who can discuss the various conditions of each 
patient and determine the best course of action. These interactions can 
reduce concerns about overlapping conflicts or competing standards.

    Question 17. What is your view of VA's initiatives to reduce 
medical errors? In your view, what really works, and what is 
counterproductive?
    Response. VA has a strong system in place to reduce medical errors. 
We have adopted standard operating procedures that support patient 
safety. For example, prior to any surgery, we have a series of steps 
that protects the patient. The surgical site is marked in coordination 
with the patient, the surgical team discusses the operation, and prior 
to beginning, the team takes a time out to verify they will be 
performing the operation correctly. This time out process is also used 
for complex procedures such as cardiac catheterization and endoscopies.
    VA's Bar Code Medication Administration system is another example 
that ensures the right patient receives the right medication, in the 
right dose, in the right manner. VA is a recognized leader in the 
Nation for identifying medical errors and developing ways to correct 
them. Our patient safety data help us to identify system 
vulnerabilities and trends, and to take corrective action before other 
organizations might even notice a problem or concern. VA's reporting 
system for ``close calls'' lets us find vulnerabilities and fix them 
before serious harm occurs.

    Question 18. What are your views on whether VA should fill 
prescriptions written by outside providers that are brought to VA for 
filling by Veterans who are not otherwise receiving any care from VA?
    Response. The safety and care of our Veterans is of primary 
concern. Therefore, if we are providing medications, we should also be 
providing care to ensure Veterans are receiving the correct treatment 
for their conditions. VA has unique expertise in Veteran-specific care 
and we can identify conditions that civilian physicians may miss. We 
also want to have a comprehensive picture of the patient's medical 
history so that we can prevent any drug-drug or drug-allergy 
interactions that could adversely affect the Veteran.

    Question 19. What is your view of the role that VA's labor partners 
play in the overall effort to improve VA health care delivery?
    Response. I think VA's labor partners play a very important role in 
improving VA's overall health care delivery. I am a strong supporter of 
VA's union partnerships, and in my time as Network Director for VISN 
23, I maintained very positive relationships with our union 
representatives.

    Question 20. If confirmed, what would you do to improve VA care in 
rural areas? How would you improve recruitment and retention of high 
quality health care providers in rural areas, increase VA telehealth 
and telemedicine, ensure linkages with community providers, and 
increase the use of mobile vans?
    Response. Providing care in rural areas is a challenge-not just for 
VA, but for the entire country. VHA's Healthcare Retention and 
Recruitment Office has developed a course as part of its Recruiter 
University that addresses rural recruiting and is placing national 
recruiters who conduct targeted recruitment for rural areas. VHA is 
also working to develop additional training and partnerships with state 
offices of rural health.
    We have a number of opportunities to work together with community 
health agencies and to leverage relationships within communities, such 
as Tribal governments. Telehealth and telemedicine are two key 
instruments that bring care to rural Veterans, and VA is rapidly 
expanding these services. If confirmed, I will continue these efforts. 
VA's Office of Rural Health has a budget of $250 million to support 
local and national initiatives through VISNs and program offices, 
including a pilot involving the use of mobile vans. If confirmed, I 
will see that we identify priorities and provide funding through a 
robust and prompt review process. VA will examine the results of this 
pilot prior to making any decisions about further expansion.

    Question 21. What opportunities for improvement do you see in VA's 
research programs?
    Response. VA is very grateful to Congress for providing a strong 
budget for VA's research programs. Some areas of research that I would 
particularly promote include investigations concerning Traumatic Brain 
Injury and Post Traumatic Stress Disorder, as well as Gulf War 
Veterans' Illnesses, Agent Orange exposure, issues affecting women 
Veterans, and genomic medicine. Oversight is an essential component to 
a productive research program. VA is an example of an integrated system 
that incorporates both health care and research; our work in 
maintaining rigorous standards for human subject research sets the bar 
for the Nation.

    Question 22. If confirmed, how would you encourage research that is 
related to veterans' health care needs?
    Response. All research VA supports benefits Veterans and 
contributes to their health care needs. For example, research into 
chronic conditions will benefit a substantial number of VA enrollees. 
We can encourage more research related to Veterans' health care issues 
through partnerships with the Department of Defense, the National 
Institutes of Health, our affiliates, and other organizations. If 
confirmed, I will personally encourage more research by being a strong 
advocate for additional support for VA's research programs.

    Question 23. In past years, there have been cost overruns in both 
prosthetics and long-term care. In light of the recent GAO report 
pointing out a lack of financial controls in VA's Financial Management 
System, what will you do, if confirmed, to prevent similar cost 
overruns in the future?
    Response. If confirmed, one of my primary objectives will be to 
align VHA to support consistent organizational structure, business 
practices, and medical care to realize efficiencies. FLITE can also 
help us more efficiently utilize the resources we have.
    In the areas of prosthetics and long-term care, VA will continue to 
meet the needs of Veterans. The future for long-term care is non-
institutional care that Veterans can receive in their homes or in the 
community. Through aggressive national contracts and clinical practice 
recommendations, VA can add value while saving taxpayer dollars, and 
still provide the most advanced technology available in the market.
    If confirmed, I will review the forecasting models VA uses to 
project demand for prosthetics and long-term care, and I look forward 
to working with Committee to support these important programs.

    Question 24. Recently, Committee staff collected data on six 
randomly selected, very large CBOCs to determine whether they were 
providing all of the mental health services required under VHA's 
Uniform Mental Health Services Handbook. This review found several 
instances in which CBOCs did not supply all mental health services 
required. How will you, if confirmed, ensure that all VA facilities 
provide the required mental health services to the veterans who need 
them?
    Response. VA's Mental Health Services Handbook includes 
requirements for all community-based outpatient clinics (CBOC) to 
provide primary care and mental health care. CBOCs can satisfy this 
requirement in several ways: through VA staffing, contract care, 
visiting providers, in-house contractors, or telehealth. For the 
largest CBOCs, the Handbook required implementation by October 1, 2009 
for VA to provide most mental health services on site. Most of the very 
large CBOCs were delivering most of the required services long before 
then. If confirmed, I will ensure all CBOCs have the appropriate 
resources to meet demand uniformly and with minimal variance to be 
certain Veterans can access the care they need. I would ensure VISN and 
VA medical center directors understand their obligations. If a facility 
is not meeting the necessary standards, we would require it to develop 
plans to come into compliance and regularly check on the implementation 
of those plans.

    Question 25. What is your view regarding the value of Vet Centers? 
What changes to Vet Centers, if any, would you propose, if confirmed?
    Response. Vet Centers are an essential component of the VA system. 
They are an alternate door through which Veterans can access VA health 
care and benefits. Vet Centers have been very successful in building 
relationships with local VA medical centers, Veterans organizations and 
their communities, and if confirmed, I would encourage them to continue 
building these connections. There is great value in not folding Vet 
Centers into the mainstream VA health care system-their status is a 
unique asset to be valued, not diminished. VA has been increasing the 
number of Vet Centers significantly over the last few years (including 
mobile Vet Centers deployed to rural areas), and if confirmed, I will 
evaluate our footprint and determine what other steps may be necessary 
to provide more services to more Veterans. One initiative that we 
recently began that I would like to promote, if confirmed, is greater 
outreach and support for women Veterans. VA has provided $25 million to 
hire and staff counselors specifically for women Veterans at 120 Vet 
Centers, and is expanding services for family members as well when that 
counseling relates to the readjustment needs of the Veteran.

    Question 26. What is your view about allowing Vet Centers to 
partner with outside groups, such as those involved in existing DOD 
programs that offer a proactive approach to giving families the tools 
they need to be healthy?
    Response. Vet Centers have been helping families with the process 
of a Veteran's readjustment for years now, and they maintain strong 
working relationships with providers in their communities to provide 
further support when our statutory limitations prevent us from doing 
more. Dr. Al Batres, the Director of Readjustment Counseling, is 
passionate about finding new methods for reaching and helping Veterans, 
and we will work together to explore further options. If confirmed, I 
look forward to discussing this issue and hearing the Committee's 
thoughts about new approaches Vet Centers can adopt to help Veterans 
and family members. Our Mobile Vet Centers have proven to be a very 
effective resource in reaching out to communities and helping Veterans 
and their family members readjust.

    Question 27. How will you, if confirmed, implement integrated 
health care, merging mental health services and primary care services, 
considering that most veterans enter VA care through primary care?
    Response. Integrating mental health and primary care is a key 
element of integrated care. Within the VA system, 40 percent of our 
primary care patients also have a significant mental health need, 
usually depression. Five years ago, VA began incorporating depression 
treatment into primary care clinics by bringing in specified mental 
health staff. This has been remarkably successful, as it helps Veterans 
receive the care they need without the stigma some see from seeking 
mental health care. I want to ensure every VA medical center's primary 
care clinic can provide similar services. In VISN 23, while I was the 
Network Director, we piloted a project examining the effectiveness of 
integrating mental health and primary care which was found so 
successful that we required every primary care facility in the Network 
to adopt this model.

    Question 28. Are you confident that current VHA authorities and 
procedures allow sufficiently expeditious hiring of medical personnel? 
Please describe any recommendations that you have for changes to the 
current hiring system?
    Response. As the Acting Principal Deputy Under Secretary for 
Health, as a Network Director, and as a Medical Center Director, I have 
first-hand knowledge about the difficulties VA sometimes faces in 
hiring personnel. VHA recognized the need to improve the efficiency of 
many of its processes related to recruitment and staffing and launched 
a recruitment collaborative that resulted in significant reductions in 
the average time it takes to bring an employee on board. However, there 
is still more to do in this area and VHA is continuing the effort into 
2010.
    Assistant Secretary for Human Resources John SepuAE1lveda has a 
number of initiatives underway to improve the hiring process, and if 
confirmed, I look forward to working closely with him to ensure VHA is 
able to improve its processes. I think VHA can reduce the average 
length of time it takes to fill positions, and I would be very 
interested in hearing from the Committee as well as our union 
representatives on what approaches they have considered. The most 
important step we can take is to study, review and re-engineer our 
internal processes to expedite the hiring process. If confirmed, I 
would work with Assistant Secretary SepuAE1lveda on these initiatives.
    The Committee and the Senate recently passed S. 1963, the Caregiver 
and Veterans Omnibus Health Services Act of 2009, which contained a 
number of human resources provisions that will help VA recruit and 
retain clinicians. Most notable is the Secretarial authority to extend 
title 38 status to additional health care occupations. These are 
important tools that will help us recruit highly qualified health care 
professionals.

    Question 29. In my view, Physician Assistants play a vital and 
growing role in the delivery of health care. VA has already indicated 
that they will expand the role of the PA Advisor. What new efforts 
would you undertake if confirmed as Under Secretary for Health to 
ensure full participation of the PA Advisor in health care planning and 
to provide adequate resources for the position?
    Response. I agree with you that Physician Assistants (PA) play a 
vital and growing role in the delivery of health care in VA. VHA 
currently employs approximately 1,900 PAs and is the largest single 
employer of PAs in the country, employing 2.5 percent of all those 
practicing. VA plans to relocate the PA Advisor from a field-based to a 
VA Central Office-based full-time position at the end of the 
incumbent's term in April 2010. If confirmed, I look forward to 
discussing with the new PA Advisor how VA can most effectively utilize 
the position and make the most use of our PAs to provide better care to 
Veterans.

    Question 30. Public Law 109-461, ``The Veterans Benefits, Health 
Care, and Information Technology Act of 2006,'' added Marriage and 
Family Therapists and Licensed Professional Mental Health Counselors to 
the list of health professionals that VA may employ. VHA has said it 
will begin hiring those professionals by September 2010. Is VHA on 
target to meet the deadline?
    Response. VA conducted a study to assess the use of marriage and 
family therapists (MFT) and licensed professional mental health 
counselors (LPC) in providing mental health services to Veterans. Based 
on the results of this study, VA has decided to develop separate hybrid 
title 38 qualification standards for the new occupations. VA has begun 
an extensive job analysis to prepare these qualification standards. 
Once approved, the standards will be subject to the collaboration 
process with VA's national unions. We expect this process will be 
complete by summer 2010. In the meantime, Veterans are continuing to 
receive the mental health care they need and deserve. VA is meeting the 
access standard for a full evaluation and initial treatment within 15 
days 96 percent of the time.
    There are currently 245 health care employees with an advanced 
degree in marriage and family therapy and 86 with a background as an 
LPC. VA will continue to hire individuals with these credentials to 
meet the health care needs of Veterans while we work through the 
process of establishing qualification standards for MFTs and LPCs. I 
would also note, as mentioned earlier, that Vet Centers are able to 
provide counseling to the families of Veterans as long as it relates to 
the readjustment of the Veteran.

    Question 31. Marriage and Family Therapists and Licensed Mental 
Health Counselors have similar or comparable qualifications with social 
workers who have been eligible to work with VA for years. If confirmed, 
how will you utilize these health professionals?
    Response. I think there are opportunities for further expansion of 
VA experts with these qualifications providing marriage and family 
therapy already. If confirmed, I look forward to input and 
recommendations from Veterans, union representatives, and VA leaders on 
how VA could best use these health care professionals. Of course, I 
would welcome the Committee's recommendations on this issue as well.

    Question 32. Do you see a value to establishing a position of Chief 
Psychologist at VHA headquarters to ensure that psychologists are 
involved in rehabilitation, long-term care, and primary care?
    Response. My wife is a psychologist, so I can assure you that I am 
quite aware of the abilities of psychologists and the important role 
they play in the delivery of mental health care. The Deputy Chief 
Consultant for Mental Health, Dr. Antonette Zeiss, is a psychologist 
and brings this perspective to the Office's discussions and policy. 
Psychologists are well-represented throughout VHA and VA Central 
Office, and VA is the largest employer and trainer of psychologists in 
the country. The new model for health care will involve team care that 
brings together experts in different fields, and psychologists will 
perform an important function in this delivery model. If confirmed, I 
look forward to examining the role psychologists can fill in developing 
policy in VA.

    Question 33. Much has been promised in recent years about ensuring 
that there is a smooth transition between DOD and VA for separating 
servicemembers. What is the state of progress in this area, and what 
more needs to be done?
    Response. In the past few years, VA and DOD have made tremendous 
progress in collaborating to ease the transition of servicemembers. We 
have several different organizations nationally that support this 
cooperation, such as the Senior Oversight Committee, the Joint 
Executive Council, and the Health Executive Council. More needs to be 
done. Part of the long-term solution to the issue of a smooth 
transition is the Virtual Lifetime Electronic Record (VLER). VLER 
supports a Veteran-centered approach to health benefits and provides 
uniform, comprehensive services and consistent access to information 
for Veterans and providers. VLER will streamline the use of data and 
reduce the burden for beneficiaries to provide information, improve 
quality and support more effective and efficient delivery of care and 
benefits, and reduce costs by decreasing errors and duplicate tests. 
VLER will begin with a production pilot in San Diego that will be 
achieved in January and will include additional pilots by the end of FY 
2010.
    In the short- to medium-term, VA should continue its efforts to 
transitioning Veterans returning from service in Iraq or Afghanistan. 
In 2008, VA expanded and enhanced outreach services to Operation 
Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) servicemembers and 
Veterans with hands-on briefings, health care enrollment and personal 
interaction at:

    <bullet> Demobilization briefings at 61 sites;
    <bullet> Yellow Ribbon Reintegration Program events at 30-60-90 day 
Post-Demobilization events;
    <bullet> Post-Deployment Health Reassessments (PDHRA), including 
those conducted at VAMCs;
    <bullet> Combat Veteran Call Center to contact all separating OEF/
OIF Veterans;
    <bullet> National Guard and VA partnership between Transition 
Assistance Advisors and state coalitions;
    <bullet> Individual Ready Reserve Musters at community locations or 
VAMCs; and
    <bullet> OEF/OIF Web site.

    Our outreach efforts have provided Veterans with knowledge and 
access to VA services and benefits; of the 1,070,000 who have separated 
from active duty since 2002, 46 percent have used VA. VA established 
OEF/OIF Care Management teams in each VISN and has placed an OEF/OIF 
program manager, Transition Patient Advocate, and case managers at 
every Medical Center to identify OEF/OIF Veterans, coordinate the 
delivery of care and services for them, and provide case management. 
For wounded, ill and injured Veterans, VA has stationed 31 liaisons at 
17 Military Treatment Facilities to facilitate the transfer of care to 
VA health care facilities. Together with DOD and VBA, VHA has actively 
participated in the Disability Evaluation System (DES). This program 
provides streamlined disability exams for wounded, ill and injured 
servicemembers. Jointly, we are expanding this initiative to cover 
additional DOD sites. We are expanding our call center activities to 
include a specific focus on women Veterans and developing strategies to 
identify OEF/OIF Veterans at high risk for homelessness.

    Question 34. How do you propose, if confirmed, to really create 
movement between DOD and VHA in information sharing?
    Response. VLER is part of the long-term solution for information 
sharing. VA must maintain a strong working relationship with DOD, and 
based on my experience in Minneapolis, I know firsthand how beneficial 
complete access to information can be. At the Minneapolis Polytrauma 
Rehabilitation Center (PRC) clinicians receive significantly more 
information now than they did 5 years ago, including images and data 
from the combat theater. By placing liaisons in each other's 
facilities, VA and DOD are supporting patient transfers with teams of 
case managers and a warm handoff. The Federal Recovery Coordination 
Program has done tremendous work with the most severely injured and ill 
servicemembers and Veterans.
    VA currently has several modalities that help with information 
sharing. First, the Federal Health Information Exchange (FHIE) supports 
the monthly, one-time transfer of viewable historical electronic health 
information from DOD to VA upon a servicemember's separation or 
retirement. DOD has transferred electronic health data on more than 5 
million retired or discharged servicemembers.
    Second, the Bidirectional Health Information Exchange (BHIE) 
enables real-time sharing of viewable electronic health information 
between VA and DOD for shared patients. BHIE supports care for more 
than 3 million shared VA/DOD patients. BHIE and FHIE are viewable by VA 
clinicians treating patients or VBA claims staff adjudicating 
disability claims.
    Third, the Clinical Health Data Repository (CHDR) is an interface 
between DOD's Clinical Data Repository and VA's Health Data Repository 
that supports the exchange and storage of computable allergy and 
pharmacy information for active dual consumers of VA and DOD health 
care. CHDR computable data supports drug-drug and drug-allergy 
interaction checks.
    In September 2009, VA and DOD successfully implemented improvements 
to existing systems to support full interoperability of health data as 
mandated by the 2008 NDAA and defined by the Interagency Clinical 
Informatics Board. Most recently, on November 25, 2009, VA announced a 
partnership with Kaiser Permanente to launch a pilot program that will 
exchange electronic health record information using the Nationwide 
Health Information Network.

    Question 35. Access to health care, especially mental health care, 
continues to be an issue for National Guard and Reserve members. If 
confirmed, how will you work to ensure that members of the Guard and 
Reserve get the VA health care for which they are eligible?
    Response. In Minnesota, the Beyond the Yellow Ribbon Program has 
proven highly successful in reaching members of the National Guard; VA 
has been able to contact almost 90 percent of Guard members and we have 
seen enrollment rates as high as 76 percent at some events. As Network 
Director in VISN 23, we involved VHA and VBA personnel at these and 
other events to let recently separated Veterans and their families know 
about the array of benefits they have earned in service to their 
country. VA also works closely with State Departments of Veterans 
Affairs. I would like to see elements of this approach adopted 
nationally, and if confirmed, I look forward to discussing this issue 
with you to learn what approaches you think VA could adopt to provide 
even better support for Veterans.
    Enrolling and working with members of the Reserve Component is more 
difficult because they are often scattered throughout the state. VA can 
and must visit demobilization sites to reach these members while they 
are still gathered in one place. Additionally, VA has an assortment of 
other national outreach efforts, including the Yellow Ribbon 
Reintegration Program, the Post-Deployment Health Reassessments, the 
Combat Veteran Call Center Initiative, National Guard and VA 
partnerships, Individual Ready Reserve Musters, and VA's OEF/OIF Web 
site. VA presently has staff at all 61 demobilization sites for the 
Reserve Components and has reached out to over 73,000 members while 
offering them opportunities to enroll into VA health care. VA also 
reaches this group of Veterans and their families through social media 
(including YouTube, Facebook, Twitter, and blogs) as well as our 
internet presence. VA continues to use face-to-face encounters and 
personal calls to returning servicemembers to coordinate appointments 
for their health care needs.

    Question 36. Recently, the Committee held hearings on contract 
health care in VA. During that hearing, it was noted that VA has over 
2,000 different contracts for health care. If confirmed, how will you 
ensure that VA oversees the quality of care provided by contract 
providers?
    Response. Contract care is a potential vulnerability within our 
system. The variation of requirements and standards is one area that 
will receive my close attention if I am confirmed as Under Secretary 
for Health. VA should standardize organizations and business practices 
to ensure quality controls are maintained with any care provided 
outside of a VA facility or by a contractor within a VA hospital. This 
means including requirements that contractors meet VA quality assurance 
measures and defining mechanisms for auditing the care provided to 
ensure it meets or exceeds our standards, among other conditions.

    Question 37. Recently, S. 1963, the proposed Caregiver and Veterans 
Omnibus Health Services Act of 2009 passed the Senate unanimously. What 
are your personal views on the role VA should have in assisting 
caregivers with their critical role? If confirmed, what steps would you 
take to ensure timely implementation of the bill, once it becomes law?
    Response. If confirmed, I plan to implement all legislation as 
quickly as possible. The Senate voted to approve S. 1963, which 
contains a number of provisions for caregivers. VA has been working 
diligently with your staff, the House, and the Office of Management and 
Budget to develop a position on a comprehensive system of increased 
benefits and support for caregivers. VA currently has a full-time 
national Caregiver Support Program which is developing a system-wide 
approach to caregiver assistance in consultation with its established 
Caregiver Advisory Board. All VA medical centers have an appointed 
Caregiver Support Point of Contact to facilitate local activities and 
identify best practices. Additionally, VA concluded eight caregiver 
assistance pilot programs in August 2009. These identified best 
practices for providing caregiver training and education and support 
services, including a range of options for respite care. VA is 
developing national recommendations based on this work that will create 
a solid foundation for the national Caregiver Support Program.

    Question 38. VA has long played a significant role in training 
future health care providers through its affiliation with academic 
centers. What is your sense of the overall state of VA affiliations?
    Response. The overall state of VA affiliations is strong, but there 
is always room for improvement. The Secretary recently accepted the 
report of a distinguished panel, the Blue Ribbon Panel on VA-Medical 
School Affiliations, which provided 44 specific recommendations to 
further enhance this important partnership. VHA is developing an 
implementation plan that will provide a template for taking action on 
these recommendations and is expected to provide a report to Congress 
on progress in the near future. Medical affiliations with the Nation's 
health professional schools enhances the quality of care VA provides, 
as students are apt to ask questions about why care is provided in the 
manner it is; these teaching opportunities benefit Veterans, 
clinicians, and affiliates.
    Twenty-seven percent of VA's clinical staff trained in a VA medical 
center prior to their employment, including nearly 60 percent of our 
physicians and 70 percent of our optometrists and psychologists. 
Currently, 89 percent of VA trainees would recommend their training to 
others, and 86 percent feel that their training in VA is equivalent or 
better than comparable training at other sites. Nearly two-thirds of VA 
trainees consider employment with VA after their training rotations 
end. VA is a national resource for health professions education, 
training over 100,000 students in more than 40 disciplines annually. VA 
is the only Federal agency presently addressing the national shortage 
of physicians by expanding its support for graduate medical education 
(GME). In October, VA awarded 254 new GME positions, bringing the total 
of new positions awarded as part of the GME Enhancement Initiative to 
over 1,200 of the 2,000 initially approved for distribution. 
Approximately 80 percent of these new positions have gone to areas of 
the country with the largest increase in Veterans. VA also established 
five new partnerships for the VA Nursing Academy in April, for a total 
of 15.

    Question 39. If confirmed, how will you strengthen those 
affiliations, to ensure more training opportunities in areas such as 
telemedicine, nursing, and physical or occupational therapy?
    Response. Affiliations are a critical component of VA care. VA is 
developing a new model of care that is patient-centered, continuously 
improving, and utilizing a team approach to health care. VA is working 
with its academic partners to take the lead in creating patient-
centered, team-based and inter-professional educational programs. VA is 
currently the largest provider of telemedicine in the country, and has 
significant opportunities for training in this area. VA is expanding 
training programs in areas of specific Veteran health care needs, such 
as mental health, rehabilitation, Traumatic Brain Injury and rural 
health. Nursing is another area where VA is helping address the 
national shortage of health care providers through the VA Nursing 
Academy.

    Question 40. What is your view of the VA nursing academy and the 
resulting partnerships?
    Response. The VA Nursing Academy is a concept I fully endorse. 
Nurses are the backbone of the VA system, and our care is only as good 
as the people who provide it. VA launched the VA Nursing Academy to 
address the nationwide shortage of nurses. The purpose of the Academy 
is to expand the number of faculty in our affiliated nursing schools, 
increase nursing student enrollment, increase the number of students 
who come to VA for clinical training, and promote innovations in 
nursing education and clinical practice. Four partnerships were 
established for the 2007-2008 school year. Six additional partnerships 
were selected in 2008. Earlier this year, VA announced five new 
partnerships in Asheville, NC; Birmingham, AL; Honolulu, HI; New York, 
NY; and Pittsburgh, PA.

    Question 41. Traumatic Brain Injury has been described as one of 
the signature wounds of the Iraq and Afghanistan war. What is your view 
of the overall VA capacity to treat TBIs? What is your sense of how VA 
is working with community TBI programs to ensure appropriate referrals? 
What is your view about VA's ability to fully address the blindness, 
hearing loss, and tinnitus that often accompany TBI?
    Response. VA has an excellent system for Traumatic Brain Injury 
(TBI) and polytrauma care. VISN 23 is home to the Minneapolis PRC, so I 
have seen firsthand how much this system can save and improve the lives 
of Veterans and their families. For almost 20 years, VA has had centers 
with developed expertise in military service related brain injuries 
unmatched in the civilian community. The VISN works closely with 
community providers as a complement to VA's care if VA facilities are 
geographically inaccessible or VA is otherwise unable to provide the 
needed treatment. As Network Director, I approved several such requests 
for care outside the VA, despite the greater cost, because this was 
what the Veteran needed. VA routinely establishes cooperative 
agreements with private sector facilities to provide specialized TBI 
neurobehavioral care and services to Veterans. VA has integrated teams 
of clinicians, including experts in sensory loss (audiologists, 
ophthalmologists, optometrists, Blind Rehabilitation Specialists, etc.) 
who are available to help Veterans with TBI and polytrauma to address 
other symptoms such as blindness, hearing loss, or tinnitus.
    With regard to blindness and low vision, VA has an exceptional 
program that provides care and support in locations across the country 
on both an inpatient and outpatient basis. The Polytrauma System of 
Care provides specialized medical rehabilitation, coordinates support 
efforts, and provides information for patients and family members 
across the country. VA currently has 108 specialized TBI rehabilitation 
locations across the country. Our PRCs have telecommunications 
equipment where they can conduct video-conferences with other 
facilities if these locations need additional expertise or consultative 
support. VA is also establishing Assistive Technology Laboratories at 
the PRCs to provide the most advanced technology to Veterans and 
servicemembers. Finally, VA has a comprehensive TBI Screening and 
Evaluation program to assess all OEF/OIF Veterans entering the VA 
system. Since April 2007, any OEF/OIF Veteran seen by a VA health care 
provider is screened for possible TBI. To date, VA has screened over 
354,000 OEF/OIF Veterans for mild TBI, and approximately seven percent 
(24,559) have received a confirmed diagnosis of mild TBI.

    Question 42. What progress has VA made in getting the Vision 
Centers of Excellence up and running? What remains to be done?
    Response. Over 182,000 diagnoses of ocular injury were made among 
active duty servicemembers between 1998 and 2007. The rate of injury 
rose after 2000 due to increased exposure to blast injuries. VA 
understands the importance of providing the best care possible to 
Veterans with these injuries, and the Vision Center of Excellence is an 
important resource for these Veterans and their providers. In 
October 2009, VA and DOD signed a Memorandum of Understanding to 
support the new Vision Center of Excellence (VCoE). Both the Director 
and Deputy Director have been appointed. Three of six VA hiring actions 
have been completed, and VA has committed $6.9 million to support staff 
development and educational programs through FY 2013. VCoE is 
cosponsoring a conference for providers in December 2009 on TBI-related 
visual and auditory impairment, and is planning a conference on 
artificial vision and retinal prostheses for late FY 2010. The data 
fields for the Eye Injury Registry were defined earlier this year, and 
while it is being developed, VA data needed to populate the Registry 
will be accrued and stored in a VA database by the second quarter of FY 
2010. VA anticipates it will complete recruiting for support staff by 
the end of the second quarter of FY 2010.

    Question 43. In 2003, VA and the Indian Health Service entered into 
a Memorandum of Understanding to improve care for Native American 
veterans. More than six years later, progress remains limited. What 
would you do if confirmed as Under Secretary to improve this 
coordination?
    Response. As Network Director for VISN 23, I have a great deal of 
experience in working closely with IHS and other organizations to 
provide care and outreach to Native American Veterans. VISN 23 has 27 
Native American reservations, and has developed programs on many 
reservations to help Veterans. We worked with Tribal communities to 
develop CBOCs, Post Traumatic Stress Disorder (PTSD) treatment, and 
telehealth support sites, and developed a compensated work therapy 
program in South Dakota. This is an underserved population and we have 
to do more to reach them. In my experience, 50 percent of the adult 
male Native American population in South Dakota was Veterans, and VA 
supports both national and local efforts to create a better support 
system for them. A key component of this effort is culturally 
appropriate training. One example of this type of training we used in 
VISN 23 was a weeklong retreat for VA employees working with the Lakota 
Tribe that proved very effective in terms of building relationships and 
supporting care.

    Question 44. With the increasing number of women veterans, how do 
you intend, if confirmed, to ensure that their gender specific needs 
are met and that VAMCs are accessible to them, including women veterans 
with catastrophic disabilities like spinal cord injury?
    Response. Women Veterans are increasingly enrolling in the 
military, and in VA. They are also using our services at greater and 
greater levels. VA must find ways to meet their needs through improved 
services, access, and privacy. VA is upgrading our facilities and CBOCs 
to ensure they are focused on safety, dignity and sensitivity to 
deliver comprehensive primary care for women that includes gender 
specific needs. Where feasible, VA is developing comprehensive and 
integrated women's health care on all our campuses to provide one 
location for women's care-primary, gynecological, mental health and all 
necessary services. Gender specific cases like breast cancer are 
relatively few in VHA, but they are no less important than outside VA. 
The Office of Patient Care Services and the Women's Health Strategic 
Healthcare Group are developing a methodology to track all women with 
breast cancer to ensure they receive an appropriate diagnosis, 
treatment and follow up.
    As the Secretary has said, this is an area where VA is playing 
catch-up, and if confirmed, I will make it a priority as Under 
Secretary for Health. VHA facilities just completed implementation 
plans for the delivery of comprehensive primary care for the next five 
years. These plans include the resource and staffing needs to fully 
address the increasing demands for care delivery for women Veterans 
through a patient-centered medical home approach.

    Question 45. Providing outreach and education to women veterans are 
crucial tasks as VA transitions into a 21st Century health care system. 
If confirmed, how would you collaborate with the Center for Women 
Veterans to accomplish these tasks?
    Response. VHA's Offices of Patient Care Services and Operations and 
Management are working closely with VHA's Women Veterans Health 
Strategic Healthcare Group to identify the needs of women Veterans and 
institute policy changes to provide greater privacy and dignity for 
women Veterans. This work group also works closely with the Center for 
Women Veterans to conduct outreach and develop new policies and 
proposals, and VHA has an advisor on the Department's Advisory 
Committee on Women Veterans. This means creating an environment in 
which women Veterans can feel comfortable enough to seek care. And it 
means responding to the actual needs of women Veterans.
    One area I have always wanted to see VHA do better in is 
encouraging direct input from Veterans. If confirmed, I will see that 
this happens. VHA should conduct focus groups with different 
populations to find out what care and services they want and how they 
want it. That includes sitting down with women Veterans and hearing 
from them about how VA can meet and exceed their expectations for care. 
Close collaboration with the Center for Women Veterans can make this a 
successful venture. Conducting outreach to women Veterans through the 
existing Combat Call center infrastructure will also be helpful.

    Question 46. What do you see as VHA's role in the campaign to end 
homelessness among veterans within five years?
    Response. VHA has a major role in the President's and the 
Secretary's campaign to end homelessness. The vast majority of our 
budget to combat homelessness, approximately 80 percent, comes from VHA 
which finances the grant and per diem program, the domiciliary 
programs, and we conduct outreach to homeless Veterans or those at-risk 
for homelessness. The recent and ongoing expansion of the Department of 
Housing and Urban Development-VA Supported Housing (HUD-VASH) program 
helps VA offer permanent housing to Veterans and family members when 
they need it. Many of the factors that contribute to homelessness are 
health issues, such as mental health disorders, substance use 
disorders, and the like. Consequently, to end homelessness, VHA must 
provide Veterans the health care they need to treat the underlying 
conditions.

    Question 47. If confirmed, how will you work with the Under 
Secretary for Benefits to resolve information sharing issues so as to 
attempt to ensure that veterans receive all of the benefits, both 
monetary and health related, for which they are eligible?
    Response. VHA and the Veterans Benefits Administration (VBA) play 
important, complementary roles in supporting Veterans. While many 
processes and objectives are distinct, there are important areas of 
overlap. For example, many of the examinations VBA needs completed to 
make assessments concerning compensation and pension are done by VHA 
providers. VHA also supports rehabilitation and compensated work 
therapy programs, which complement VBA's vocational rehabilitation and 
employment programs. I think VHA and VBA must work closely together, 
because to Veterans, there is no distinction-there is just one VA. 
While I was the Network Director of VISN 23, we regularly had our 
medical center directors meet with VBA regional directors to share 
information and identify new ways to collaborate. I think this kind of 
cooperation at the local and national levels will strengthen the bonds 
between the two administrations and within VA, ultimately resulting in 
better care and services for Veterans.

    Question 48. If confirmed, how would the division of labor work 
between the USH's office and the Chief Information Officer's office on 
health technology matters?
    Response. The new Assistant Secretary for Information and 
Technology (OI&T), Roger Baker, has done an excellent job in improving 
cooperation and coordination between OI&T and VHA. The Under Secretary 
for Health and the Chief Information Officer should work together 
closely to identify priorities and fund these projects as well. VA has 
made significant progress in defining the areas where OI&T will have 
the lead and where VHA's Office of Health Information will have the 
lead. This includes distinguishing between information technology and 
medical equipment, where VHA will set policy and priorities. This has 
been particularly helpful with regard to expanding telehealth.

    Question 49. In your view, what additional applications of VHA's 
Information Technology capability are crucial? If confirmed, how will 
you work with the CIO to ensure the development and implementation of 
new applications?
    Response. It is clear that health information technology will 
become even more critical to effective health care in the future. As 
the Veteran population continues to embrace technology as a primary 
means of communication, we must adopt similar technologies to 
effectively reach and care for them. Veterans are increasingly using 
their personal health record, My HealtheVet, to manage their health 
care and interact with VA. Secure messaging is being piloted in 
locations across the country to facilitate better communication between 
Veterans and their providers.
    Under the leadership of Assistant Secretary Baker, VA can provide 
the efficiencies and returns on investment that Veterans, Congress and 
the public expects. VHA meets regularly with Mr. Baker to identify 
opportunities for partnership.

    Question 50. What is your view about allowing State Veterans Homes 
to draw upon the same revenue sources as Community Nursing Homes are 
able to draw upon for the care of highly service-connected Veterans?
    Response. State Veterans Homes are an invaluable asset, and VA 
complies with existing law with regard to payment for care for highly 
service-connected Veterans. VA is continuing discussions with the 
Committee and if confirmed, I look forward to hearing your thoughts on 
this subject.

    Question 51. Do you believe that the Health Care Center Facility 
Leasing Program is a viable alternative to major construction? When are 
such leases appropriate?
    Response. Health Care Center leasing can be a viable alternative to 
major construction, but this has to be a site-specific determination. 
There is a threshold below which it may not make sense to build a new 
facility, particularly given the delay that would result from the major 
construction process. Providing medical care space through leasing, 
rather than construction, results in quicker occupancy of state-of-the-
art, right-sized buildings. Leasing also provides flexibility for an 
exit strategy if required based upon changing Veteran demographics. VA 
can also mitigate space and infrastructure deficiencies, providing a 
consolidated, Veteran-centric, modern, safe health care environment. 
The major lease process is a two-step process where VA competitively 
preselects a site, determines the conceptual design for the new 
facility, and then competitively procures a developer who will purchase 
the site, build the facility, and lease it to VA. This process normally 
takes 16 to 18 months. Smaller facilities may be procured in a shorter 
timeframe using a one-step process where the site and developer are 
selected simultaneously. Once a contract is awarded, a new leased 
facility is ready for activation following an average construction 
period of two years. VA procures leases for 20 years, the maximum term 
allowed by General Services Administration (GSA) regulations.
                                 ______
                                 
  Response to Prehearing Questions Submitted by Hon. Richard Burr to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Daniel K. Akaka to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Question 1. In your responses to my prehearing questions, you 
indicated a desire to reduce variation throughout the VA health care 
system, while still allowing the networks to experiment with new 
approaches. Please explain what your specific plans are in this area.
    Response. There are many areas where we need to reduce variation 
and many methods we can use to accomplish this end, so I will outline a 
few I think we can adopt to improve the quality of care and services we 
provide. First, we need to reduce variation in the methodology we use 
to distribute resources from the network level to the facility level. 
We also need to reduce variation within our networks through 
consolidated services, such as biomedical engineering, the business 
office, and laboratory and imaging equipment. One example of a 
consolidated approach the Department of Veterans Affairs (VA) has 
recently adopted is with regard to endoscopes. By moving to a national 
contract with three vendors, we can both more effectively use resources 
and enhance the quality of care by simplifying the processing and re-
processing of this type of medical equipment.
    We also need to look at standardizing the organization and 
structure of our networks. The fee care program is another area where 
we can reduce variation. VA must continue standardizing clinical care 
around evidence-based practices. We can do this by promoting clinical 
practice guidelines. During the beginning of his tenure, Secretary 
Shinseki asked for a briefing from each Veterans Integrated Service 
Network (VISN), and we can use the lessons learned from these 
discussions to identify further opportunities to further reduce 
variation across the system.

    Question 2. As a network director, how did you respond to the 
``management'' of your network by Central Office? For example, on one 
of your evaluations, you were encouraged to do better with regard to 
providing fee basis care within 30 days. As the Under Secretary for 
Health, how will you modify management approaches, stemming from your 
own experiences?
    Response. As Network Director, I responded to requests from Central 
Office to improve our processes by focusing on areas identified as 
needing improvement. For example, when Central Office informed me that 
we should be doing better with regard to providing fee basis care, we 
provided additional resources and attention and are now one of the best 
in the country in terms of processing fee basis requests. If confirmed 
as Under Secretary for Health, I will first clearly define where we are 
and where we are going as a health care system. This vision is 
essential to any further progress. Second, I would clearly explain to 
our Network Directors our expectations. Third, I would provide our 
leadership and facilities across the country with the resources and 
training necessary to meet those expectations. Finally, I would ensure 
the system monitors, measures, and maintains those expectations to 
verify they are being met. If they are not, we will hold our leadership 
accountable. This may mean providing greater education or training, 
connecting compliance with performance awards, or disciplinary action, 
if justified by the circumstances.

    Question 3. VA health care has been criticized lately for not being 
the ``best.'' My goal is to ensure that VA care of all kinds, but 
especially care for war traumas, should be the best. How do you answer 
those who wish to contract out more of VA care?
    Response. If we are going to be the health care provider the 
American people look to in terms of fulfilling our promise to America's 
Veterans, we must be a system that develops and uses expertise in 
Veteran-specific health care conditions to ensure Veterans receive the 
best care possible. Veterans deserve no less, and I believe that 
contracting out care would reduce this specialized knowledge and 
ultimately result in worse health care for Veterans. We must maintain 
competencies in these Veteran-specific areas (such as Post Traumatic 
Stress Disorder and Traumatic Brain Injury) while also continuing 
competencies for general health care needs that Veterans will have. VA 
providers have specific knowledge and a sensitivity to conditions or 
cultural attributes specific to the Veteran population, and these 
represent a unique benefit of the VA system. Our comprehensive and 
integrated health care system also offers unmatched quality and care 
for Veterans. With that being said, there are times when VA will need 
to contract for care or use our fee-basis authority, and in these 
circumstances, it is our responsibility to ensure these community 
providers are offering the quality care our Veterans deserve.

    Question 4. Walter Reed is providing the most sophisticated 
artificial limbs and the Center for the Intrepid at the Brooke Army 
Medical Center is the premier rehabilitation facility for war injuries. 
How do you plan to bring VA prosthetics care up to par with these 
facilities?
    Response. I believe we do an excellent job with the operational 
aspects of providing Veterans with the prosthetic services they need. I 
understand your point about providing the latest technologies to 
Veterans, and if confirmed, I will ensure VA continues to provide 
state-of-the-art technology to our Veterans. VA is establishing an 
amputation system of care, which will include a tele-amputation system 
of care, to make available expert advice on post-amputation care widely 
available. This system will also include a link to Walter Reed Army 
Medical Center to access their expertise, when appropriate.

    Question 5. There are many VA research facilities that are in dire 
need of updating and renovation in order to accommodate cutting edge 
research. The Committee hears frequently about leaking roofs and pipes, 
inadequate ventilation, and even unsafe buildings. We have not yet seen 
a plan from VA to address this need. What is your plan for bringing 
VA's research facilities into the 21st century?
    Response. VA needs a consolidated plan to address the capital needs 
of our research facilities. Research has long been the ``crown jewel'' 
of the VA system, but to maintain this program will require long-term 
investment. If confirmed, I will work as Under Secretary for Health to 
provide our research program the funds they need to conduct minor 
construction or other repairs to support these efforts. The Office of 
Research and Development has conducted a comprehensive analysis on 53 
VA research facilities, and we will analyze 20 additional facilities by 
November 2010. In response to the issues we identified in these 
surveys, VA allocated over $41 million in FY 2009 toward upgrading our 
research facilities. We anticipate a similar level of construction for 
FY 2010, in addition to an anticipated expenditure of more than $23 
million in non-recurring maintenance funds to support improvements in 
20 research facilities, including clinics and laboratories in: Boston, 
MA; Providence, RI; Canandaigua, NY; Durham, NC; Columbia, SC; 
Lexington, KY; Cincinnati, OH; Ann Arbor, MI; Indianapolis, IN; 
Milwaukee, WI; Houston, TX; San Antonio, TX; Salt Lake City, UT; 
Portland, OR; Seattle, WA: San Diego, CA: and West Los Angeles, CA. I 
recognize the critical role VA's research opportunities can fill in 
recruiting and retaining highly qualified physicians, and I will work 
to improve this program.

    Question 6. The challenges of reaching veterans in rural America 
are well documented. How will you, if confirmed, effectively conduct 
outreach to these veterans, especially when VA points of care are so 
far removed from their communities?
    Response. I think that if we are going to meet the needs of rural 
Veterans, we must support and advance four key areas. First, community-
based outpatient clinics (CBOC) and Vet Centers have been an important 
resource over the past decade in bringing care closer to home for many 
Veterans. VA currently operates 783 CBOCs and 233 Vet Centers and by 
the end of fiscal year (FY) 2010, we will operate more than 850 CBOCs, 
while by the end of the second quarter of FY 2010, we will have 
activated an additional 39 Vet Centers. We similarly operate 40 
outreach clinics in rural and highly rural areas. We will continue to 
assess the needs of other locations and develop resources accordingly. 
Second, we must support telehealth and telemedicine programs that 
facilitate the delivery of health care in the Veteran's home or the 
Veteran's community. We have been expanding these programs, and I will 
ensure continued robust support if confirmed. Telehealth-based care to 
rural Veterans increased by over 20 percent in FY 2009, with more than 
116,000 Veterans receiving such care. VA is establishing a National 
Telemental Health Center to coordinate delivery of specialist mental 
health advice with an emphasis on rural locations, and has developed a 
Clinical Enterprise Video-Conferencing Network that greatly enhances 
the ability to deliver this care. Third, home-based primary care (HBPC) 
is another model of care VA can use to meet the needs of rural 
Veterans. Many of our VA medical centers (VAMC) offer HBPC, and we are 
expanding this program to rural and highly rural areas by supporting 
these teams at our larger CBOCs. This year, we have identified 39 new 
sites for HBPC care in rural and highly rural areas alone. Finally, 
there will be times when VA will need to contract for care or use its 
fee-basis program. When this is necessary, it is important that we 
reduce the variation across our system in how we make these 
arrangements and process payment so that these valuable partners will 
remain a resource for Veterans. Congress has generously provided the 
Office of Rural Health with resources to enhance these four approaches 
and others, and I look forward to the potential some of these programs 
have for greater use.

    Question 7. From your own experience in Network 23, what 
specifically did you learn about the best ways to reach rural veterans?
    Response. In VISN 23, a network home to many rural areas, we found 
the four approaches described in my previous response to be very 
effective. Rural areas are not all the same, though, and a ``one size 
fits all'' approach is unrealistic.

    Question 8. The problems at the Marion, Illinois VA are well 
documented and speak to tremendous failures in quality management. The 
Majority Whip here in the Senate wished to relay his concerns to you on 
Marion, and to ask about your plans to provide a robust quality 
management program at all levels and in every facility involved in VA 
health care. Please share your plans.
    Response. I am committed to ensuring that the Quality Management 
System throughout VA optimizes health care processes and outcomes 
through an organized, systematic approach to planning, delivering, 
measuring, and improving health care. Lessons from health care and 
other industries, as well as my personal experience, highlight the 
critical role of leaders throughout the organization, and particularly 
senior leadership, in ensuring that health care is safe, effective, 
patient-centered, timely, efficient, and equitable. The role of leaders 
must therefore be reflected in accountability structures; the flow of 
quality management data within and outside the organization; and 
identification, prioritization, and coordination of improvement 
activities.
    If confirmed, I will ensure that clear expectations and the 
resources to meet those expectations are provided to our Networks and 
facilities. One important element of a strong quality management 
program is inculcating a culture among both leadership and staff that 
embraces the value of quality programs. We will achieve this culture by 
providing clear messages reinforced by appropriate education and 
training; by connecting quality management programs to our performance 
assessments; by ensuring we have the correct personnel in place at our 
facilities; and finally, through the appropriate use of policy, 
guidance and oversight. For example, we are currently using our 
available recruitment and retention incentives to attract highly 
qualified providers and executives to locations like Marion. 
Furthermore, we are initiating steps to improve our peer review process 
by bringing outside experts to review episodes of care provided at our 
facilities. VA recently issued revised guidance for quality management, 
peer review, and the credentialing and privileging of physicians, and 
we will undertake a series of educational events directed at facility 
leaders in 2010. Finally, as part of the Secretary's overarching vision 
for transformation, we are working to provide Veterans, their families, 
and the American public with comparative information about VA hospital 
performance, including data about mortality, readmissions, and health 
care-associated complications.

    Question 9. During the nomination hearing you stated that you 
believe it is possible that we end homelessness among veterans in the 
next five years by addressing the present homeless population and by 
providing services to those who might become homeless. How do you 
believe VA can identify those veterans ``who might become homeless?''
    Response. To identify Veterans who might become homeless requires 
close cooperation with a number of partners. For those Veterans already 
in the VA system, our integrated health care system provides mental 
health resources in primary care settings and can be an effective early 
warning system to identify Veterans with conditions such as substance 
use disorders or severe mental illness that could put them at risk for 
homelessness. There is a body of research that identifies risk factors 
for homelessness; these include prior episodes of homelessness, mental 
health issues, substance abuse, incarceration as an adult, and lack of 
income.
    VA can also work with homeowners who have used the Veterans 
Benefits Administration to identify Veterans who are falling behind on 
their mortgages and provide additional support to them. The bigger 
challenge is reaching those Veterans not within the VA system. To help 
them, VA must partner with other Federal, state and local groups, both 
governmental and non-governmental (such as our many grant and per diem 
partners) to conduct outreach and provide services to Veterans.

    Question 10. What do you envision to be ``long term solutions'' for 
problems, such as mental illness, that lead to chronic homelessness?
    Response. The President and the Secretary are committed to ending 
homelessness among Veterans in 5 years, and to do this will require 
long term solutions. The most challenging group of Veterans in this 
regard is the chronically mentally ill. VA will need to enhance its 
system of transitional housing and supportive services that either we 
provide or that we have arranged with community partners to provide, to 
ensure that housing and mental health services are available to this 
vulnerable population. The Secretary is committed to a review of 
existing VA facilities that will identify infrastructure we can use to 
support these objectives.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Patty Murray to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Question 1. Painful and disabling joint and back disorders continue 
to be reported as the top health problems of veterans returning from 
Iraq and Afghanistan, according to Department of Veterans Affairs' (VA) 
statistics. Recent numbers from the VA now show that nearly half of 
these returning veterans are offered preliminary diagnoses of 
musculoskeletal ailments. However, the VA currently has only 28.5 
chiropractors providing on-station care and services at 36 facilities, 
according to written testimony provided to this Committee by VA Acting 
Under Secretary for Health Gerald Cross earlier this year. This written 
testimony also states that the VA does not oppose eventually increasing 
the number of VA sites providing chiropractic care.

    a. In your experience as VISN 23 Network Director, was chiropractic 
care readily available to veterans, and especially to veterans of the 
wars in Iraq and Afghanistan?
    Response. In my experience in VISN 23, I was not aware of any 
complaints from Veterans about accessing chiropractic care. This care 
and service was available to Veterans at each of our facilities, 
whether through an in-house provider, a contract agreement, or through 
fee-basis.

    b. If confirmed, what assurances could you give that chiropractic 
care at VA major medical facilities is expanded within a reasonable 
timeframe?
    Response. My understanding is that VA has a policy to provide 
chiropractic care to Veterans in need of those services. If confirmed, 
I would ensure this policy is being implemented and that this care is 
accessible. I can assure you that if confirmed, we will periodically 
assess demand for chiropractic services to determine if additional 
resources are needed.

    c. What new reporting procedures or policies, if any, will you 
establish within the VA to ensure the adequate provision of 
chiropractic care?
    Response. VA's Office of Rehabilitation Services is responsible for 
overseeing chiropractic care, and if confirmed, I would ask them for 
quarterly updates for each VISN to determine patient demand and usage 
to determine if additional resources are needed.

    Question 2. I have been informed that companies known by the VA as 
``resellers'' have experienced significant difficulties attempting to 
secure and maintain FSS contracts which would enable them to compete 
for orders to supply VA medical facilities. The departure of some of 
these companies from holding FSS contracts has resulted in 
significantly higher prices paid by VA hospitals to purchase supplies. 
Will you work with VA management in an effort to resolve this matter 
and thus ensure greater competition in the procurement process?
    Response. Yes, if confirmed I will work with VA management to 
explore options for contracting arrangements involving reusable medical 
equipment.

    Question 3. More and more women are separating from the uniformed 
services everyday and one message I hear time and time again is that 
the VA is ill prepared to deal with the needs of female veterans.

    a. How did you address this in VISN 23 and how do you aim to 
address this as head of the Veterans Health Administration?
    Response. In VISN 23, we ensured every VAMC in our network had an 
identified women Veteran's program manager long before it was required 
nationally. We also encouraged our facilities to develop women's health 
clinics at our major locations. One important step we took that proved 
quite effective was to hold women Veterans focus groups where we 
solicited information from them to determine what care they needed and 
how they wanted it to be provided. If confirmed, I will ensure all of 
our medical centers to do this as well. VA has recently conducted an 
extensive survey of women Veterans to understand their use of health 
care and perceived barriers to receiving care in VA. We will quickly 
analyze those results and brief the Committee on the results. In 
addition, we have already conducted a national evaluation of our health 
care environment to identify privacy and dignity concerns applicable to 
women Veterans based upon an evaluation by the Government 
Accountability Office. If confirmed, I will ensure these facilities 
receive the necessary resources and attention to resolve these issues. 
We also need to provide comprehensive services to women Veterans; I 
believe this can be done either through separate women's health clinics 
that offer primary and specialty services in an exclusive clinic for 
women, or through a comprehensive primary care setting. Third, if 
confirmed, we need to increase training for our health care providers 
to improve their awareness and sensitivity to women Veterans' health 
care needs. VA currently offers a mini-residency for women's health, 
through which we have trained over 300 providers. We are committed to 
training at least one provider at every site, including CBOCs, by the 
end of next year. Finally, we need to adapt our programs to meet the 
needs of women Veterans by providing newborn care. We also need to work 
with Congress to find an approach that can facilitate access in the 
first place by providing or making available child care for all 
Veterans, not just women Veterans. If confirmed, I look forward to 
working with the Committee to develop just such a proposal.

    b. What is the VA currently doing to prepare for female veterans 
returning Afghanistan and Iraq?
    Response. VA has a number of programs underway to meet the needs of 
women Veterans, including women Veterans returning from Iraq and 
Afghanistan. With 86 percent of this group under the age of 40 and of 
child-bearing age, we have refocused primary health care to be 
proficient in gender-specific care issues for women. Our facilities 
have identified deficiencies with regard to privacy and dignity and are 
working to rectify these, and we have placed full-time Women Veterans 
Program Managers at all 144 of our health care systems. Currently, 68 
percent of VA providers are women, and while we have a policy that 
allows a Veteran to request a provider of the same gender, if 
confirmed, I would ensure this is being followed. We have a number of 
outreach programs for Operation Enduring Freedom/Operation Iraqi 
Freedom (OEF/OIF) Veterans, and part of this program is focusing 
specifically on women Veterans to inform them of the benefits they have 
earned through service. Finally, VA has provided $25 million to hire 
and staff counselors specifically for women Veterans at 160 Vet 
Centers.

    Question 4. As a Senator representing a large state with many rural 
and tribal veterans, I have heard about limited access to care and 
concerns with the quality of health care provided to these veteran 
populations.

    a. What are your thoughts on how to increase access to those 
veterans who live in rural areas, including tribal veterans?
    Response. I think that if we are going to meet the needs of rural 
Veterans and Veterans in tribal areas, we must support and advance four 
key areas. First, community-based outpatient clinics (CBOC) have been 
an important resource over the past decade in bringing care closer to 
home for many Veterans. VA currently operates 783 CBOCs and by the end 
of fiscal year (FY) 2010, we will operate more than 850. We similarly 
operate 40 outreach clinics in rural and highly rural areas. We will 
continue to assess the needs of other locations and develop resources 
accordingly. Second, we must support telehealth and telemedicine 
programs that facilitate the delivery of health care in the Veteran's 
home or the Veteran's community. We have been expanding these programs, 
and I will ensure continued robust support if confirmed. VA research 
has substantiated the benefits of telehealth as a means of providing 
health care to the American Indian/Alaska Native (AI/AN), and Hawaiian 
Native Veteran population we serve. There are currently seven 
operational telehealth programs providing services to Tribal 
communities and nine programs in deployment. VA telehealth programs to 
tribal communities predominantly involve clinical video-conferencing to 
provide mental health services and home telehealth services for 
diabetes and mental health conditions. VA has completed a cultural 
competency program to ensure that providers are sensitive to the 
particular circumstances of using telehealth to reach into tribal 
communities to deliver services using telehealth. Third, home-based 
primary care (HBPC) is another model of care VA can use to meet the 
needs of rural Veterans. Many of our VA medical centers (VAMC) offer 
HBPC, and we are expanding this program to rural and highly rural areas 
by supporting these teams at our larger CBOCs. This year, we have 
identified 39 new sites for HBPC care in rural and highly rural areas 
alone. Finally, there will be times when VA will need to contract for 
care or use its fee-basis program. When this is necessary, it is 
important that we reduce the variation across our system in how we make 
these arrangements and process payment so that these valuable partners 
will remain a resource for Veterans. Congress has generously provided 
us with resources to support rural Veterans that support these four 
approaches and others, and I look forward to the potential some of 
these programs have for greater use.
    Another key element to improving the care of Native American 
Veterans is culturally appropriate training. One example of this type 
of training we used in VISN 23 was a weeklong retreat for VA employees 
working with the Lakota Tribe that proved very effective in terms of 
building relationships and supporting care.

    b. In particular, how can the VHA maximize resources within the 
CBOC system?
    Response. One approach VA can adopt to maximize the resources we 
have within the CBOC system and to provide better care to American 
Indian/Alaskan Native Veterans is through co-location of facilities on 
tribal lands. In VISN 23, we worked with Tribal communities to develop 
CBOCs, to provide Post Traumatic Stress Disorder (PTSD) treatment, and 
create telehealth support sites, as well as a compensated work therapy 
program in South Dakota.

    c. How do you intend to improve partnerships with IHS and tribes as 
head of the VHA?
    Response. As VISN 23 Director, I have a great deal of experience 
working closely with the Indian Health Service (IHS) and other 
organizations to provide care and outreach to Native American Veterans. 
VISN 23 has 27 Native American reservations, and has developed programs 
on many reservations to help Veterans. I believe that American Indian/
Alaskan Native Veterans and Veterans from the Pacific Islands are among 
the most vulnerable and underserved populations within VA, and if 
confirmed, I will work to enhance the services available to this 
population. I will bring my years of experience and commitment to 
working with IHS and tribal governments to further this end. For 
example, I believe we should make services available on or proximate to 
large AI/AN reservations with significant Veteran populations.

    Question 5. As you know, many of the Members of the Committee 
believe it is unfair that Priority 8 veterans do not get access to the 
system they were promised. I am heartened by the President and 
Secretary Shinseki's new efforts on this front, but I would like to 
obtain your thoughts on this area of veterans care.

    a. As VISN director what was your view on restricting access for 
Priority 8 veterans?
    Response. My view on this issue has not changed from my time as 
Network Director to Acting Principal Deputy Under Secretary for Health. 
I support the Secretary's proposal to gradually expand enrollment to 
more Priority Group 8 Veterans.

    b. If confirmed, how do you think the VHA can continue to expand 
care for Priority 8 veterans so all veterans may access the VA health 
care system?
    Response. I believe VA can afford to support additional Priority 
Group 8 Veterans if we continue a gradual expansion that provides the 
system and our infrastructure time to adjust. An immediate complete 
expansion to all eligible Priority Group 8 Veterans would increase wait 
times and reduce the quality of care for Veterans already in the 
system.

    Question 6. During the hearing, I mentioned a worrying staffing 
shortfall that veterans have mentioned to me at the Port Angeles, 
Washington CBOC, where the VA has said they will be hiring a full time 
doctor for months.

    a. What is currently being done to ensure a full time doctor is 
hired in a timely manner?
    Response. The VA Puget Sound Health Care System has initiated 
processes to expedite credentialing, privileging, and human resource 
requirements of qualified candidates. We have flexibility and options 
for physician pay to offer recruitment incentives for providers in 
rural areas like Port Angeles.

    b. Can you assure me that veterans in the Port Angeles area will 
not have to wait any longer to see a doctor at the Port Angeles CBOC?
    Response. I can promise you I will follow this issue on your behalf 
and work with the Network and the VA Puget Sound Health Care System to 
ensure that Veterans in the Port Angeles area receive the care they 
need.
                                 ______
                                 
   Response to Posthearing Questions Submitted by Hon. Jon Tester to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Question 1. As we discussed in my office, the so-called ``super 
clinic'' model holds promise for providing more services to veterans 
closer to where the veteran lives. This is particularly important for 
Medical Centers with large numbers of rural and frontier veterans. One 
good example of this ``super clinic'' model is Billings, Montana. 
However, in order to expand the types of health services that can be 
offered at the CBOC in Billings, Phase II of the new clinic's 
construction must not be delayed. Will you commit to reviewing the 
urgency of funding Phase II of this project? And more generally, what 
is your view of the potential for ``super clinics'' to provide better 
care to rural and frontier veterans?
    Response. I am not familiar with the Billings project, but if 
confirmed, I look forward to working with you to ensure Veterans in 
Montana receive the care they need. I can commit to you that I will 
review the funding for this program if confirmed. I think the health 
care center model may be appropriate for a number of locations, such as 
Billings, Montana, where we can provide primary care, mental health 
services, and ambulatory surgery in areas with sufficient demand and 
need. VA has formed a workgroup to define VA's options for facilities 
by types of services provided and metrics, and I look forward to seeing 
what we can do to improve the care of rural Veterans, including those 
in Montana.

    Question 2. Based on your experience as Director of VISN 23, what 
is your view of how home health care can be used to improve health 
among rural and frontier veterans? Do you believe that VHA can do more 
to increase home health care opportunities for veterans?
    Response. Home health care is a fundamentally important program to 
bring care not only to home-bound Veterans, but also to rural Veterans. 
If confirmed, I will support the expansion of this program to offer 
Veterans more opportunities to participate.
    If we are going to meet the needs of rural Veterans, we must 
support and advance four key areas. First, community-based outpatient 
clinics (CBOC) have been an important resource over the past decade in 
bringing care closer to home for many Veterans. VA currently operates 
783 CBOCs and by the end of fiscal year (FY) 2010, we will operate more 
than 850. We similarly operate 40 outreach clinics in rural and highly 
rural areas. We will continue to assess the needs of other locations 
and develop resources accordingly. Second, we must support telehealth 
and telemedicine programs that facilitate the delivery of health care 
in the Veteran's home or the Veteran's community. We have been 
expanding these programs, and I will ensure continued robust support if 
confirmed. Currently, more than 40,000 Veterans are supported in living 
independently through the use of home telehealth technologies. Third, 
home-based primary care (HBPC) is another model of care VA can use to 
meet the needs of rural Veterans. Many of our VA medical centers (VAMC) 
offer HBPC, and we are expanding this program to rural and highly rural 
areas by supporting these teams at our larger CBOCs. This year, we have 
identified 39 new sites for HBPC care in rural and highly rural areas 
alone. Finally, there will be times when VA will need to contract for 
care or use its fee-basis program. For example, VA will continue to 
purchase home and community-based services from traditional agency 
providers and through the Aging Network to support Veterans with these 
needs. We anticipate expanding this program to rural counties in 15 
states this year. When we do purchase care, it is important that we 
reduce the variation across our system in how we make these 
arrangements and process payment so that these valuable partners will 
remain a resource for Veterans. Congress has generously provided us 
with resources to support rural Veterans that support these four 
approaches and others, and I look forward to the potential some of 
these programs have for greater use.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mark Begich to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Question 1. I was pleased to see in your 2006 testimony to the 
Subcommittee on Health House Committee on Veterans Affairs your focus 
on the ongoing efforts in the Veterans Health Administration (VHA) to 
provide safe, effective, efficient and compassionate health care to 
veterans residing in rural areas. As we have discussed in this 
Committee, rural area veterans often face additional challenges such as 
limited finances and fewer specialists. These combined challenges have 
produced a situation where veterans in remote regions experience a 
reduced health-related quality of life. Veterans in rural communities 
such as Alaska and Montana face the added burden of travel eligibility.
    What is your opinion on a waiver to the existing law to exempt 
those veterans whose only means of travel to their appointment is by 
air or sea or exceeds a designated certain distance? And how will you 
work to waive the requirements?
    Response. The Department of Veterans Affairs (VA) is committed to 
ensuring that health care services are accessible to all enrolled 
Veterans. VA currently offers air transportation to Veterans based on 
clinical need, and I think this is a good basis for our program. In 
Veterans Integrated Service Network (VISN) 23, some Veterans had to 
travel significant distances for care, so I understand your concern and 
the challenges Veterans face. For example, Veterans residing in Minot, 
ND and visiting a VA clinic there would have to travel approximately 6 
hours to receive care at the Fargo VA Medical Center. I understand VA 
has looked at the financial costs and benefits of providing air travel 
to other VA facilities for Alaska Veterans compared with securing 
health care through contracts or fee-basis. This analysis found that 
providing air transportation was significantly less costly than seeking 
care in the community, so these proposals can make good economic sense 
while improving the health care of Veterans.
    If confirmed, I am interested in working with you and the Committee 
to further improve our ability to deliver the care Veterans need. I 
believe it is appropriate for VA to administer a program that provides 
air or sea transportation when no other mode of transportation is 
available (for example, in some highly rural areas or in the Pacific 
Islands), or when the Veteran's condition necessitates travel by means 
other than driving. There are other factors that may also justify a 
waiver of our normal beneficiary travel requirements, and I look 
forward to hearing your ideas on this matter.

    Question 2. When you were Administrator at the VA in Upper Midwest 
Network you testified to Congress about the nursing workforce 
strategies and primary care clinics run by nurse practitioners in the 
U.S. Department of Veterans Affairs Upper Midwest Health Care Network, 
in the states of Minnesota, North Dakota, and South Dakota. Nurse 
Practitioners are effective as providers of safe, high-quality, cost-
effective primary care in rural frontier states. How do you plan to 
expand this concept to the rest of the VA clinic system?
    Response. I believe nurse practitioners play an important role in 
providing direct primary care in VA. Nurse practitioners are licensed, 
independent providers capable of diagnosing patients, providing 
treatment, and prescribing medications without the supervision of a 
physician. I believe using nurse practitioners is an important approach 
to providing primary care for Veterans in rural areas, where we and the 
private sector have encountered difficulties recruiting and retaining 
other qualified professionals. Nurse practitioners currently fill 
primary care provider roles in many VA settings, and if confirmed, I am 
interested in expanding the use of nurse practitioners even further. 
Nurse practitioners will and must play a larger role in health care 
delivery in the future. I would be happy to meet with you to discuss 
these ideas in greater detail.

    Question 3. As a member of the Blue Ribbon Panel that advised the 
Secretary on issues related to a comprehensive philosophical framework 
to enhance VA's partnerships with medical schools and affiliated 
institutions, those affiliations were broadly assessed in light of 
changes of medical education, research priorities, and the health care 
needs of veterans. What were some of the relevant changes that have 
occurred from this Blue Ribbon Task Force?
    Response. The Secretary recently accepted the report of a 
distinguished panel, the Blue Ribbon Panel on VA-Medical School 
Affiliations, which provided 44 specific recommendations to further 
enhance this important partnership. The Veterans Health Administration 
(VHA) is developing an implementation plan that will allow us to take 
action on these recommendations, but no changes have been instituted 
yet. If confirmed, I look forward to providing Congress with a report 
on the Panel's recommendations and VA's implementation plans early next 
year. Our affiliations play an important role in delivering and 
enhancing patient care. VA is transforming its culture and models of 
care, and by working with our academic partners, we will take the lead 
in creating patient-centered, team-based and inter-professional 
educational programs.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Roland W. Burris to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Question 1. Dr. Petzel, there has been a push, mostly from within 
VA, to encourage more cooperation and sharing agreements between VA and 
the Department of Defense (DOD). This has recently been shown with the 
Partnership between the North Chicago VA Medical Center and the Great 
Lakes Naval Hospital to create the Captain James A. Lovell Federal 
Health Care Center in 2010. With this in mind, what other areas do you 
see as having the most potential for new sharing arrangements?
    Response. I think it is correct to pursue these types of 
cooperative arrangements, as they provide an opportunity to leverage 
existing resources and meet the needs of both active servicemembers and 
America's Veterans. In particular, these joint ventures allow for 
improved access, continuity, and quality of care for VA and Department 
of Defense (DOD) beneficiaries in settings where there are strict 
performance measures that are closely monitored by accountable 
leadership. In addition, joint ventures provide the opportunity for 
cost savings, particularly in situations where DOD or VA would 
otherwise have to purchase care within local communities.
    In addition to the facility in North Chicago, VA and DOD currently 
operate the eight joint venture sites listed below. These sites share 
equipment, facilities and human resources to provide better, cheaper 
care for servicemembers and Veterans.

    <bullet> North Chicago--North Chicago VA Medical Center/Naval 
Health Clinic Great Lakes
    <bullet> Las Vegas--Michael O'Callaghan Federal Hospital: VA 
Southern Nevada Health Care System/99th Medical Group, Nellis AFB
    <bullet> Anchorage--Alaska VA Health Care System/3rd Medical Group, 
Elmendorf AFB
    <bullet> Honolulu--VA Pacific Islands Health Care System (Spark M. 
Matsunaga Medical Center)/Tripler Army Medical Center
    <bullet> Albuquerque--New Mexico VA Health Care System/377th 
Medical Group, Kirtland AFB
    <bullet> Key West--Miami VA Health Care System (Community Based 
Outpatient Clinic)/Naval Medical Clinic Key West
    <bullet> El Paso--El Paso VA Health Care System/William Beaumont 
Army Medical Center
    <bullet> Fairfield--Northern California VA Health Care System/David 
Grant Medical Center, 60th Medical Group, Travis AFB

    In addition, the DOD/VA Health Executive Committee is developing 
criteria for a comprehensive analysis of all military treatment 
facilities and VA medical centers to determine other locations where 
joint ventures make sense. We intend to review the analysis of these 
sites during the second quarter of FY 2010, with the intent of 
developing action plans for execution before the end of the fiscal 
year.

    Question 2. Dr. Petzel, do you think the VA should rescreen or 
contact veterans that returned from OIF/OEF before the VA had a 
Traumatic Brain Injury (TBI) screening mechanism in place?
    Response. I believe we have already screened all Veterans who have 
come to VA who have returned from OEF/OIF for Traumatic Brain Injury 
(TBI). We began this screening in April 2007, and through the end of 
August 2009, VA screened 354,239 OEF/OIF Veterans for possible mild 
TBI. Of the 45,105 who screened positive and completed a follow up 
examination, 23,388 received a confirmed diagnosis of mild TBI. About 
93 percent of all Veterans who are screened are determined not to have 
TBI, yet all who are screened and report current symptoms are evaluated 
and treated. Our current screening program identifies those Veterans 
who returned from OEF/OIF before April 2007, and once they enroll and 
begin receiving care, our electronic health record triggers a clinical 
reminder to alert all VHA providers to screen for TBI.
    In May 2008, VA began a Veteran Call Center Initiative to reach out 
to OEF/OIF Veterans who separated between FY 2002 and December 2008. 
The Call Center representatives informed Veterans of their benefits, 
including enhanced health care enrollment opportunities, and determine 
if VA can assist in any way. This effort initially focused on 
approximately 15,500 Veterans VA believed had injuries or illnesses 
that might need care management. The Call Center also contacted any 
combat Veteran who had never used a VA medical facility before. Almost 
38 percent of those we spoke with requested information or assistance 
as a result of our outreach. The Call Center Initiative continues 
today, focusing on those Veterans who have separated since 2001.

    Question 3. Dr. Petzel, I am deeply concerned about VA's present 
approach to caring for veterans suffering from PTSD and other mental 
health disorders.

    a. Please describe the priority that you believe VA should place on 
providing care to veterans with PTSD, and how you would ensure that 
priority is manifested in budget requests and programmatic planning.
    Response. Providing treatment for Post Traumatic Stress Disorder 
(PTSD) is a high priority for VA and for me. If confirmed, I would 
ensure this priority is manifested in budget requests by reviewing the 
information we have concerning patient demand, incidence rates and 
available services and augment our requests as needed to provide 
Veterans the care they need.

    b. From your experience as Acting Principal Deputy Under Secretary, 
what is your assessment of the unmet treatment needs among veterans 
with PTSD? Where do you see the most room for VA to improve?
    Response. VA has a budget of over $4 billion for mental health 
care, and our integrated system of primary and mental health care is 
unmatched. Our programs are deep and broad, and I believe we provide 
excellent evidence-based treatments for those Veterans we see. We do 
very well for those Veterans we see, but we need to do better in 
reaching out to those not already in our system. We need to improve our 
outreach with service organizations, community providers, and the 
friends and family members of Veterans to help them recognize potential 
issues and to let them know our services are available to them. Vet 
Centers are an excellent resource, in that they are a non-threatening, 
non-clinical environment where Veterans can receive counseling or help. 
Vet Centers are an alternate door to VA care. VA has been increasing 
its use of outreach approaches designed to reach Veterans, such as our 
Suicide Prevention Hotline advertisements and other public service 
announcements. These are important steps in the right direction, but we 
can and must do more.

    Question 4. Dr. Petzel, do you believe that the VistA system is 
still able to meet the clinical and administrative needs of VHA?
    Response. Yes, I think the Veterans Health Information System and 
Technology Architecture (VistA) is able to meet the clinical and 
administrative needs of VA at this time. We need to continue to invest 
in and improve the system to meet the needs of our patients, health 
care providers, and administrative professionals. I am confident that, 
in collaboration with Assistant Secretary for Information and 
Technology, Roger Baker, we can achieve this goal.

    Question 5. Dr. Petzel, As you may know, I am deeply concerned 
about issues relating to long-term care services and delivery in VA. 
Based on estimates, the number of veterans age 85 and older will 
dramatically increase--from 154,000 in 1990 to 1.3 million in 2010. If 
confirmed, what changes would you seek to implement to allow VHA to 
respond to the impact of this looming change?
    Response. The future of long-term care is in non-institutional 
care. VA policy is to provide long-term care services in the least 
restrictive setting that is medically appropriate and safe for the 
Veteran, and whenever possible in non-institutional home and community-
based settings. Nursing home care should be reserved for situations in 
which a Veteran can no longer be safely maintained in the community. VA 
is committed to continued expansion of its own capacity to provide non-
institutional long-term care services to meet the full demand for such 
care for Veterans enrolled in the VA health care system by the end of 
fiscal year 2011. We must also expand telehealth and home-based primary 
care to meet the needs of our aging Veteran population. Currently, the 
average daily census for home telehealth-based services is 29,000 
Veterans, and VA plans to provide 50 percent of its non-institutional 
care needs through home telehealth by the end of FY 2011. We are also 
increasing the use of home-based primary care and home health aide 
services to meet the needs of our aging Veteran population. VA already 
provides other services, such as respite care and adult day health 
care, which help older Veterans and their caregivers maintain 
independence, and these programs will grow in importance over the 
coming years.

    Question 6. Dr. Petzel, I commend VA's establishment of a permanent 
office to address the needs of returning servicemembers. While many 
strides have been made to ensure a seamless transition from active duty 
to veteran status, more must be done to ease this integration into the 
VA system and reintegration into society. What is your view of the work 
that remains in this area, and how would you seek to accomplish a truly 
seamless transition? What are your plans to combat the cultural issues 
that accompany the transition to veteran status?
    Response. VA is doing a better job than ever before in reaching out 
to Veterans to help them in the transition process. There is still more 
to do, however. We must intensify our current efforts. In 2009, VA 
expanded and enhanced outreach services to OEF/OIF servicemembers and 
Veterans with hands-on briefings, health care enrollment prior to 
leaving the demobilization site, and personal interactions with VA 
staff at events throughout the deployment cycle. Specifically, VA staff 
interacts with Veterans and servicemembers face-to-face at military 
units or VA medical centers across the country through the following 
events:

    <bullet> Demobilization briefings for all of the services at 61 
military sites;
    <bullet> Yellow Ribbon Reintegration Program events at 30-60-90 day 
Post-Demobilization events;
    <bullet> Post-Deployment Health Reassessments (PDHRA), including 
those conducted at VAMCs;
    <bullet> VA Combat Veteran Call Center staff contacts all 
separating OEF/OIF Veterans;
    <bullet> National Guard and VA partnership utilizing the Transition 
Assistance Advisors to ensure that VA and community services are 
coordinated through state coalitions;
    <bullet> Individual Ready Reserve Musters and VA briefings at 
community locations or VA medical centers; and
    <bullet> OEF/OIF Web site to provide access to VA information about 
VA benefits and services, as well as social media technology.

    With regard to the cultural issues you raise, there are a few 
examples of work VA is doing to address these concerns. As I mentioned 
before, we are using more social media to connect with a younger 
generation of Veterans and provide them information in a manner that is 
more familiar and satisfactory for them. Our goal is to reach out to 
Veterans seven times within their first 6 months back to change VA's 
perception as more Veteran-centric. VA is proactive in contacting and 
finding Veterans, rather than waiting for them to come to us, and that 
is the approach we need. Our integrated health care system makes 
available mental health services in primary care settings, and our Vet 
Centers also offer an excellent resource for supporting Veterans in a 
comfortable environment near their home. If I am confirmed, we will do 
more in the coming year, such as increasing our use of social media, 
providing tours of VA medical centers and hosting Welcome Home events, 
and continuing to enhance our close ties with the National Guard and 
state coalitions to ensure that returning servicemembers can access VA 
services.

                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Robert A. Petzel, M.D., to the Office of 
General Counsel, U.S. Department of Veterans Affairs:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much, Dr. Petzel, and I also 
want to add my welcome and aloha to your family gathered here.
    Dr. Petzel, without question--and you have noted it--you 
will be an advocate for veterans. I think we would all like to 
know what will you do to ensure that the best interests of 
veterans is behind each and every decision you make, so let me 
ask: how will you advocate for that approach as VA deals with 
pressure from OMB to limit spending in health care?
    Dr. Petzel. Thank you, Senator Akaka. I do believe that my 
responsibility is, as you have put it, to advocate for veterans 
and that includes ensuring that we have adequate resources to 
accomplish the things that we are being asked by Congress and 
the President to accomplish. I have a reputation for candor, 
and I believe that it is my responsibility to speak candidly 
with the Secretary, who also believes that his first 
responsibility is to advocate for the resources necessary to 
take care of veterans. But to speak candidly with him and to 
speak candidly with Congress about what our needs are and how 
those needs are being met, and if confirmed, I promise you that 
I will deal openly and directly with you about what our needs 
are and whether or not those needs are being met.
    Chairman Akaka. Doctor, there is a tremendous need for VA 
to reach out and treat returning veterans who need mental 
health services. With each high-profile case, DOD becomes more 
and more engaged in providing PTSD care, even on the 
battlefield, an idea that many have concerns with. Can DOD and 
VA work together to ensure mental health needs are met in the 
active-duty servicemember and the new veteran?
    Dr. Petzel. Thank you again, Senator Akaka. You have 
highlighted what I think is one of the signal problems with the 
present conflict, and that is the high incidence of behavior 
health and mental health problems in the veterans that are 
returning from this conflict, particularly those veterans that 
have been exposed, actually exposed, to combat.
    VA and DOD have a number of mechanisms set up to jointly 
address these problems. Recently, the Secretary for the 
Department of Defense and the Secretary of VA, Mr. Shinseki, 
jointly held a conference, a summit, if you will, on mental 
health issues of returning servicemembers and actually people 
that remain in the service. In addition to that, we have 
several structures where these things are discussed regularly. 
The Joint Executive Council, the Health Executive Council, and 
the Senior Oversight Committee are all places where these 
issues are discussed.
    I believe that VA is the premier institution, if you will, 
in this country right now when it comes to knowing and treating 
patients with PTSD, and my hope would be that we can work with 
the military, share our expertise, and provide perhaps some of 
the services that it needs. I believe that we will be able to 
accomplish this through these joint efforts.
    Chairman Akaka. I am glad to hear that. I am glad to hear 
about the joint efforts. I think we need to develop this as 
much as possible and work together on this. I just want to be 
sure that you can ensure this will happen. Let me ask you that 
question. How will you ensure that this happens?
    Dr. Petzel. Thank you, Senator. I play an important role in 
each one of those groups that I mentioned before. The mental 
health services are directly responsible to me within VHA, and 
I can assure you and this Committee, if confirmed, I will make 
certain that all that we have to offer is brought to bear on 
the issues of PTSD particularly, but mental health in general, 
of the returning servicemembers. We will work with the 
Department of Defense. Again, I think we have the expertise to 
offer them the kinds of things that returning servicemembers 
need and I think we should be in a position to do that.
    Chairman Akaka. Dr. Petzel, you should know that, as 
Chairman, I am committed to strong oversight. Most recently, I 
have had staff look at whether facilities were actually making 
improvements to mental health care that they have been directed 
to make, like having evening and weekend hours. Committee staff 
determined that there was poor compliance overall. What will 
you do to ensure that facilities are making the requisite 
improvements?
    Dr. Petzel. Thank you, Senator. Well, we have clearly--VHA 
has clearly outlined what the requirements are. There should be 
little misunderstanding on the part of people as to what needs 
to be done and should be done. I think it is our responsibility 
here in Washington, and if confirmed, I will assume that 
responsibility, to ensure that, indeed, those things are being 
done.
    Are the construction projects to provide a safe mental 
health environment being done? Are all the programs that we 
have said we want as part of our panoply of mental health 
services, are they all in place in all of our facilities? I 
promise you, again, if confirmed, that I will assure that we 
are doing the things that we have promised Congress and 
promised the veteran community that we will do.
    Chairman Akaka. I understand that for many facilities, 
there simply isn't the physical space to expand and provide 
more mental health care. How will you reassess minor 
construction?
    Dr. Petzel. Thank you. I believe that we need to review the 
minor health construction projects and see that these projects 
reflect the priorities within VHA. If confirmed, I would do 
that. We obviously have patient safety issues, generally 
speaking, at the top of that. But mental health is an important 
part of the services that we provide, and if there are projects 
on that schedule that are necessary in order to accomplish all 
that we need to accomplish at a facility in terms of mental 
health, then we have to assess if that is in the appropriate 
priority.
    So my promise to you, if confirmed, would be to review the 
minor construction process and the minor construction project 
list to ensure that those things that we have said are 
priorities are indeed reflected in that construction list.
    Chairman Akaka. Thank you very much.
    Senator Burr?
    Senator Burr. Thank you, Mr. Chairman.
    Dr. Petzel, welcome. We had a delightful short time 
together----
    Dr. Petzel. Yes.
    Senator Burr [continuing]. But very insightful. A couple of 
housekeeping things and then a couple of serious questions.
    Dr. Petzel, do you pledge to swiftly and accurately respond 
to all requests for information made by me or my staff on my 
behalf?
    Dr. Petzel. Absolutely, Senator, I do.
    Senator Burr. I thank you. VA has more tools and resources 
than ever before to end homelessness for our Nation's veterans. 
Do you believe it is possible to actually accomplish that in 
the next 5 years?
    Dr. Petzel. I do. That is an excellent question----
    Senator Burr. What do you think it will take?
    Dr. Petzel. Well, I think it is going to take a number of 
things. First of all, we need to deal with the present homeless 
population, and that can be divided in several ways, one of 
which is the chronic and the not-chronic homeless veterans. I 
think our approach to those two populations is slightly 
different.
    Second, in order to eliminate homelessness, it is going to 
be absolutely essential that we prevent homelessness. So a 
major part of our effort is going to have to be directed at 
those people who might become homeless, those people who are on 
the edge or threatened. We will work with State and Federal 
agencies to help and internally within our organization to try 
and identify those people and provide the services they need, 
be it housing, be it a job, or job training, or medical care, 
before the situation has reached the point where those people 
are indeed helpless.
    So if we are going to eliminate homelessness, a major 
effort needs to go toward preventing homelessness. A major 
effort needs to go toward finding long-term solutions to the 
problems of chronic homelessness.
    Senator Burr. Would you agree that homelessness and chronic 
homelessness suggest a breakdown in our ability to deliver the 
wraparound care out of the Veterans Administration that we 
should?
    Dr. Petzel. I would agree with you, Senator; that is one of 
the issues that affects homelessness.
    Senator Burr. Doctor, in your testimony, you cite what you 
believe are the weaknesses of the VA's health care system, 
including the need for a vision of what the system should be in 
the future, which is one that I agree with; lack of alignment; 
and too many variations within the system. What is your plan to 
correct these weaknesses for the entire system, if confirmed?
    Dr. Petzel. Well, first, we need to develop a consensus 
within the VA, Senator, about what this health care system is 
going to look like in the future. I outlined three features 
that I think need to be there, though there are many others: 
patient-centeredness; a concept of team care; and the concept 
of continuous improvement, so that all of the work that we do 
is crafted in the nature of continuously improving that work.
    In terms of alignment, we have many wonderful programs. The 
VA probably has the broadest array of programs. Mental health 
is an excellent example of that. Nobody offers the range of 
services in mental health that the VA does. But it has been my 
experience that these programs are not always aligned toward 
this common vision, that they are much more interested in their 
particular program activities, et cetera. So we need to align 
everything, every activity within VHA, to accomplish this 
consensus vision of what our system is going to look like.
    In terms of variation, the Secretary had a briefing from 
each one of the 21 networks and it was really quite remarkable 
how different many of these networks are, how they operate 
differently. This is not necessarily good business. We need to 
reduce the variation in our structures and organizations at the 
network level. We need to reduce the variation in our business 
practices. I think everybody is aware of the VA's fee-basis 
program and that there have been difficulties in some parts of 
the country collecting and paying fee-basis accounts.
    If you were to look across this country, you would find 
that those 21 networks probably each have a different approach 
to fee basis. That is not appropriate for an integrated 
organization like ours. We need to have a system, a best 
practice system for administering the fee-basis program.
    An example in our network of reducing variation, several 
years ago we developed an imaging service line and came to an 
agreement amongst all the radiologists that we would buy a 
single vendor's products in all of our imaging suites. So now 
we have a single vendor's products in all of our imaging 
suites. It has reduced our cost. We had tremendous savings when 
it came to those purchases. Now our biomedical engineers have a 
much easier job of taking care of just one manufacturer's 
equipment.
    I think those sorts of things, with that and with 
laboratory equipment, need to be done across the country.
    Senator Burr. Let us talk about your time as the Director 
of the VISN. In your response to prehearing questions, you 
stated that addressing issues with privileging and 
credentialing of VA providers will require diligent and 
continuous review at the facility level. You also pledge that, 
if confirmed, you would ensure that each facility in each 
network meets or exceeds the VA standard. Well, as the new 
director, how do you ensure that facilities in the network meet 
or exceed the VA standards?
    Dr. Petzel. Thank you, Senator. We have to have an 
oversight process that assures us that the mechanisms are in 
place to review and audit those credentialing processes. That 
is an action that obviously has to occur at the local level, 
and what we need to know and we need to be sure of is that the 
local leadership are doing the things that need to be done to 
ensure that the credentialing and privileging process is 
functioning correctly, and that means periodic audits by 
outside interested parties not directly related to the 
credentialing process.
    This kind of thing is not unique to credentialing and 
privileging. There are an incredible number, as you know, of 
processes within a medical center that one needs to be assured 
are operating correctly, and the question could be asked of any 
one of those processes: how are you going to ensure, or how do 
we ensure that those things are being done correctly?
    One is that we assure ourselves what the internal audit 
processes are. Two is that we periodically--ourselves, from a 
central office perspective--audit and review those processes to 
see if, indeed, they are being followed.
    Senator Burr. Do you believe that there are different 
standards today, VISN by VISN, on privileging and 
credentialing?
    Dr. Petzel. No, Senator, I don't believe there are 
different standards. I believe there are different----
    Senator Burr. Different applications?
    Dr. Petzel [continuing]. Different level of execution.
    Senator Burr. OK, thank you.
    Dr. Petzel. Absolutely.
    Senator Burr. I thank you. I thank the Chair.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Murray?
    Senator Murray. Thank you very much, Mr. Chairman.
    Dr. Petzel, as you know, last week President Obama outlined 
a change in strategy to increase troops in Afghanistan by an 
additional 30,000, bringing the number of troops in Afghanistan 
to over 100,000. Now, Admiral Mullen pointed out on Monday that 
this will increase American casualties, and I want to make sure 
that the Department of Defense and the Department of Veterans 
Affairs have taken steps to adequately plan for that increased 
number of veterans that we know we will see seeking care, 
because we can't afford to repeat the mistake of the last 5 
years.
    So given the reality of what we know is coming, do you 
think the VHA needs to change its planning to handle the 
increased numbers of OIF and OEF veterans seeking care?
    Dr. Petzel. Thank you, Senator Murray. I cannot speak, of 
course, for the Department of Defense, but in terms of the VA, 
we have assessed what the impact would be of an additional 
30,000 troops being deployed. Obviously, not all of those 
people are going to be coming back to us immediately, but there 
will be casualties and there will be patients or people 
discharged from the service which will represent an increase in 
our workload.
    We have calculated what the expense of that might be and we 
are trying to include that in future budget requests. In the 
meantime, I am assured that we do have adequate resources to 
provide for all of the returning servicemembers from those two 
conflicts. As I said earlier, if that is not the case, you will 
get my candid opinion that it is not so.
    Senator Murray. OK. Well, we have had experience in the 
past where the VHA has recognized the need for increased 
resources, and somewhere between the Congressional Budget 
Office and here, it isn't accurately reflected in VA's budget 
request. I am assuming that if that should occur, you will be 
honest with us about your needs and tell us if a budget doesn't 
adequately reflect what you are seeing, if that is the case.
    Dr. Petzel. I will, Senator. I also need to point out that 
Secretary Shinseki's first priority is delivering adequate 
resources to the organization. He has repeatedly talked about 
that being his major responsibility. I have confidence that if 
the resources aren't there, that he will ask for them.
    Senator Murray. OK. Well, you were VISN 23 Director, so 
from that perspective, do you think that we are prepared for an 
increased number of OIF and OEF veterans?
    Dr. Petzel. I do. I do. How much of that increase is going 
to occur, it is really very difficult to know. Again, this is 
the 2010 budget that we are talking about----
    Senator Murray. Right.
    Dr. Petzel [continuing]. And we have yet to see what is 
going to happen with the 2011 budget. But again, if I don't 
believe--if I am confirmed and I don't believe that we have got 
adequate resources, I will be discussing that with the 
Secretary and I will be discussing that with the Committees.
    Senator Murray. OK. As VHA Under Secretary, what hurdles do 
you think we need to address to make sure that you have the 
staff and the resources that you are going to need to make sure 
that the veterans returning from Iraq and Afghanistan, as well 
as our veterans who are in the system from previous conflicts, 
are treated?
    Dr. Petzel. Thank you, Senator. I think the first hurdle is 
assessing what the need is and being sure that we understand 
how much we need in terms of resources.
    I think second is ensuring that we have got those 
projections worked into our budget; and I know, again, for 
2010, there was a very labored and, I believe, careful 
calculation as to what the impact of returning veterans would 
be on programs like TBI, like PTSD.
    So, the first thing is being able to predict what that need 
is. The second barrier, if you will, is advocating for those 
resources with the various structures that we have to deal with 
when we are looking at our budget. I am confident that the 2010 
budget does have in it adequate resources to do those things.
    Senator Murray. What you currently have, but you are 
working on the 2011 budget--or you will be----
    Dr. Petzel. I haven't yet seen what the 2011 budget is 
going to look like. We are in the midst of those negotiations. 
So it is difficult for me to speak definitively about what that 
final budget will look like.
    Senator Murray. Let us just say, once you are confirmed, 
Doctor----
    Dr. Petzel. Once I am confirmed, I will be very candid with 
you.
    Senator Murray. We need you to be candid. If between the 
Congressional Budget Office and elsewhere it gets reduced from 
where you all think it ought to be, we want to know from this 
Committee's perspective because that communication breakdown 
means that veterans won't get the care they need if we are 
short with funding.
    Dr. Petzel. Absolutely.
    Senator Murray. We are now ramping up and we have a number 
of folks coming home. It will impact next year's budget. It 
certainly will impact budgets in the out years, so we need to 
have an honest figure on that.
    I am hearing a lot about staffing issues from medical 
centers around the country. You are a former VISN Director. 
What do you think we need to do in VHA to make sure that we 
hire the doctors, the mental health providers, the specialists, 
and all the key personnel in a timely fashion?
    Dr. Petzel. Thank you, Senator Murray. There are two 
aspects to that question. One is the timely fashion, and I am 
pleased that Assistant Secretary Sepulveda is reviewing and 
going to be making substantial changes in our H.R. processes, 
in our hiring process, because quite frankly, in my experience 
as a network director, it just took too long in many cases to 
hire a physician, to hire a nurse, et cetera. Those processes 
need to be reviewed, and I am grateful for the fact that he is 
doing that. If confirmed, I look forward to working with him to 
find the best ways and the quickest ways to bring qualified 
people on. So that is one aspect.
    The other aspect, though, is making sure that we have got 
the salary structure and the incentives that we need to attract 
the kinds of professionals that we want and need, and that 
particularly is important in rural areas, because not only us, 
but the outside world, the private sector, has trouble 
recruiting to some very rural and remote areas.
    I am pleased that S. 1963 has in it a number of processes 
and recommendations that will help us, I think, hire those 
people, will help speed the hiring process. In addition to 
that, as I understand it, Senator Durbin has proposed providing 
some incentives specifically for recruiting to rural areas for 
both health care executives and clinical people. I think all 
those things would help.
    Senator Murray. Well, we have a particular area, Port 
Angeles in my homestate of Washington, that has been trying to 
hire a doctor for months. We have been told for months it is 
going to happen. So once you are confirmed, I will be calling 
you about that.
    Dr. Petzel. Please. If I am confirmed, I would be delighted 
to talk with you about that.
    Senator Murray. OK. Mr. Chairman, I do have some questions 
I would like to submit for the record. Unfortunately, I have 
another commitment I have to make. But again, to both of our 
nominees, thank you so much for your service to our country.
    Chairman Akaka. Thank you very much, Senator Murray. We 
will place your questions in the record.
    Now, we will have questions from Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman, and 
thank you, Doctor, for being here. Just for the record, I will 
be supporting your confirmation. I believe the President has 
all the rights to pick who he wants, but also he survives and 
dies based on your work, so it is on your shoulders.
    I just sent a letter to Secretary Shinseki regarding a 
report that just came out by the Office of Inspector General 
(OIG) regarding some significant challenges they have in 
Alaska, specifically in the Anchorage office, in regards to 
their management and the capacity for it to manage services and 
ensure that benefits are given in a timely manner. The tone of 
the letter was pretty dismayed, and I was somewhat outraged by 
the many findings.
    The good news is the Anchorage office recognizes these 
findings, and I want to know if you are, one, aware of the IG 
report, and two, I know it is not necessarily in your purview, 
but because of your senior staff level, you may have the 
capacity to assist in trying to clean this mess up. So what 
would be your comments, if you have any, at this point?
    Dr. Petzel. Well, thank you, Senator. I do share your 
concerns. I have not read the details of the report, but I have 
seen the press release, and I have seen a summary of the report 
and I do share your concerns. While this is VBA, we are one VA.
    Senator Begich. That is right.
    Dr. Petzel. VHA does provide a lot of support and services 
for people that are applying for veterans' benefits. We do the 
examinations. We work with VBA to expedite these processes. So 
I think that we need to, as one VA, take some responsibility 
for this.
    Senator Begich. Well, if there is anything--I am assuming 
the Secretary and his staff will get back to me, but obviously 
if it crosses into any of your purview, I would really 
appreciate your efforts in ensuring that you do what you can 
very rapidly. Alaska has the highest per capita amount of 
veterans in the country. Seventy-thousand, 11 percent of our 
population are veterans, and growing. So I just think it is 
critical that we do what we can, especially in Anchorage, which 
is half the population of the State. So----
    Dr. Petzel. Thank you, Senator. I agree with that, and I 
will carry your concerns back to the Secretary.
    Senator Begich. Very good.
    Dr. Petzel. I will carry your concerns back to Admiral 
Dunne and the Veterans' Benefits Administration.
    Senator Begich. Great. Thank you very much.
    I was reviewing some testimony, I think it was from 2006 in 
a subcommittee on health in the House, and your support for 
rural health care for veterans, which, as you can imagine in 
Alaska, is a very complex issue. I tried to tell Senator Tester 
I would represent Montana, also, in its rural concerns, because 
he had to leave.
    But one of the issues is, in Alaska, many of our veterans 
can get waivers because they have no other transportation other 
than air or sea or the land distance is significant. I am 
curious, on those travel waivers, where do you stand and how do 
you feel about those, especially in remote, rural areas. Is 
that a policy that you will continue to support?
    Dr. Petzel. Thank you. I am not specifically familiar with 
the waiver process----
    Senator Begich. OK.
    Dr. Petzel [continuing]. So I probably can't comment 
specifically. I will find out and get back to you about that--
--
    Senator Begich. Can you respond for the record?
    Dr. Petzel. But I will say that if people can't travel, I 
mean, the whole principle behind the travel reimbursement is 
the fact that if you can't afford to get to the health care, 
you can't get the health care.
    Senator Begich. Right.
    Dr. Petzel. So it is necessary to support. If that is the 
case, then I certainly would be supportive of providing for 
access to health care for your people in whatever way we need 
to do it.
    Senator Begich. Excellent. Well, if you could, respond in 
more detail as you look at that policy. The big issue for us 
is, I mean, literally, you don't have roads to some of these 
areas. I think a lot of times when people think of rural 
communities, they think of, well, you have got to drive 200 
miles to get to the hospital. In remote Alaska you can't even 
drive two miles, let alone 200 feet, in some of these areas. So 
your review of that would be great, and obviously your support.

    [The information requested during the hearing follows:]

 Response to Request Arising During the Hearing by Hon. Mark Begich to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Request: What is your opinion on a waiver to the existing law to 
exempt those veterans whose only means of travel to their appointment 
is by air or sea or exceeds a designated certain distance? And how will 
you work to waive the requirements?
    Response. The Department of Veterans Affairs (VA) is committed to 
ensuring that health care services are accessible to all enrolled 
Veterans. VA currently offers air transportation to Veterans based on 
clinical need, and I think this is a good basis for our program. In 
Veterans Integrated Service Network (VISN) 23, some Veterans had to 
travel significant distances for care, so I understand your concern and 
the challenges Veterans face. For example, Veterans residing in Minot, 
ND and visiting a VA clinic there would have to travel approximately 6 
hours to receive care at the Fargo VA Medical Center. I understand VA 
has looked at the financial costs and benefits of providing air travel 
to other VA facilities for Alaska Veterans compared with securing 
health care through contracts or fee-basis. This analysis found that 
providing air transportation was significantly less costly than seeking 
care in the community, so these proposals can make good economic sense 
while improving the health care of Veterans.
    If confirmed, I am interested in working with you and the Committee 
to further improve our ability to deliver the care Veterans need. I 
believe it is appropriate for VA to administer a program that provides 
air or sea transportation when no other mode of transportation is 
available (for example, in some highly rural areas or in the Pacific 
Islands), or when the Veteran's condition necessitates travel by means 
other than driving. There are other factors that may also justify a 
waiver of our normal beneficiary travel requirements, and I look 
forward to hearing your ideas on this matter.

    Senator Begich. I want to ask one broad question, and then 
I have two quick ones. I read that your Strategic Plan expires 
in about 11 or 12 months. I am assuming the VA is in the 
process of revising that, their long-range strategic plan. Do 
you have any comment on that?
    Dr. Petzel. Well, Senator, my understanding at the 
Department level, we went through--they went through a process 
that began late spring or early summer of developing a 
strategic plan and then developing operating plans.
    Senator Begich. Excellent.
    Dr. Petzel. That for 2010 is pretty well put to bed, if you 
will. Now we are looking at execution of the operating plans.
    As a part of that process, again, it is my understanding, 
there will be a periodic review. Again, next spring or summer, 
there will be another look strategically and a revision of that 
plan. It is a living document. It is not cast in stone and it 
will be reviewed periodically, as I understand it.
    Senator Begich. Yes. There is an annual and then there is a 
5-year plan. The one I am thinking of, this longer-range plan, 
what kind of a plan is there? There is a 2006 through 2011 
plan, and now it is about to expire. So that is the one I am 
thinking of. So if you could respond back for the record on 
that, that will be great.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Mark Begich to 
   Robert A. Petzel, M.D., Nominee to be Under Secretary for Health, 
  Veterans Health Administration, U.S. Department of Veterans Affairs
    Request: When should Congress expect the VA to publish the next 
long-range strategic plan? Is there a way to give to this Committee a 
report card or milestones of progress made, rather than waiting until 
the report is complete?
    Response. It is my understanding that the VA Strategic Plan for FY 
2010-2014 is in development at this time and is currently being 
reviewed by the Office of Management and Budget (OMB). I understand 
that the Department expects to publish the VA Strategic Plan for FY 
2010-2014 in the near future.
    If confirmed, I would be happy to work with the Department to 
update you and the Committee on VA's progress in implementing the VA 
Strategic Plan. VA will be pleased to brief you and the Committee on 
the results contained in this report each year.

    Senator Begich. Thank you, Mr. Chairman, I will end on 
this. If I could follow-up on Senator Murray's question 
regarding staffing for VA and the concern with Iraq and 
Afghanistan veterans that are coming through. I want to make 
sure I understood what you said, and I appreciate that you are 
going to be very candid with the Committee as the budget 
process goes forward.
    My assumption is, based on your comments, there has been a 
calculation, a review of what this might be in the long term. 
So I am assuming that there is some sort of report that has 
been done to look out on the horizon about what is going to 
happen. That is what you are utilizing to develop your 
budgetary process. Is that a document that is available for us 
in this Committee to review? I am assuming there is no way you 
can plan 2-3 years out without doing a full review. My guess is 
that you have and there is something that is in process.
    Dr. Petzel. That is an excellent question, Senator Begich, 
and I don't know. I have seen the projections, or have heard of 
the projections for 2011, but I don't know what sort of a 
document exists. I would be delighted to find out and we can 
get back to you in the posthearing questions.
    Senator Begich. If you could share that with the Committee, 
I think that was what Senator Murray was asking, is that long-
term? I just assume there is a planning document somewhere.
    Again, thank you very much. I congratulate you in advance; 
and I agree with the Chairman, the faster we can make these 
appointments happen, the better off the VA is and the more 
services we can deliver to our veterans. So thank you for your 
willingness to serve.
    Dr. Petzel. Thank you, Senator.
    Chairman Akaka. Thank you very much, Dr. Petzel, for your 
responses.
    Before we let you go, let me just ask this. I think we both 
share the view that the VA needs solid partnerships with its 
academic affiliates. You indicated that there is room for 
improvement in this area. What specific steps will you take to 
strengthen academic partnerships?
    Dr. Petzel. That is an excellent question, because 
affiliations, Senator Akaka, in my mind, are a very important 
part of why VA is as good as it is today.
    Just a bit of background. There was a Blue Ribbon Panel 
that was empowered by previous Secretaries, the recommendations 
for which Secretary Shinseki has recently signed off on, and I 
believe there will be a briefing for this Committee sometime in 
the near future, right after the first of January. In it, there 
are a number of recommendations, and I don't want to preempt 
that briefing, but just briefly, the idea that there will be 
structure set up at the network level for interacting with 
affiliates. Affiliates feel that as we develop networks, the 
local management's responsibility for affiliations and power, 
if you will, in affiliations was somewhat diluted and they are 
looking for, and I strongly support this, some sort of a 
mechanism for interacting with affiliates at the network level.
    The second thing was the development of a national 
affiliations group, if you will, that not only includes the 
medical school affiliations, but nursing schools and other 
educational affiliates that can have a more national 
perspective and influence on what happens with affiliations. 
They are very important. We train 100,000 individuals in our 
medical centers each year. Seventy percent of the physicians 
and psychologists that work in the VA trained in the VA medical 
centers. They are important training resources for the Nation 
and they are very important recruitment tools, if you will, for 
the VA.
    So I think it is very important that we strengthen them and 
I would see this national structure and accountability for 
having working relationships with affiliates set up at the 
network level as being important steps.
    Chairman Akaka. Thank you, Dr. Petzel. I have other 
questions I will submit for the record.
    Senator Begich, do you have any second round?
    Senator Begich. Yes, one quick question. I am glad you 
mentioned the Blue Ribbon Panel. If I could just ask one, which 
you don't have to answer now since I will put it in the record. 
In regards to your nurse practitioners and the program that you 
developed, I think it was in three or four States, that I found 
very interesting, and very intriguing regarding the delivery of 
services from nurse practitioners in clinics. It is much more 
efficient in a lot of ways, because you can deliver more 
nurses, in a sense, to the field quicker than doctors, 
obviously, because their education span is less than 7-9 years, 
so you can get them sooner.
    So I would be very interested--I am assuming with the Blue 
Ribbon, if we get something down the path here in January, that 
this may be part of the discussion. Am I safe to say that, or--
--
    Dr. Petzel. Yes, Senator, you are.
    Senator Begich. OK. Very good. That is all, Mr. Chairman. 
Thank you.
    Chairman Akaka. Thank you. Thank you very much.
    I want to thank you again, Dr. Petzel, for your 
participation in today's hearing. It is helpful to us. Today's 
veterans will benefit from your experiences as an educator and 
administrator and a leader in the delivery of high-quality 
health care.
    But with this in mind, I would like to bring Dr. Petzel's 
nomination before the Committee and full Senate as soon as 
possible. I ask that any posthearing questions for Dr. Petzel 
be sent to the Committee's Legislative Clerk by noon tomorrow 
with the intention of the Committee voting on the nomination 
next Wednesday, the 16th.
    So again, thank you very much, and I thank your family for 
joining you here.
    Dr. Petzel. Thank you, Senator Akaka, and to the Committee, 
for the opportunity to appear.
    Chairman Akaka. Thank you.
    Good morning and welcome, Dr. Perea-Henze.
    Dr. Perea-Henze. Good morning, Mr. Chairman.
    Chairman Akaka. The Committee will now turn to the 
President's nomination of Dr. Raul Perea-Henze to be Assistant 
Secretary of Policy and Planning at the Department of Veterans 
Affairs.
    I am delighted that with this nomination and Dr. Petzel's, 
we are closer to providing Secretary Shinseki with his full 
leadership team at VA. I am hopeful that this Committee, and 
then the full Senate, will move expeditiously to consider Dr. 
Perea-Henze's nomination. It is important that the position of 
Assistant Secretary for Policy and Planning be filled as soon 
as feasible.
    Dr. Perea-Henze has extensive public and private sector 
experience. Most recently, he was a senior executive at Pfizer 
and Merck. Earlier, he served as Deputy Assistant Secretary of 
Commerce for Management and Budget, and Senior Health Care 
Advisor at the White House during the Clinton Administration.
    Dr. Perea-Henze's academic background includes a medical 
degree from the University of Mexico and a Master's Degree in 
Public Health with a concentration in Health Policy and 
Management from Yale University's School of Medicine.
    The Assistant Secretary for Policy and Planning provides 
advice, plans, and reports to the Secretary and other VA senior 
leaders in the area of corporate policy, strategic planning and 
management improvement, to support VA's endeavors to provide 
benefits and services to our Nation's veterans in an effective 
and efficient manner.
    I have received every indication that Dr. Perea-Henze 
combined service in the public and private sectors is well 
regarded and will be pertinent to the position for which he has 
been nominated.
    Dr. Perea-Henze, I will tell you the same thing I told 
Secretary Shinseki during his confirmation hearing. Assuming 
your confirmation as the next Assistant Secretary for Policy 
and Planning, you will face tremendous challenges. In my view, 
holding a leadership position at VA is one of the most 
challenging jobs in or out of government, and that is never 
truer than in a time of war as we are in at the present time.
    I look forward to your testimony today, your responses to 
questions from Committee Members, and to any posthearing 
questions.
    Senator Burr, any opening statement?
    Senator Burr. No. I also welcome the doctor and apologize 
that with the schedule up here I have not had the opportunity 
to sit down privately with you, but certainly look forward to 
this hearing and your confirmation.
    Chairman Akaka. Thank you very much.
    Senator Begich.
    Senator Begich. No statement. Again, I look forward to the 
question and answer period, and thank you very much for your 
willingness to serve.
    Chairman Akaka. Under the rules of the Committee, Doctor, 
the testimony of all Presidential nominees appearing before the 
Committee shall be taken by oath. So, Doctor, will you please 
now stand and raise your right hand?
    Do you solemnly swear that the testimony you are about to 
give this Committee, your responses to the Committee's 
questionnaire, and your responses to all questions, both live 
and in writing, before the Senate Committee on Veterans' 
Affairs will be the truth, the whole truth and nothing but the 
truth, so help you, God.
    Dr. Perea-Henze. I do.
    Chairman Akaka. Thank you.
    Doctor, will you please begin with your statement?

  STATEMENT OF RAUL PEREA-HENZE, MD, MPH, DESIGNATE TO BE THE 
ASSISTANT SECRETARY FOR POLICY AND PLANNING, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Dr. Perea-Henze. Thank you, Mr. Chairman. Chairman Akaka, 
Senator Burr, distinguished Members of the Senate Committee on 
Veterans' Affairs, thank you for the opportunity to appear 
before you today. I am deeply honored and humbled by President 
Obama's nomination to serve as Assistant Secretary for Policy 
and Planning at the Department of Veterans Affairs, and I 
greatly appreciate the President's and Secretary Shinseki's 
confidence in me to lead this important function and help 
achieve their vision of transforming the VA into a 21st Century 
organization.
    Although my family is not physically present here, I stand 
on their shoulders--those members of my family who served in 
government like my grandmother, the military, my grandfather, 
or as physicians like my father and mental health professionals 
like my mother--as I have the honor to appear in front of you 
today. They have been my inspiration to pursue a passion for 
finding ways to help others.
    As a physician and public health professional, I have 
strived to find innovative cures and secure access to medicines 
for those who need them, so they can, like me, hope to achieve 
their full God-given potential. If confirmed, I hope to bring 
almost 25 years of experience in planning and strategy, to 
serve the needs of veterans and contribute to their well-being 
and the well-being of those who care for them.
    First, as a physician, I began my career in policy and 
planning in New York City government where I oversaw the 
development of patient center services at one of the largest 
public hospitals in the Nation; ensured the optimization of 
funds and services for those affected with HIV and AIDS and 
other infectious diseases; and created a 10-year strategic plan 
for mental health and substance abuse services.
    At the Commerce Department, I managed policy issues as a 
White House Fellow and Chief of Staff for the Under Secretary 
for International Trade, and later I co-led an organization of 
close to 700 people as the Deputy Assistant Secretary for 
Administration. These experiences provided me with a broad 
understanding of how the Federal Government works and made me 
aware of the value and expertise of those who have devoted 
their careers to public service.
    My subsequent experience in the private sector, advising 
and working for leading Fortune 100 companies in management 
consulting and in the health care sector, provided me with 
business acumen and a results-oriented approach driven by a 
long-term vision.
    I believe with these combined capabilities I can bring 
significant value and innovation to those served by the 
Department of Veterans Affairs--the veterans and those caring 
for the veterans.
    The Assistant Secretary for Policy and Planning is 
responsible for providing advice and counsel to the Secretary 
and other senior leaders, and helping formulate corporate 
policy and strategic planning. If confirmed, I commit to 
faithfully advise the Secretary and Deputy Secretary, and to 
work with Congress to provide better services and benefits for 
our Nation's veterans.
    The Office of Policy and Planning is responsible for 
developing the data and analysis to drive strategic planning 
and policy development for the Department. This critical 
function is essential to the transformation effort as 
articulated by President Obama and Secretary Shinseki. The 
appropriate collection, analysis, and management of accurate 
data from a national survey of veterans and other population 
studies, as well as measurement of the effect of VA services 
and benefits, is essential to informing sound policy decisions. 
Through such efforts, the Office of Policy and Planning will be 
instrumental in helping VA achieve the President's and 
Secretary Shinseki's objectives.
    In addition, if confirmed, I intend to establish and 
maintain strong working relationships with my counterparts at 
the Department of Defense and other key organizations to 
improve the delivery of health services and benefits to 
servicemembers and veterans.
    If confirmed, I also hope to bring stability, vision, and 
innovation to the Office of Policy and Planning. I will work to 
optimize data collection and scientific methodologies for the 
analysis of the veteran populations and VA services and 
benefits, so this information can transform the services they 
and their loved ones receive.
    I will work tirelessly to support Secretary Shinseki's 
goals for a VA that is people-centric, results-oriented, and 
forward-looking. I believe that I can provide strong leadership 
and clear vision to this office, so it can be regarded as a 
model across the Federal Government.
    In closing, I would like to thank this distinguished 
Committee again for the opportunity to appear before you today. 
If confirmed, I stand ready to work with Congress and to 
advance President Obama's and Secretary Shinseki's goal to 
transform the VA into a 21st Century organization centered on 
those it serves.
    I look forward to any questions you may have.
    [The prepared statement of Dr. Perea-Henze follows:]

 Prepared Statement of Raul Perea-Henze, M.D., Nominee to be Assistant 
 Secretary for Policy and Planning, U.S. Department of Veterans Affairs

    Chairman Akaka, Senator Burr, Distinguished Members of the Senate 
Committee on Veterans' Affairs, thank you for the opportunity to appear 
before you today.
    I am deeply honored and humbled by President Obama's nomination to 
serve as Assistant Secretary for Policy and Planning at the Department 
of Veterans Affairs. And I greatly appreciate the President and 
Secretary Shinseki's confidence in me to lead this important function 
and help achieve their vision of transforming the VA into a 21st 
century organization.
    Although my family is not physically present here, I stand on their 
shoulders. Those members of my family who served in government, the 
military, or as physicians and mental health professionals, as I have 
the honor to appear in front of you today. They have been my 
inspiration to pursue a passion for finding ways to help others. As a 
physician and public health professional, I have strived to find 
innovative cures and secure access to medicines for those who need them 
so they can, like me, hope to achieve their full God-given potential.
    If confirmed, I hope to bring almost 25 years of experience in 
planning and strategy to serve the needs of Veterans and contribute to 
their well-being and the well-being of those who care for them. I began 
my career in policy and planning in New York City Government, where I 
oversaw the development of patient-centered services at one of the 
largest public hospitals in the Nation, ensured the optimization of 
funds and services for those affected with HIV/AIDS and other 
infectious diseases, and created a 10-year strategic plan for mental 
health and substance abuse services. At the Commerce Department, I 
managed policy issues as a White House Fellow and Chief of Staff for 
the Under Secretary for International Trade, and later, I managed an 
organization of close to 700 people, as a Deputy Assistant Secretary 
for Administration. These experiences provided me with a broad 
understanding of how the Federal Government works and made me aware of 
the value and expertise of those who have devoted their careers to 
public service. My subsequent experience in the private sector, 
advising and working for leading Fortune 100 companies in management 
consulting and in the health care sector, provided me with business 
acumen and a results-oriented approach driven by a long-term vision. I 
believe with these combined capabilities I can bring significant value 
and innovation to those served by the Department of Veterans Affairs: 
Veterans and those caring for Veterans.
    The Assistant Secretary for Policy and Planning is responsible for 
providing advice and counsel to the Secretary and other senior leaders 
and helping formulate corporate policy and strategic planning. If 
confirmed, I commit to faithfully advise the Secretary and Deputy 
Secretary, and to work with Congress to produce better services and 
benefits for our Nation's Veterans.
    The Office of Policy and Planning is responsible for developing the 
data and analysis to drive strategic planning and policy development 
for the Department. This critical function is essential to the 
transformation effort, as articulated by President Obama and Secretary 
Shinseki. The appropriate collection, management, and analysis of 
accurate data from the National Survey of Veterans and other population 
studies, as well as measurement of the effect of VA's services and 
benefits, is essential to informing policy decisions. Through such 
efforts, OPP will be instrumental in helping VA achieve the President 
and Secretary Shinseki's objectives.
    In addition, if confirmed I intend to establish and maintain strong 
working relationships with my counterparts at the Department of Defense 
and other key organizations to improve the delivery of health care 
services and benefits to Servicemembers and Veterans.
    If confirmed, I hope to bring stability, vision and innovation to 
the Office of Policy and Planning. I will work to optimize data 
collection and scientific methodologies for the analysis of the Veteran 
population and VA services and benefits so this information can serve 
transform the services they and their loved ones receive. I will work 
tirelessly to support Secretary Shinseki's goals for a VA that is 
people-centric, results-oriented and forward-looking. I believe that I 
will provide strong leadership and clear vision to this office so it 
can be regarded as a model across the Federal Government.
    In closing, I would like to thank this distinguished Committee 
again for the opportunity to appear before you today. If confirmed, I 
stand ready to work with Congress and to advance President Obama's and 
Secretary Shinseki's goal to transform the VA into a 21st Century 
organization centered on those it serves. I look forward to any 
questions you may have.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Daniel K. Akaka to 
Dr. Raul Perea-Henze, Nominee to be Assistant Secretary for Policy and 
             Planning, U.S. Department of Veterans Affairs

    Question 1. Have you discussed with Secretary Shinseki and Deputy 
Secretary Gould the duties and the role you would assume as Assistant 
Secretary for Policy and Planning if you are confirmed? If so, what 
specific areas of the job were discussed?
    Response. Yes, both Secretary Shinseki and Deputy Secretary Gould 
have spoken with me about the role. They will be looking to me and the 
Office of Policy and Planning (OPP) to provide independent analysis to 
them and other senior leaders as they make Department-wide policy and 
planning decisions. If confirmed, I look forward to leading a proactive 
policy development process that involves multiple organizations across 
the Department.

    Question 2. Have you formulated any thoughts on what your new job 
responsibilities will be and how you will approach those 
responsibilities if confirmed?
    Response. If confirmed, I am committed to work on the President's 
and Secretary Shinseki's priorities to address homelessness, mental 
health, health services, and benefits for the Veteran population as 
well as enhancing the VA/DOD relationship. I am also committed to 
ensure that the Office of Policy and Planning becomes a valued partner 
to the senior leaders at the VA, Congress, and other agencies helping 
develop policy to transform the Department to be veteran-centered, 
results-oriented and forward-looking.

    Question 3. If confirmed, what would you most like to accomplish in 
your new position? What would you hope your legacy to the Department 
would be?
    Response. If confirmed, my efforts will be focused on ensuring that 
the Office of Policy and Planning provides the data and analysis to 
guide effective decisionmaking, and that the transformation strategy 
outlined by the Secretary is executed effectively. Ultimately, these 
two accomplishments would ensure improved services and benefits for 
Veterans. I would hope my legacy would be to achieve Department-wide 
acceptance of the transformational programs for long-term and 
sustainable improvements in how services and benefits are delivered to 
Veterans and their families.

    Question 4. What are your top priorities for the office you will 
oversee, and what can Congress do to assist you in your new role?
    Response. If confirmed, I would have three top priorities for the 
Office of Policy and Planning: (1) guiding the effective execution of 
the transformation strategy for the Department; (2) providing 
independent analysis to enable strategic, multi-year planning for the 
Department; and (3) leading a robust policy development capability that 
continually improves and refines policy to benefit Veterans. I would 
look forward to working with Congress to achieve these goals.

    Question 5. How would you describe your management style and how is 
it suited to this particular position?
    Response. I pride myself in being an active listener and a results-
oriented decisionmaker; always involving others in shaping projects and 
defining priorities; encouraging consensus and the development of 
science-based innovative methodologies for problem solving while owning 
ultimate accountability for the team's performance; and placing value 
in others' expertise, nurturing a team spirit, and individual 
development.

    Question 6. How will you work to incorporate the expertise of 
career employees into day-to-day management decisions?
    Response. I have learned from my previous experience in government 
that career employees are valuable subject matter experts who have a 
lot to contribute to management decisions. They possess useful 
institutional knowledge about what has been tried before and its 
results. They often have great insight into how to develop and 
implement new approaches. If confirmed, I would immediately meet with 
the career staff at the Office of Policy and Planning and throughout 
the VA and engage them as partners in the policy development and 
implementation process.

    Question 7. What is your previous level of exposure to veterans-
related issues? What will you do to become familiar with such issues?
    Response. Although, I will have much to learn about the Department 
of Veterans Affairs and the issues facing our Veterans, I have 
significant experience in corporate and government policy and strategic 
planning in large organizations similar to the Department of Veterans 
Affairs in their complexity and commitment to excellence. The Assistant 
Secretary for Policy and Planning is responsible for providing advice 
and counsel to the Secretary and other senior leaders helping formulate 
corporate policy and strategic planning. If confirmed, I commit to 
become thoroughly familiar with the issues facing our Veterans and to 
diligently and faithfully advise the Secretary and Deputy Secretary.
    If confirmed, and with the help of this Committee, I will bring 
stability, vision and innovation to optimize data collection and 
scientific methodologies for the analysis of the veteran population, so 
this information can serve to transform the services they and their 
loved ones receive. I will immediately meet with career staff and 
examine all operations in OPP in full detail. I will work tirelessly to 
support Secretary Shinseki's transformation goals for VA, with a 
special priority on transformational initiatives residing in OPP. These 
initiatives will be guided by Secretary Shinseki's three principles: 
people-centric, results-oriented and forward-looking. I hope to provide 
strong leadership and clear vision to this office so it can be regarded 
as a best practice model across the Federal Government.

    Question 8. How do your previous experiences in government 
contribute to your qualifications for this new position?
    Response. If confirmed, I will bring nearly 25 years of experience 
in planning and strategy to serve the needs of Veterans and contribute 
to their well-being and of those who care for them. My experience at 
the Commerce Department as a Chief of Staff for the Under Secretary for 
International Trade managing policy issues and later, managing an 
organization of over 700 people as a Deputy Assistant Secretary for 
Administration, provides me with understanding of how to accomplish 
goals within the Federal Government setting and makes me aware of the 
value and expertise of those who have devoted their careers to public 
service. My experience as Chief of Staff for the New York City 
Department of Mental Health and Associate Commissioner for Strategic 
Planning allows me to bring insights in long term strategy for mental 
health services, one of the key priorities for Secretary Shinseki and 
the VA. As a chief medical officer of one of the largest public 
hospitals in the Nation, I also bring understanding of direct patient 
care and regional planning to develop centers of excellence, which is 
another top priority for Secretary Shinseki and this Administration. My 
experience as Vice President for Medical Affairs for the New York City 
Health & Hospitals Corporation, the largest public hospital system in 
the Nation, provided me with the opportunity to work with the VA 
hospital system facilitating the graduate medical education agreements 
and joint research activities that are core functions for the Veterans 
Health Administration. I believe with these combined capabilities I can 
bring significant value and innovation to those served by the 
Department of Veterans Affairs.

    Question 9. If confirmed, how would you oversee certain management 
activities and processes that require coordination across the 
Department?
    Response. If confirmed, I look forward to working with my 
counterparts in the other staff offices and administrations through the 
existing governance process at the Department. I would seek to ensure 
that the principles outlined by Secretary Shinseki--Veteran-centric, 
results-oriented and forward looking--guide our work together. I 
believe the key to managing coordination and collaboration activities 
across a large, diverse organization like VA is to first garner 
agreement for these principles and then to create a solution-focused 
atmosphere with a high level of accountability.

    Question 10. What do you think your role would be in VA budget 
formulation?
    Response. While ultimate responsibility for VA budget formulation 
resides with VA's Office of Management, the Office of Policy and 
Planning (OPP) makes an important contribution to this process by 
developing the Department's strategic plan. OPP can help make sure that 
the budget request is aligned with the priorities identified in the 
strategic plan. In addition to strategic planning, I understand that 
OPP makes other important contributions to the budget development 
process. By creating and maintaining VA's Veteran population model and 
through its actuarial analysis capabilities, OPP provides necessary 
data required to make accurate cost and workload projections. If 
confirmed, I would work to make sure that OPP is providing useful input 
to the budget formulation process for the entire Department.

    Question 11. Much has been said about transforming VA into a 21st 
century organization. What do you see as the greatest challenges in 
this transformation and how can the Office of Policy and Planning 
assist VA in completing this transformation?
    Response. From my previous experience leading change within 
institutions, I know that the most difficult challenges in 
transformation are making sure that change is implemented in a 
meaningful and sustainable way, and that it produces the intended 
outcomes. I believe OPP can make an important contribution to the 
transformation process by helping to manage the execution of the 
strategy. That is, OPP can provide support and analysis to the 
integrated teams responsible for implementing change and to the 
Departmental leadership overseeing their efforts. OPP can work with the 
Office of Management to make sure that proper performance metrics are 
developed and useful data is gathered and analyzed to measure the 
transformation efforts. If confirmed, I intend to make transformation 
an important focus of OPP's work.

    Question 12. Secretary Shinseki has placed emphasis on improving 
the level of collaboration and cooperation between VA and DOD. What do 
you believe will be your role in dealing with areas of concern 
involving the two departments?
    Response. With respect to VA/DOD collaboration and cooperation, I 
recognize the importance both departments place on the delivery of 
health care services and benefits for returning Servicemembers and the 
smooth transition from military service to Veteran status. If 
confirmed, I will work to maximize collaboration with DOD through the 
VA/DOD Collaboration Service and VA's involvement with the VA/DOD 
Senior Oversight Committee (SOC) and Joint Executive Council (JEC). 
VA's work through these two bodies can emphasize developing and 
executing clear policies and guidelines, promoting opportunities for 
sharing resources, and establishing mechanisms for enforcing 
accountability with its partners at DOD.

    Question 13. If confirmed, what metrics do you intend to use to 
determine the success of VA and DOD collaboration, and how did you 
arrive at those metrics?
    Response. If confirmed, I will evaluate the processes through which 
the Department establishes metrics for determining success in its 
activities with DOD. I understand that performance measures currently 
are being developed for VA/DOD activities for the FY 2010-2012 period 
through the VA/DOD Joint Strategic Plan (JSP). I also understand that 
the SOC has developed performance metrics to assist the Committee in 
its continued oversight of the delivery of benefits and services to the 
wounded, ill, and injured. Should I be confirmed, I intend to work with 
my counterparts at DOD to further develop meaningful performance 
metrics intended to produce real results that benefit Servicemembers 
and Veterans.

    Question 14. DOD and VA are expanding the Disability Evaluation 
System pilot program to more military facilities. However, the 
Committee has heard reports of some tension between VA and DOD as to 
who is paying for what services under that program. If confirmed, will 
you ensure that neither Department is shouldering the financial burden 
for this program?
    Response. I believe that through the Disability Evaluation System 
pilot program, VA and DOD have committed to creating a more transparent 
and efficient process for medically separated Servicemembers. It is my 
understanding that VA and DOD are currently developing policies on the 
respective financial responsibilities in each Department that will 
ensure fair burden sharing for the DES pilot expansion. If confirmed, I 
will evaluate these policies and work with DOD so that both departments 
share the burden fairly.

    Question 15. What more could be done in order to ensure a smooth 
transition from Servicemembers to civilian status?
    Response. If confirmed, I will be proud to be part of a VA team 
that is working to ensure a smooth transition from military service to 
Veteran status. There is an ongoing concern about creating a smooth 
transition for those who are wounded, ill and injured from OIF and OEF 
and for activated Guard and Reservists transitioning from active duty 
to Veteran's status. I fully appreciate that this is an extremely 
important issue for the Committee, for the Administration, for 
Secretary Shinseki, and most importantly for Servicemembers becoming 
Veterans. If confirmed, I will aggressively examine this issue and 
ensure that we are doing everything possible to make the transition to 
Veteran status a smooth one.

    Question 16. Are you satisfied that veterans' data collected by the 
Office of Policy and Planning adequately safeguarded against 
inappropriate release? If not, what can be done to better safeguard 
sensitive information?
    Response. I understand that VA has taken extraordinary efforts over 
the past few years to ensure that data collected by the Office of 
Policy and Planning (OPP) is adequately safeguarded against 
inappropriate release and use. However, I do not know at this point 
whether further safeguards are needed. If confirmed, I will review the 
data protection policies within OPP and enact any necessary changes to 
improve data security.

    Question 17. How can the Office of Policy and Planning better 
support continual enhancement of policies, programs, benefits, and 
services to veterans?
    Response. I believe this is an area where the Office of Policy and 
Planning (OPP) can make important contributions. First, OPP can provide 
independent data analysis to help senior leaders make informed 
decisions about how to improve programs, benefits, and services. By 
providing useful data and analysis on an ongoing basis, OPP can help 
the Department to continually refresh and refine its approach to 
delivering services and benefits. Second, by continuing to conduct 
program evaluations and initiate business process reengineering for 
different functions, OPP can help to improve VA programs and benefits. 
Third, OPP can incorporate findings of cutting edge policy research and 
identify ways to apply it to policy and programmatic design at VA to 
support better delivery of services to Veterans and their families. If 
confirmed, I would like to see OPP take a more proactive role in 
helping the Department to continually assess and improve policies, 
services, and benefits.

    Question 18. How can the Office of Policy and Planning facilitate 
cooperative and collaborative data gathering and analysis across the 
Department?
    Response. I believe this is a natural role for OPP to play. Access 
to reliable, accurate, and useful data is essential to managing a large 
organization like VA. OPP can facilitate data gathering by helping the 
Department to develop a standardized data governance process. The 
National Center for Veterans Analysis and Statistics (NCVAS) within OPP 
can collect, validate, analyze, publish and disseminate data for use by 
the Department and other stakeholders. If confirmed, I look forward to 
working with the data experts within OPP and across the Department to 
identify ways to more effectively gather, manage, and use data to 
inform good decisionmaking.

    Question 19. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Response. Yes. If confirmed, I look forward to working with the 
Committee to accomplish our shared goal of improving VA services and 
benefits to Veterans.
                                 ______
                                 
Response to Supplemental Prehearing Questions for Dr. Raul Perea-Henze, 
    Nominee to be Assistant Secretary for Policy and Planning, U.S. 
                     Department of Veterans Affairs

    Question 1. In connection with you work at Pfizer, Inc., it appears 
that you delivered speeches at various conferences. The materials from 
at least some of those conferences include the attached biographical 
sketch of you. In light of some ofthe information in that document that 
does not appear to be reflected in your questionnaire (such as 
attendance at the JFK School of Govemment of Harvard), clarification 
would be helpful.

    a. Is the information in this document accurate?
    Response. The information in this document is accurate. For about 
three months in 1986, before starting my Masters in Public Health at 
Yale University, I audited courses at the Kennedy School of Government 
at Harvard. I had applied to Harvard as well as Yale, and the auditing 
was an informal arrangement to prepare for graduate school and compare 
programs. I did not include this information on the Committee 
qiestionnaire because of the informal nature of the auditing and 
because I did not pursue a degree at Harvard. Several memberships 
included on the Pfizer document, including my memberships at New York 
Cares, GMHC, and the Ackerman Institute for Mental Health, were not 
included on the Committee questionnaire because they fell outside of 
the ten year window requested in the questionnaire. It appears that I 
inadvertently left offmy Biochemistry and Physiology Fellowship and my 
adjunct teaching role at New York University. I have revised my 
questionnaire to reflect these items.

    b. If there is accurate information reflected in that biography 
that is not reflected in your questionnaire, would you please submit 
and amended questionnaire reflecting that information?
    Response. Yes.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Richard Burr to Dr. 
 Raul Perea-Henze, M.D., M.P.H., Nominee to be Assistant Secretary for 
        Policy and Planning, U.S. Department of Veterans Affairs

    Question 1. The Office of Policy and Planning has a range of 
responsibilities. For fiscal year 2010, the President has requested $26 
million for that office and a staff of more than 93 full-time employees 
to carry out those responsibilities.

    a. What do you see as the key functions performed by the Office of 
Policy and Planning and how does that office help the Department of 
Veterans Affairs (VA) in carrying out its overall mission?
    Response. The Office of Policy and Planning provides independent 
analysis that can be used by senior leaders as they make Department-
wide policy and planning decisions. By serving in a central, 
coordinating role, OPP provides the data, independent analysis, and 
Department-wide perspective to guide policy development.
    OPP also has an important role to play in engaging external 
partners such as other Federal agencies involved in the development of 
policy and programs for Veterans.

    b. What do you see as the key responsibilities of the Assistant 
Secretary for Policy and Planning?
    Response. First, the Assistant Secretary for Policy and Planning is 
responsible for providing advice and counsel to the Secretary and other 
senior leaders and helping to formulate Departmental policy and 
strategic planning. Second, the Assistant Secretary must provide 
leadership to the Office of Policy and Planning and make sure that the 
Office is contributing to the Department's mission in a meaningful and 
results-oriented manner. The Assistant Secretary should ensure that the 
Office of Policy and Planning provides independent analysis to senior 
leaders as they make Department-wide policy and planning decisions. 
Finally, I believe the Assistant Secretary should lead a proactive 
policy development process that involves multiple organizations across 
the Department
    The Office of Policy and Planning is responsible for the critical 
function of data collection and assessment to help develop policy. 
Accurate data from the National Survey of Veterans and other population 
studies, appropriate analysis of these data, and their secure 
dissemination throughout the Department and across sister agencies in 
the Federal Government and the States, are necessary foundations for 
the Department's transformation effort. If confirmed, I want to ensure 
the rigor of these analyses so there is full trust in the results and 
recommendations that emanate from them. OPP will be instrumental in 
helping the VA achieve the President and Secretary Shinseki's 
priorities, including:

    <bullet> Securing accurate and reliable data on mental health, 
homelessness, waiting times for medical care and benefit processing;
    <bullet> Understanding new comprehensive care models that include 
health care, caregiving, and benefits in a veteran-centered approach;
    <bullet> Assisting the Secretary, Deputy Secretary and the 
Administrations to define and implement metrics and a milestone 
approach to transformational programs;
    <bullet> Envisioning and helping to implement innovative models of 
services to optimize value for the Veterans.

    c. How has your background prepared you to take on these 
responsibilities and what prior experiences do you believe qualify you 
to manage a staff and budget of this size?
    Response. If confirmed, I will bring nearly 25 years of experience 
in planning and strategy to serve the needs of Veterans and contribute 
to their well-being and of those who care for them. My experience at 
the Commerce Department as a Chief of Staff for the Under Secretary for 
International Trade managing policy issues and later, managing an 
organization of over 700 people as a Deputy Assistant Secretary for 
Administration, provides me with understanding of how to accomplish 
goals within the Federal Government setting and makes me aware of the 
value and expertise of those who have devoted their careers to public 
service. My experience as Chief of Staff for the New York City 
Department of Mental Health and Associate Commissioner for Strategic 
Planning allows me to bring insights in long term strategy for mental 
health services, one of the key priorities for Secretary Shinseki and 
the VA. As a chief medical officer of one of the largest public 
hospitals in the Nation, I also bring understanding of direct patient 
care and regional planning to develop centers of excellence, which is 
another top priority for Secretary Shinseki and this Administration. My 
experience in the private sector, both in management consulting and in 
the health industry, provides me with business acumen and a results-
oriented approach driven by a long-term vision. I believe with these 
combined capabilities I can bring significant value and innovation to 
those served by the Department of Veterans Affairs: Veterans and those 
taking care of Veterans.

    d. How would you measure your success in fulfilling those 
responsibilities?
    Response. If confirmed, my efforts will be focused on ensuring that 
the Office of Policy and Planning provides the data and analysis to 
guide effective decisionmaking, and that the transformation strategy 
outlined by the Secretary is executed effectively. Ultimately, I will 
measure my success by whether our actions result in improved services 
and benefits for Veterans.
    The transformation initiative seeks to provide measurable goals and 
results at every milestone. These goals will be defined early and I 
will ensure close oversight of milestone achievements. Stakeholder 
satisfaction surveys will give us a tangible metric as well as 
statistical analysis of the veteran population before and every year 
since the beginning of the Administration and the transformation 
initiative implementation.

    Question 2. In the book The People Factor, the Deputy Secretary of 
VA and his co-author opine that the Federal Government ``is run by a 
revolving door of political appointees, many with limited management 
skills,'' and that they are ``[r]arely chosen for their proven skills 
at managing large organizations or major organizational changes.'' In 
part, the authors recommend that Congress ``emphasize people management 
skills during the confirmation process for political appointees.''

    a. Would you please describe your prior management experience?
    As outlined above, I have 25 years of experience in both the public 
and private sector managing small and large organizations, from a 
current team of six individuals responsible for policy matters at one 
of the largest global pharmaceutical companies to a group of over 700 
people as a Deputy Assistant Secretary for Administration at the US 
Commerce Department, responsible for areas as diverse as procurement, 
small businesses, human resources, grants, civil rights and facilities. 
As Vice President of Medical Affairs for the New York City Public 
Hospital System, the largest in the Nation, I oversaw the creation of a 
department for infectious diseases at a time when New York City 
suffered severely from AIDS and Tuberculosis. I was responsible for 
developing the 10-year Strategic Plan for Mental Health Services, which 
created and strengthened a vast network of patient-centered community-
based services, relevant to Secretary Shinseki's priority to transform 
the VA into a people-centered organization. As a management consultant, 
I worked with Fortune 100 health organizations advising them in 
organizational and strategy issues for a number of years. This 
experience as well as managing medical operations for the largest 
pharmaceutical company in the world, have provided me with an 
understanding of policy and strategy in complex organizations similar 
in size to the VA.
    In the private sector, I have participated actively in several 
major reorganizations and mergers of large global pharmaceutical 
companies comparable in size and complexity to the Department of 
Veterans Affairs. In this capacity, I successfully managed medical 
operations and policy alignment in a one to two year span to realize 
billions of dollars of savings in efficiencies.

    b. Would you please provide specific examples from prior jobs 
demonstrating your people management skills?
    Several times in my career, I developed and managed new areas, for 
instance, the Department of Infectious Diseases at the public hospital 
system in New York City. In that role, I recruited, trained and 
developed all personnel and increased the budget by $14M in a year. In 
other cases, I have been given an established role where I learned that 
a key to success is to acknowledge and leverage people's expertise. I 
took this approach at the U.S. Department of Commerce in order to 
enhance operations and produce a high-performing organization. As Chief 
of Staff for the Department of Mental Health in New York City and 
Associate Commissioner for Strategic Planning, I was entrusted to work 
with staff and the Mental Health Advocate community to build a roadmap 
to strengthen services for the city's residents in mental health, 
mental retardation, alcoholism and substance abuse. We successfully 
completed and gained budget approval for the 10 year plan as well as 
critical support from advocacy organizations.
    In every assignment, I have valued individual experience and 
contributions as well as promoted a consensus approach to finding 
solutions to priority issues. As a leader, I have provided strategic 
leadership and ongoing hands-on management coupled with a results- 
oriented, long-term approach focused on measurable outcomes.

    c. If we were to ask your prior subordinates about your people 
management skills, what would they say?
    I pride myself in being an active listener and a results-oriented 
decisionmaker, always involving others in the shaping of projects and 
definition of priorities. I encourage consensus and the development of 
innovative science-based methodologies for problem solving while owning 
ultimate accountability for the team's performance. Finally, I value 
others' expertise and focus on nurturing both individual development 
and team spirit.
    I believe my success is measured by the continuation of the 
services developed under my leadership: the office of infectious 
diseases at the largest public hospital system in the Nation; the 
ongoing 10 year strategic plan for mental health services in New York 
City; the reform of credentialing for over 2,000 physicians and 
residents at Kings County Hospital in New York; and the development of 
medical policy departments at the top two pharmaceutical companies in 
the world. In many cases, some of the people I worked with and helped 
mentor are now running those operations.

    Question 3. The authors of The People Factor also opine that 
``[p]olitical leaders have a short-term horizon and are frequently ill 
informed about the mechanics of their agency.'' In part, the authors 
recommend that training be required for political appointees.

    a. To what extent are you already familiar with VA and the programs 
it administers?
    Response. I will have much to learn about the Department of 
Veterans Affairs and the issues that are of concern to our Veterans. I 
come, however, with significant experience in corporate and government 
policy and strategic planning in large organizations similar to the 
Department of Veterans Affairs in their complexity and commitment to 
excellence. The Assistant Secretary for Policy and Planning is 
responsible for providing advice and counsel to the Secretary and other 
senior leaders helping to formulate corporate policy and strategic 
planning. If confirmed, I commit to becoming thoroughly familiar with 
the issues facing our veterans, and to diligently and faithfully advise 
the Secretary and Deputy Secretary.

    b. If confirmed, what steps would you take to enhance your 
knowledge regarding VA and its programs?
    Response. If confirmed, I will immediately meet with career staff 
and solicit input, and examine all operations in OPP in full detail. I 
also will meet with my counterparts within the administrations and 
staff offices to learn more about their operations, their priorities, 
and how OPP can assist them. I intend to engage in informational 
briefings and meetings regarding the ongoing management, planning, and 
policy functions of the Department. I also will welcome information 
from Veterans Service Organizations, special commissions, and other 
stakeholders.

    c. If confirmed, what types of short-term and long-term goals would 
you set?
    Response. If confirmed, in the short term, I would like to focus on 
building OPP's capabilities to achieve the priorities laid out by 
Secretary Shinseki. I will engage in an accelerated onboarding effort 
that will get me in touch with people and priority issues at OPP in the 
shortest amount of time, without compromising the quality of 
information and interactions with staff. I will learn more about the 
priority issues for the Secretary, such as homelessness, mental health, 
and transformation, and work closely with the senior leadership to 
ensure that OPP is contributing to these efforts. I also would like to 
focus on developing meaningful performance metrics to track and measure 
the Department's transformation efforts.
    In the long term, I would make sure that OPP has helped to put in 
place the processes and policies to sustain transformation of VA. I 
would work to ensure we define and implement new standards for quality 
data collection and management. I also would work to ensure there is 
measurable progress in the VA/DOD relationship that is fundamental for 
the seamless transition of the users of the system. Finally, I believe 
OPP can work with the administrations to provide them with data 
analysis, metrics, and useful policy advice related to providing 
Veteran-centered health and benefits for veterans and their families.

    Question 4. The completed questionnaire you submitted to the 
Committee reflects that you made $9,350 in political contributions over 
the past 10 years. However, several on-line resources, including the 
Web sites for the Federal Election Commission and the New York State 
Board of Elections, appear to reflect other contributions made by you 
during that time period. For example, those resources reflect a $1,000 
contribution to ``Friends of Joe Mesi'' in 2008.

    a. Would you please clarify whether you have made political 
contributions in the past 10 years in addition to those listed in your 
initial questionnaire?
    It appears that I inadvertently left off several contributions from 
my original Senate questionnaire. Below is a complete list of 
contributions, based on public sources.


2009                    $1,000                   DNC
2008                    $2,300                   Obama for America
2008                    $7,000                   Obama Victory Fund
2008                    $1,500                   Gil Action--NY Senate Race
2008                    $1,000                   Friends of Joe Mesi
2007                    $ 250                    Carlos Del Toro for VA 
                                                 Assembly
1999                    $ 500                    Al Gore via Gore 2000 Inc.



    b. If so, would you please submit an amended questionnaire listing 
all contributions? Yes.

    Question 5. In response to question #12 in the questionnaire, you 
noted several organizations for which you formerly held an office. The 
Web sites for some of those organizations (which may be outdated) 
continue to identify you as being an officer.

    a. Would you please clarify whether you are currently an officer in 
any organizations? If so, what is the nature of your responsibilities?
    No, I am not currently an officer in any organization, nor have I 
been since January 1, 2007.

    b. Would you please clarify whether you are currently a member of 
any organizations?
    The only organizations of which I am currently a member are:

    1. New York Academy of Medicine
    2. World Medical Association
    3. Clinton Global Initiative
    4. Outgiving/Gil Foundation
    5. Yale Club of New York City

    c. Would you also please clarify what organizations you intend to 
maintain your membership with, if confirmed?
    Response. If confirmed, I intend to maintain my memberships in the 
following organizations:

    1. New York Academy of Medicine
    2. Yale Club of New York City
    3. World Medical Association
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Patty Murray to 
 Raul Perea-Henze, M.D., M.P.H., Nominee to be Assistant Secretary for 
        Policy and Planning, U.S. Department of Veterans Affairs

    Question 1. VA construction is a concern that every member of the 
Committee shares. Whether through CARES or other planning processes we 
have a huge amount of construction projects we have promised our 
veterans, but the VA has limited funding to address these issues. In 
the Puget Sound Health Care System alone, the Seattle VA has a New 
Mental Health and Research Building, seismic retrofitting of a bed 
tower and, in Tacoma, a new hospital building at American Lake on its 
plate.

    a. What assurances can you give me that these projects will be 
completed in a timely fashion?
    Response. I am not currently familiar with these projects. If 
confirmed, I will look into these projects and evaluate their progress. 
In general, I believe the Office of Policy and Planning can work 
together with the Administrations and staff offices to evaluate and 
prioritize construction projects to ensure that the Department of 
Veterans Affairs (VA) directs its construction funds to the areas where 
it will do the most for Veterans.

    b. How are you going to ensure major construction projects get off 
the ground in a timely manner so our veterans can be assured they are 
getting the investments we have promised them?
    Response. As referenced above, I believe the Office of Policy and 
Planning can assist with coordinating efforts and help ensure the 
prioritization of construction projects through analysis and planning. 
Funding decisions should align with agreed upon Departmental 
priorities. The Office of Policy and Planning (OPP) can work with 
organizations across VA to foster an environment of accountability with 
respect to these projects. If confirmed, I look forward to working with 
you to provide Veterans the benefits and services they deserve.

    Question 2. As you know, veterans have a much higher unemployment 
rate than their counterparts in the civilian world. I told the 
Committee in a hearing about veterans unemployment three weeks ago that 
of the nearly 2,300 members of the Washington National Guard's 81st 
Brigade Combat Team who came back from theater this summer, about half 
of them requested direct job placement. In fact, only 20 percent of 
those who sought this assistance have been able to obtain a job. As you 
know, maintaining employment is vital to ensuring a higher quality of 
life for our veterans and we seem to be struggling to make the 
connections needed to assure veterans obtain employment. If confirmed 
as the VA's head of policy and planning, what do you think we can do to 
improve employment assistance services to veterans?
    Response. If confirmed, I look forward to working with you, both in 
your role as a member of the Senate Veterans' Affairs Committee and as 
Chairman of the Health, Education, Labor and Pensions Subcommittee on 
Employment & Workplace Safety, to improve the current employment 
situation for Veterans. This is an area where VA can leverage its 
partnerships with the Department of Defense and the Department of Labor 
to improve employment opportunities for Veterans through effective 
outreach, job counseling, training, education, and job placement. 
Secretary Shinseki has several Veterans employment initiatives in 
place, and President Obama recently established a Council on Veterans 
Employment. If confirmed, I look forward to supporting Secretary 
Shinseki in his role on the President's Council.
    While economic conditions outside of VA's direct control contribute 
to unemployment, VA can evaluate and adjust its current programs to 
help address and overcome these obstacles. Employment is an essential 
part of successful transition for Veterans.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Jon Tester to Raul 
Perea-Henze, M.D., M.P.H., Nominee to be Assistant Secretary for Policy 
           and Planning, U.S. Department of Veterans Affairs

    Question 1. I am deeply concerned by the slow development of the 
Office of Rural Health (ORH). In its short history, it has not been 
sufficiently staffed and retention of leadership has been a constant 
problem. As a result, the ORH lacks a clear vision for what it should 
look like. I agree with you about the need to have better data 
collection on the health status of rural veterans. If confirmed, will 
you make this a priority for the ORH? What else do you see as the 
appropriate role for the ORH within the VA?
    Response. As you noted in our recent meeting, the Office of Rural 
Health resides in the Veterans Health Administration. However, I 
believe the Office of Policy and Planning (OPP) can help shape the 
vision and support the activities of the Office of Rural Health. If 
confirmed, I look forward to leading OPP in these efforts. OPP has the 
capacity to perform valuable analysis and research to assess the needs 
of rural Veterans. I believe it can also conduct environmental scans to 
determine existing best practices and determine how they might be 
applied to VA care delivery. OPP can provide valuable demographic data 
that can be used to establish baseline estimates and measure program 
success.
    The Office of Rural Health should serve as the VA leader in health 
care delivery to hard to reach Veterans. In support of this goal, the 
Office of Policy and Planning (OPP) can provide independent analysis of 
the different modalities that can be employed to serve these Veterans. 
OPP can evaluate the efficacy of tele-medicine and tele-health 
initiatives and identify innovative approaches to providing distance 
health care.
    Additionally, I believe it is essential to build a strong 
prevention element into a successful rural health program. The up-to-
date research and analyses provided by OPP may help the Office of Rural 
Health in developing such an approach.

    Question 2. The Committee recently held a hearing on the very clear 
need to improve health care for American Indian veterans. This is a 
vital part of improving health for rural veterans. It was clear from 
that hearing that we know very little about the problems facing 
American Indian veterans. We have very little data on the number of 
veterans eligible for both IHS and the VA, nor do we have any solid 
data on the particular health problems of American Indian veterans. 
This is an important segment of the veterans population that we are, 
quite frankly, missing the mark in terms of honoring our promise to 
care for those who shall have borne the battle. Worse, it is not at all 
clear to me that the VA has any sense of urgency in moving to better 
understand this issue. Can you commit to working to get a better handle 
on the challenges facing American Indian veterans?
    Response. You have my commitment that if confirmed, I will work 
with you, the Indian Health Service and others to address this issue. I 
appreciate the unique geographical and cultural issues involved in 
delivering care to these Veterans. If confirmed, I look forward to 
developing innovative alternatives to provide health care and 
preventive medicine to these and other minority Veterans.
    I understand VA has an Advisory Committee on Minority Veterans and 
I look forward to working with them and the Administrations to ensure 
that American Indian Veterans have access to benefits and services 
provided by VA. As I noted in my answer about rural health, a strong 
prevention element is essential to success. The research and analysis 
conducted by OPP can help identify innovative approaches to meet the 
needs of these Veterans.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mark Begich to Raul 
Perea-Henze, M.D., M.P.H., Nominee to be Assistant Secretary for Policy 
           and Planning, U.S. Department of Veterans Affairs

    Question 1. I have reviewed the VA's Strategic Plan for 2006-2011 
and note it is set to ``expire'' in the next 12 months.

    <bullet> When should we expect the VA to publish it next long-range 
strategic plan?
    <bullet> Is there a way to give to this Committee a report card or 
milestones of progress made, rather than waiting until the report is 
complete?
    Response. It is my understanding that the VA Strategic Plan for FY 
2010-2014 is in development at this time and that when VA began 
drafting this new strategic plan several months ago, the Department met 
with senior staff of the Senate Committee on Veterans' Affairs and the 
Senate and House Committees on Appropriations to get their input. This 
draft is currently being reviewed by the Office of Management and 
Budget (OMB). I understand that the Department expects to publish the 
VA Strategic Plan for FY 2010-2014 in the near future.
    If confirmed, I would be happy to work with the Department to 
update you and the Committee on VA's progress in implementing the VA 
Strategic Plan. As I mentioned during the hearing, under the Government 
Performance and Results Act (GPRA), the Department must submit annual 
performance reports to Congress that document its progress toward 
achieving the goals and objectives contained in the strategic plan. VA 
will be pleased to brief you and the Committee on the results contained 
in this report each year.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Roland W. Burris to 
 Raul Perea-Henze, M.D., M.P.H., Nominee to be Assistant Secretary for 
        Policy and Planning, U.S. Department of Veterans Affairs

    Question 1. Dr. Perea-Henze, I commend VA's establishment of a 
permanent office to address the needs of returning servicemembers. 
While many strides have been made to ensure a seamless transition from 
active duty to veteran status, more must be done to ease this 
integration into the VA system and reintegration into society. What is 
your view of the work that remains in this area, and how would you seek 
to accomplish a truly seamless transition? What are your plans to 
combat the cultural issues that accompany the transition to veteran 
status?
    Response. As I mentioned in my opening statement, if confirmed, I 
intend to establish and maintain strong working relationships with my 
counterparts at the Department of Defense. I believe it is contingent 
upon VA to ensure that everyone who has served is aware of the benefits 
and services provided by VA. Those who were injured while serving in 
harm's way and who continue to need VA's help after their service has 
ended will be a priority. Servicemembers need the most complete 
information possible about benefits and services available from VA to 
make the best decisions upon leaving service. I appreciate that this is 
an important issue for the Administration, for Secretary Shinseki, and 
most importantly for Servicemembers becoming Veterans. I understand 
much is being done already, but if confirmed, I will commit to 
aggressively examining the issue and ensuring that we are doing 
everything possible to ensure a smooth transition to Veteran status.

                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Raul Perea-Henze, M.D., M.P.H., to the Office 
of General Counsel, U.S. Department of Veterans Affairs:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much, Doctor.
    Dr. Perea-Henze, if confirmed, which issues do you intend 
to prioritize in your first 60 days in office? Are there 
certain areas which, in your opinion, need to be addressed on 
day one?
    Dr. Perea-Henze. Thank you for the question, Mr. Chairman.
    I think at the top of my list, since I am coming from the 
outside, will be the most important thing that I can do: to 
begin a full assessment of capabilities, resources, people's 
expertise, and systems in order to understand exactly where the 
Office of Policy and Planning stands. Along those lines also, 
how is the Office prepared to support the Secretary's 
priorities in the major three areas that are housed, if you 
will, at the Office of Policy and Planning: the transformation 
initiative, the long-range strategic planning that Senator 
Begich was referring to, and the collaboration between the VA 
and the DOD.
    I think understanding what you have, then understanding how 
to match those resources to the priorities will produce my 
third point, which will be the ability to have a plan of action 
within a reasonable period of time, 90 to 100 days, in which I 
can actually spell out the specifics.
    I am not aware--of course, I do not have all the 
information--of any issue that at this point I can say will be 
a day one situation. But, obviously, I am happy to come back 
and retrace my steps if we do find something once, and if I am 
confirmed, I have the opportunity to evaluate this further.
    Chairman Akaka. Dr. Perea-Henze, if confirmed, how do you 
intend to tap the expertise of career staff and ensure that 
they are brought into the decisionmaking process?
    Dr. Perea-Henze. Thank you for that question, Mr. Chairman. 
It is probably one of the core elements of my opening 
statement. Having worked at the Commerce Department previously, 
I have seen firsthand how the subject matter experts who deal 
with all of these issues can be so valuable for ideas and 
implementation. I believe that involving all of these experts 
at the Office of Policy and Planning early on will produce 
enough knowledge to understand how to move forward. If there is 
some transformation, for example, transformation will never be 
complete if the rank of the Department are not buying into it 
for the long term. So I commit to you that this is going to be 
one of the central pieces of how I will work with OPP, if 
confirmed.
    Chairman Akaka. On October 8, this Committee held a hearing 
on various environmental exposures, two of which took place on 
military facilities--one at Camp Lejeune in North Carolina, 
another at Atsugi Naval Air Station in Japan. Both 
environmental incidents affected servicemembers and their 
families. Noting that these issues fall under the jurisdiction 
of both the Departments of Defense and Veterans Affairs, how 
can your office help develop a sensible, effective approach to 
dealing with the issue of military exposures.
    Dr. Perea-Henze. Mr. Chairman, I think that is a very 
important question.
    Again, if confirmed and I have a chance to understand what 
is already going on through the collaboration between VA and 
DOD--it is my understanding from the outside that at least they 
are aware of this issue and they are beginning to address it. 
However, there is also a very important function that the 
Office of Policy and Planning can play by looking into data 
evaluation, monitoring, and then really using all of this to 
understand the contamination situations in working with, across 
VA, as Dr. Petzel referenced before, as ``one VA'' to try to 
solve the issue. So, if I am given the opportunity, I think 
that will be my first evaluation.
    Chairman Akaka. Doctor, in my opinion, the Office of Policy 
and Planning has been hindered by a lack of continuous 
leadership, evidenced by long gaps between confirmed assistant 
secretaries. How will you address this issue and provide the 
stability that this Office needs?
    Dr. Perea-Henze. Mr. Chairman, this is also part of my 
opening statement, the acknowledgment that organizations can 
suffer when there is no stable leadership. So I commit to you 
to work with the Office and work with Congress and other 
stakeholders to make sure that the good work that is already 
happening there is acknowledged, and whatever improvements can 
happen on data collection mechanisms and utilization of that 
data are really enhanced. I believe that that reputation 
enhancement will provide a sense of better stability for the 
entire group working at the Office of Policy and Planning.
    Chairman Akaka. Thank you very much.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Doctor, again, welcome. A little housekeeping first, as 
Ranking Member, we also have oversight responsibilities as it 
relates to VA's activities, and that leads me or my staff to 
make formal inquiries for information, for statistics, for 
briefings and materials from the VA. If confirmed, do I have 
your commitment to provide in a timely fashion those requests?
    Chairman Akaka. Absolutely, Senator.
    Senator Burr. If confirmed, do I have your assurance that 
you will be proactive in notifying the Committee, both sides of 
the aisle, on any issues that deal with the Veterans 
Administration?
    Dr. Perea-Henze. Absolutely.
    Senator Burr. Doctor, in the prehearing questions, you were 
asked about efforts to improve the coordination between the VA 
and the Department of Defense, and you mentioned that VA could, 
``create mechanisms for enforcing accountability with its 
partners at DOD.'' I have seen some of the best try and only 
attain marginal success. So, if you would, share with me what 
you mean by those mechanisms.
    Dr. Perea-Henze. Thank you, Senator.
    There's much that I do not know; however, in a 
collaboration of this type there is not one line of authority 
or one side or another that can cut across. So my reference 
there refers to the fact that you really have to build an equal 
collaboration on issues, whether it is health, benefits, 
electronic medical record, et cetera. Then and only then, are 
we able to be effective in the seamless transfer of information 
across the border.
    If given the chance to be confirmed, I will commit to you 
to come back with a more specific plan, after having an 
opportunity to assess what is already being done by the Joint 
Executive Council and the Strategic Operating Committee.
    Senator Burr. Well, I thank you for that, and we will hold 
you to that commitment----
    Dr. Perea-Henze. That is OK, Senator.
    Senator Burr [continuing]. And suggest to you that this is 
going to be a monumental task, one that far exceeds any 
experience you had at the Commerce Department as it relates to 
trade and when all the agencies came in together to talk about, 
and to vote, whether we might have done something or not done 
something. Trust me when I tell you, you have not seen anything 
as difficult as what you are going to run into trying to 
collaborate and come up with one system that is seamless 
between the Department of Defense and the Veterans 
Administration. I think Dr. Petzel knows exactly what I am 
saying.
    But I do believe that there is a willingness on both sides, 
at DOD and at VA, spearheaded by General Shinseki, to make this 
work. Unfortunately, it will take the undivided attention of a 
lot of people to accomplish that.
    Your career has already consisted of quite impressive and 
diverse experiences, I might say, ranging from the city of New 
York to White House fellow to the upper echelons of Pfizer and 
Merck. Share with me, if you will, why did you accept the 
Assistant Secretary of Policy and Planning at the Veterans 
Administration?
    Dr. Perea-Henze. That is a very interesting question, 
Senator.
    Number 1, I have tremendous respect for what the 
servicemembers do for this country. I do not think that I can 
serve this country that way, so they have my respect and 
admiration. The opportunity to have the honor to serve them I 
think is one of the best things that I can think of.
    Second, you talked about a team and the team vision. As you 
have said, I have seen many leadership styles, many different 
settings, and I really do believe that the vision that 
Secretary Shinseki and the President have articulated for the 
VA is one that can be effective and realistic. It has some 
ambitious goals, but I really do believe that this will bring 
enhanced lives for the veterans and their families.
    Senator Burr. At some point, this chapter in your career 
will also end, and you will go on to something else.
    Dr. Perea-Henze. I have no idea what that will be.
    Senator Burr. What would you like your accomplishment to be 
at VA if you are limited to one major accomplishment?
    Dr. Perea-Henze. Senator, I believe that the best 
accomplishment I could enjoy is to have the transformation 
initiative that is coordinated out of the Office of Policy and 
Planning trickle through in the best possible way, through the 
entirety of the VA, transforming the organization into one VA, 
while also leaving behind a lot of best practices that may be 
discovered as a new way of doing business on behalf of the 
veterans.
    I cannot think of all the other pieces--you know, 
facilitating and advising on policy, I think, are just under 
that; producing a very good long-range strategic plan, as 
referenced by Senator Begich; all of those have to feed into 
whether we can really show a difference, whatever the end of my 
tenure will be, from what it is today.
    Senator Burr. Thank you, Doctor.
    Dr. Perea-Henze. Thank you, Senator.
    Senator Burr. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Burr.
    Senator Begich.
    Senator Begich. Thank you very much. I appreciate your 
response in your opening and throughout to some of the 
questions in regards to the long-term strategic planning. If I 
heard you right, I just want to make sure I am hearing you 
right, that probably 90 to 100 days or so you will have a good 
assessment of some of the things that need to be done, that you 
could have more confidence in responding to how that strategic 
plan will unfold or develop. Did I hear that right?
    Dr. Perea-Henze. Senator, if confirmed, I will be able to 
give you much more specific information. However, I do know the 
cycle for the strategic plan has just ended.
    Senator Begich. Correct.
    Dr. Perea-Henze. There is a plan in place, the long-term 
plan. This stems from the Government Performance Review Act, 
that in fact I was actually in charge of when I was at the 
Commerce Department. It is quite complex, but it really aims at 
looking at performance indicators all through the different 
operations and has very strict milestones.
    From my perspective, what I would like to see is the VA 
really use the results of that exercise and put in practice a 
lot of the recommendations because it is only then you are 
going to see significant change.
    Senator Begich. Right. You led me right to my next piece of 
the question, and that is you can do a lot of great plans, and 
then they can just sit there, and everyone feels good they 
completed it. There is great celebration after completing the 
plan in the sense of drafting it, but then the hurdle is 
putting it into action.
    When I was mayor, every plan we created had measurement 
points to see how we were doing, which were then reported in 
the public arena.
    In this one, which I have no idea how this strategic plan 
was done, from 2006 to 2011, is there opportunity through your 
office 18 months into the plan to be able to say, ``Here is a 
report, here is how we are doing,'' kind of a report card; and 
maybe using this Committee as a vehicle, maybe testifying or 
just submitting a report card for us, instead of waiting 5 
years out and reporting how we did. Then we may have a 
variation of scale of success, instead, trying to look at it as 
we move along because a plan is a plan, and it does change 
based on the environment that we are working in. The 2006 plan 
may not have anticipated what we are experiencing now with 
Afghanistan and Iraq today.
    Is that a reasonable thing to actually put into the plan, 
if the plan exists? Maybe there is something already in there. 
If you are unaware of that, I am not asking you to dig deep and 
try to figure it out right now. However, I think it is an 
important measuring effort for us to see success as it is 
progressing through.
    Does that make any sense?
    Dr. Perea-Henze. Yes, Senator, completely.
    Senator Begich. OK.
    Dr. Perea-Henze. That is a very good point. I agree with 
what you are suggesting, which is you have to have some 
reporting times. I believe they are built into the act.
    Senator Begich. Could you share that with us?
    Dr. Perea-Henze. I will clarify that for you, hopefully, in 
the written response----
    Senator Begich. That is great.
    Dr. Perea-Henze [continuing]. To make sure that what I am 
saying is the truth.
    It is important that those milestones get examined 
carefully, and then, as you are also suggesting, you want this 
Committee to be given a report every so often.
    Senator Begich. Right.
    Dr. Perea-Henze. If confirmed, I will examine exactly what 
the mechanisms are, and, if that is one that you will like us 
to report on, I will check on that.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Mark Begich to 
 Raul Perea-Henze, M.D., M.P.H., Nominee to be Assistant Secretary for 
        Policy and Planning, U.S. Department of Veterans Affairs

    Request: Please provide me with a copy of VA's long term strategic 
plan for 2006-2011 within 90 to 100 days of starting at the VA.
    Response. If confirmed, I would be happy to provide your staff with 
a copy of the VA Strategic Plan for FY 2006-2011.
    In addition, it is my understanding that the VA Strategic Plan for 
FY 2010-2014 is in development at this time and that when VA began 
drafting this new strategic plan several months ago, the Department met 
with senior staff of the Senate Committee on Veterans' Affairs and the 
Senate and House Committees on Appropriations to get their input. This 
draft is currently being reviewed by the Office of Management and 
Budget (OMB). I understand that the Department expects to publish the 
VA Strategic Plan for FY 2010-2014 in the near future.

    Senator Begich. Yes, I would. I am not going to speak on 
behalf of the Committee in total, but I would because I think 
it is a great way for us, instead of waiting for the end of the 
cycle, to say, why did you not do this?
    Dr. Perea-Henze. Correct.
    Senator Begich. Instead, saying earlier, well, here is 
success, here is where we are having some trouble, and here is 
why. So we can then work in concert with others to move forward 
with the efforts that you are trying to do through the 
strategic plan.
    I am sure my staff will tell me there are elements in this 
already, but I wanted to make sure we put it in the discussion 
here. So I appreciate that.
    Dr. Perea-Henze. Yes, Senator.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Mark Begich to 
 Raul Perea-Henze, M.D., M.P.H., Nominee to be Assistant Secretary for 
        Policy and Planning, U.S. Department of Veterans Affairs

    Request: If confirmed, please provide me with incremental 
benchmarks on the implementation of VA's strategic plan.
    Response. If confirmed, I would be happy to work with the 
Department to update you and the Committee on VA's progress in 
implementing the VA Strategic Plan. As I mentioned during the hearing, 
under the Government Performance and Results Act (GPRA), the Department 
must submit annual performance reports to Congress that document its 
progress toward achieving the goals and objectives contained in the 
strategic plan. VA will be pleased to brief you and the Committee on 
the results contained in this report each year.

    Senator Begich. My time is almost up. So I just want to 
mention one other issue which I mentioned in the last 
conversation, with regards to travel and some of those issues. 
There is authority that the Secretary has, especially for folks 
under 30 percent disability, to have some of those waivers.
    I am putting it on record only because everyone with the 
VA--I want to stress how important and difficult it is for very 
remote veterans to get to the physical facilities for those 
services. It is very, very difficult in Alaska to do this in 
some areas.
    We are now learning through a lot of data that more and 
more veterans are living in more rural areas than ever before, 
and Alaska is one of those areas. As I mentioned, 11 percent of 
our population in the whole State are veterans, and that is a 
significant amount. So we are trying to reach them any way we 
can with services.
    As you think of strategic planning, long-term, how do we 
get to that rural component that is growing, and how do we 
ensure that we have quality services?
    There are a lot of innovative things we are doing in Alaska 
that the VA is very supportive of, for example, some of our 
work with Indian Health Services, some of the collaboration we 
are doing there. So, as you think of the planning efforts, 
please feel free to contact our office. We will be happy to 
tell you. When people say remote, we will tell you what remote 
is. Hopefully, we will help drive some of the discussion.
    Again, it is an honor to have you here today, and I look 
forward to supporting your confirmation, and thank you for your 
public service to this Country.
    Dr. Perea-Henze. Thank you, Senator.
    Chairman Akaka. Thank you very much, Senator Begich.
    I want to thank you, Dr. Perea-Henze, for your full and 
open participation in today's hearing. I view your combined 
experience of nearly 25 years in both the public and private 
sectors as a tremendous asset, and I believe you will be an 
outstanding voice for the Nation's veterans in the role of 
Assistant Secretary for Policy and Planning at VA.
    With this in mind, I would like to bring Dr. Perea-Henze's 
nomination before the Committee and full Senate as soon as 
possible.
    As I said previously for Dr. Petzel's nomination, I ask 
that any posthearing questions for Dr. Perea-Henze be sent to 
the Committee's Legislative Clerk by tomorrow at noon, with the 
hope of marking up next Wednesday.
    Again, I thank you very much and give our best to your 
family as well.
    Dr. Perea-Henze. Thank you, Mr. Chairman.
    Chairman Akaka. This hearing is adjourned.
    [Whereupon, at 11:04 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


 Prepared Statement of Hon. Bernard Sanders, U.S. Senator from Vermont

    Thank you Mr. Chairman. I want to welcome Dr. Petzel and his family 
and Dr. Perea-Henze. I very much enjoyed meeting with both of our 
nominees last week to discuss their priorities for the VA.
    Both of the nominees before us have been nominated to serve their 
country at a challenging but also rewarding time for those that care 
for our Nation's veterans. The wars in Iraq and Afghanistan have 
brought hundreds of thousands of servicemembers into the VA and there 
will certainly be more to come with the drawn down in forces in Iraq 
and the president's announced plans for Afghanistan. We need to care 
for this younger population while we maintain the level of care that 
millions of our older veterans depend on. As debate continues on our 
policy in Afghanistan, the VA, DOD, and the Congress must make sure 
that we continue to fund and staff the agencies responsible for caring 
for our injured services members and veterans and plan for the 
increased usage that is likely to come. Caring for our veterans is part 
of the cost of going to war.
    Dr. Petzel, if confirmed, you will be tasked with leading one of 
the largest healthcare systems in the world. While we all know that the 
VA continues to have challenges, it can rightly be proud of the quality 
of care it provides and being a leader in electronic health records, 
controlling costs, prosthetics and so many other areas. Your job will 
be to make it work even better. Dr. Perea-Henze, your position is 
crucial in making sure that the leadership throughout the VA has the 
data and policy ideas needed to continue to improve how the VA operates 
internally and how it delivers health care and other benefits and 
services to our veterans. As the second largest agency in the Federal 
Government, that is no small task.
    Let me just list a few of the areas that are a priority to me that 
I look forward to working with both of you on in your new positions:

    1. Continue Expansion of CBOCs/Vet Centers: I am working with VA 
officials to establish a health clinic in the Northeast Kingdom region 
of Vermont to help improve veterans' access to health care in this part 
of my state. Like many of my colleagues, I am a strong supporter of 
CBOCs and support their expansion across the country, especially in 
rural areas. The same is true for Vet Centers which provide very 
important counseling and readjustment services to our veterans and 
their families. I also support the use of home tele-health and mental 
tele-health as other ways to bring VA care closer to our veterans.
    2. Continue Bringing Priority 8 Veterans Back Into the VA System: 
We need to continue to build on last year's first step of bringing a 
segment of Priority 8 veterans back into the system in a responsible 
way with the end goal of bringing all Priority 8 veterans back into the 
system. I know this is a priority for President Obama and Secretary 
Shinseki and I commend Dr. Petzel for his recognition of the importance 
of expanding VA access to Priority 8 veterans in his prehearing 
responses to Committee questions.
    3. More VA Outreach and Learning from Vermont Model: VA has made 
improvements in the area of outreach to veterans but clearly more needs 
to be done to let them know what VA services they are entitled to. This 
is especially true for our Guard and Reserve. Top quality care and 
services are important but they don't do veterans any good if they 
don't know about them or can't access them. We have a model outreach 
program in Vermont known as the Vermont Veterans and Family Outreach 
Program partnering the VA with the Vermont National Guard. This program 
uses VA-trained Outreach Specialists, many of whom are veterans 
themselves, to reach out directly to returning servicemembers and their 
families and help them get the assistance and care they may need from 
the VA or other Federal, state, and local programs. Under this 
reintegration program we have enrolled 77% of returning servicemembers 
into the VA and we believe that by reaching out to servicemembers pro-
actively, instead of waiting for them to begin to have serious health 
and mental health challenges, we are trying to get to problems before 
they reach a crisis level. This outreach and reintegration program has 
served as a model for a number of states and I believe it is worth 
looking into how the VA and DOD could replicate it in other parts of 
the country.
    4. Automatic Enrollment in VA for Members of the Guard and Reserve: 
Consistent with the idea of a seamless transition between the DOD and 
VA, I believe it makes sense to automatically enroll members of the 
National Guard and Reserve into VA health and dental care as soon as 
they go through discharge. This does not force these servicemembers to 
use the VA system but it does cut down on the process of applying for 
VA care later and allows VA care to be there if a veteran who doesn't 
think they need the care now, realizes later in life that they want it. 
This would also remove the chance that veterans miss their sign up 
window for certain VA care such as dental benefits. The VA is already 
doing this enrollment assistance in many military installations across 
the country. I have introduced legislation (S. 1798), the Automatic 
Reserve Component Enrollment Act of 2009, to make this process uniform. 
This legislation is supported by the National Guard Association of the 
United States, the Paralyzed Veterans of America, and the Reserve 
Officers Association. This legislation is meant to support Sec. 
Shinseki's concept of ``uniform registration'' and the Virtual Lifetime 
Electronic Record.
    5. Continue Research/Treatment for PTSD, TBI: We all know that PTSD 
and TBI are the signature injuries of the wars in Iraq and Afghanistan. 
Stanford University estimates that as many as 665,000 or 34 percent of 
Iraq and Afghanistan veterans are experiencing symptoms of Post 
Traumatic Stress Disorder. Yet only 53 percent suffering from PTSD or 
major depression have seen a physician or mental health provider. As of 
January 2009, nearly one in five Iraq and Afghanistan veterans have 
experienced a Traumatic Brain Injury. Yet only 46 percent who 
experienced a mild Traumatic Brain Injury were screened for a 
concussion. With more and more servicemembers coming home from Iraq and 
the announced escalation in Afghanistan, we need to continue our 
research efforts so that we know how to treat these injuries, 
especially when these injuries occur at the same time. We also need to 
focus on treating substance abuse, eye injuries, and work to prevent 
suicides. The VA's National Center for PTSD, headquartered in Vermont, 
plays a crucial role in researching PTSD and educating VA and other 
clinicians on effective treatments and we need to continue to support 
their work.
    6. Improve Gulf War Veterans Access to VA Care, Improve Research on 
Treatments: In their 2008 report, the Congressionally-mandated Research 
Advisory Committee on Gulf War Veterans Illnesses, appointed by the 
Secretary of Veterans Affairs, concluded that extensive scientific 
evidence conclusively demonstrates that Gulf War illness is real and 
was caused by toxic exposures during the war, and that there are 
currently no effective treatments. Gulf War Illness affects at least 
175,000 veterans--one in four of those who served. Over the last few 
years, I have worked to secure funding for Gulf War Illness treatment 
research through the Department of Defense. I would like the VA to have 
a more aggressive research program for treatments and to work to find 
ways to make sure that every Gulf War veteran suffering from conditions 
related to their service gets the care they need and that that 
education of our VA clinicians and care is consistent wherever that 
veteran seeks care in the VA. Unfortunately, toxic exposures continue 
to be a reality of modern warfare and the VA needs to make sure it is a 
leader in treatments for veterans of all eras that have been exposed to 
harmful toxins, chemicals, and other substances during their service.

    These are just a few of the areas where I believe we need to focus 
our attention.
    There are many challenges that are before the VA but I believe 
these two nominees are qualified to tackle them and improve the care 
provided to our veterans.
    I look forward to working with our two nominees and my colleagues 
on these challenges.

    Thank you Mr. Chairman.
      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
